<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        WEDNESDAY, MARCH 2, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:33 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Cochran, Murkowski, Hoeven, 
Lankford, Feinstein, Tester, Udall, and Coons.

                   U.S. ARMY CORPS OF ENGINEERS AND 
                         BUREAU OF RECLAMATION

HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY 
            (CIVIL WORKS), CORPS OF ENGINEERS--CIVIL, 
            DEPARTMENT OF THE ARMY, DEPARTMENT OF 
            DEFENSE--CIVIL
        ACCOMPANIED BY THOMAS P. BOSTICK, LIEUTENANT GENERAL, 
            COMMANDING GENERAL AND CHIEF OF ENGINEERS
                                ------                                

ESTEVAN R. LOPEZ, COMMISSIONER, BUREAU OF RECLAMATION, 
            DEPARTMENT OF THE INTERIOR
        ACCOMPANIED BY TOM ISEMAN, DEPUTY ASSISTANT SECRETARY, WATER 
            AND SCIENCE


              opening statement of senator lamar alexander


    Senator Alexander. Good afternoon. The Subcommittee on 
Energy and Water Development will please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the U.S. Army Corps of Engineers and 
the Bureau of Reclamation, which is part of the Department of 
Interior. This is the subcommittee's second budget hearing this 
year, and we will have two more budget hearings in the coming 
weeks.
    Now, we are going to change our procedure just a little 
bit, but it will not hurt to have a little more relaxed and 
informal hearing. We have four votes on the Senate floor that 
are scheduled to begin now, and I will give my opening remarks, 
and then will turn to Senator Feinstein for her remarks. Once 
Senator Feinstein and I have given our opening statements, we 
will take a brief recess to allow Senators to vote and come 
back, or if a Senator is here, we will just continue the 
hearing, alternating in between Senator Feinstein as Chairman 
of the Committee.
    To allow Senators enough time to ask their questions, I am 
going to ask each Senator to withhold their opening remarks, 
and I ask unanimous consent that any written statements 
Senators would like to submit be included in the hearing 
record.
    Our witnesses' written testimony, which we have, will also 
be included in the hearing record, and I would ask you to 
withhold your opening statements. And then as soon as Senators 
arrive, we will recognize them one by one for their 5 minutes 
of questions and conversations. And if there is anything in 
your opening statement that you would like to say when you 
answer questions, there will be plenty of time to say that.
    So basically during these votes, which are going to last 
about an hour and a half, we will have alternating Senators. 
But I hope we can continue to have our hearing all the way 
through the end--to the end. Several Senators had expressed an 
interest in coming today, and I know for certain that Senator 
Feinstein will be here.
    Our witnesses today include Jo-Ellen Darcy, the Assistant 
Secretary of the Army for Civil Works. Ms. Darcy has been 
serving as the Assistant Secretary since 2009, and she has told 
me this may be her last budget hearing before this committee. I 
want to thank her for her many years of public service. I have 
enjoyed working with her both publicly and the visits we have 
had in our offices, and including her time working on the 
Senate Environment and Public Works Committee. So thank you, 
Secretary Darcy, for being here today.
    [The statement follows:]
               Prepared Statement of Hon. Jo-Ellen Darcy
    Thank you Chairman Alexander and distinguished members of the 
subcommittee for the opportunity to present the President's Budget for 
the Civil Works program of the Army Corps of Engineers for fiscal year 
2017. We are pleased to have an opportunity to further expand on the 
Administration's priorities and goals. Those priorities include 
promoting resilient communities to address current and future impacts 
of climate change and sea level rise; fostering and maintaining strong 
partnerships with local communities; and practicing sustainability and 
sound stewardship across all our missions. I also want to take this 
opportunity to touch on points that this Committee has raised in the 
past.
    This year's Civil Works Budget reflects the Administration's 
priorities through targeted investments in the Nation's water resources 
infrastructure that will reduce flood risk to communities; facilitate 
commercial navigation; and restore degraded aquatic ecosystems.
    The 2017 Civil Works Budget provides $4.62 billion in discretionary 
appropriations for the Army Civil Works program, focusing on 
investments that will yield high economic and environmental returns or 
address a significant risk to safety.
    The Budget focuses on funding our three major mission areas:
  --42 percent of funding is allocated to commercial navigation,
  --26 percent to flood and storm damage reduction, and
  --8 percent to aquatic ecosystem restoration.
    Other practical, effective, sound investments include allocating 
$196 million of the Budget to hydropower, $200 million to regulatory 
activities, and $103 million to the clean-up of sites contaminated 
during the early years of the Nation's nuclear weapons program.
    The Civil Works program, which this Budget supports, relies on the 
strong relationships between the Corps and local communities; these 
strong relationships allow us to work together to meet their water 
resources needs across all of our missions, as well as to address 
broader water resources challenges that are of concern at the national 
or regional level.
    The Budget supports a Civil Works program that has a diverse set of 
tools and approaches to working with local communities, whether this 
means funding studies and projects with our cost-sharing partners, or 
providing planning assistance and technical expertise to help 
communities make better-informed decisions.
                         planning modernization
    The Budget supports the continued implementation of Corps efforts 
to modernize its planning process. The Budget provides funding in the 
Investigations account for 49 feasibility studies, and funds 12 of them 
to completion.
    The Budget reflects full implementation of the SMART (Specific, 
Measurable, Attainable, Risk Informed, Timely) planning initiative, 
under which each feasibility study is to have a scope, cost, and 
schedule that have been agreed upon by the District, Division, and 
Corps Headquarters. The Budget supports efficient funding of these 
studies.
    Studies generally are funded with the presumption that they will 
complete in 3 years and for $3 million ($1.5 million Federal). In the 
first year, the Corps will work to identify the problem, develop an 
array of alternatives, and begin the initial formulation. The bulk of 
the study costs are anticipated to be incurred during year two, as the 
alternatives are narrowed down and a Tentatively Selected Plan is 
identified, which requires more detailed feasibility analysis and 
formulation. During the third year, the focus is on completing the 
detailed feasibility analysis, State and agency review, and finalizing 
the Chief's Report. There are some exceptions to this funding stream, 
such as where an increase in the study cost or an extension in the 
study schedule is appropriate based on factors such technical 
complexity, public controversy, the need for more detailed work to 
address a specific issue, or the overall cost of a proposed solution.
    Over the past 3 years, the Corps began 29 new studies and resumed 
10 studies. The fiscal year 2017 Budget focuses on managing these and 
other ongoing studies and bringing them to a conclusion. It includes 
funding for 14 studies and three preconstruction engineering and design 
efforts previously funded only through the annual Corps work plans. 
Among the studies budgeted for the first time this year are two of the 
feasibility studies that were recommended as focus areas in the North 
Atlantic Coast Comprehensive Study, nine studies that are starting in 
fiscal year 2016, and three disposition studies under the Disposition 
of Completed Projects remaining item.
    The Water Resources Priorities Study is one of the 10 studies 
started in the fiscal year 2016 work plan. This study will address the 
critical need to develop a baseline assessment of the Nation's 
vulnerability to flood damages on both a national and regional scale. 
First, a baseline assessment will identify and analyze the key drivers 
of flood risks, including the ways in which some of those risks are 
changing or expected to change over time. The study will then examine 
the effectiveness of existing Federal, State, and local programs, and 
develop recommendations to improve these programs to reduce the 
economic and life safety risk associated with large-scale flood and 
storm events in ways that will also promote the long-term 
sustainability of communities and ecosystems.
    The Budget also helps to further combat the spread of invasive 
species by its proposals for funding work associated with the Great 
Lakes and Mississippi River Interbasin Study (GLMRIS). The Budget 
supports efforts to reduce the risk of interbasin transfer of aquatic 
nuisance species through the Chicago Area Waterway System (CAWS) in the 
vicinity of Brandon Road Lock and Dam. The Brandon Road effort will 
assess the viability of establishing a single point to control the one-
way, upstream transfer of aquatic nuisance species from the Mississippi 
River basin into the Great Lakes basin near the Brandon Road Lock and 
Dam located in Joliet, Illinois. The Budget includes funding to 
continue this effort.
    Among the 12 feasibility studies funded to completion is the 
Mississippi River Hydrodynamic Model--Delta Management Study under the 
Louisiana Coastal Area Ecosystem Restoration Program. This greater than 
$25 million study effort will identify options to address the long-term 
sustainability of the lower Mississippi River Deltaic Plain and provide 
a model to assess the effects on navigation and sediment dynamics along 
the Mississippi River main stem associated with combinations of 
Mississippi River diversions.
    Investigation funds are also provided to continue to support State 
and local flood risk mitigation priorities through the ``Silver 
Jackets'' program. The Corps currently supports participation on 
``Silver Jackets'' team in 44 States and the District of Columbia 
through which technical assistance activities are being implemented 
that support State and local community flood risk and floodplain 
management priorities.
                              construction
    The Budget for the construction program includes funds to complete 
six construction projects, continue 27 ongoing projects, and start one 
new project. The one new construction project, Mud Mountain Dam in 
Washington State, involves construction of a fish passage facility to 
address a Biological Opinion.
Flood and Storm Damage Reduction
    The Budget includes $404 million for flood and storm damage 
reduction projects and remaining items, and funds the American River 
Watershed (Folsom Dam Modification), CA project and the Topeka, KS 
project to completion.
    Over the last several years, Congress has funded the dam safety 
program at a lower level than the Budget, based on revisions of 
capabilities that the Corps has provided to Congress subsequent to the 
Budget submission. These revisions--often but not always showing a 
lower capability than requested in the Budget--are caused by a variety 
of factors, including savings from contract awards, process 
efficiencies, and changed conditions. The Budget includes $239 million 
(not including $21 million for the Dam Safety remaining item) for the 
dam safety program that, when coupled with anticipated unobligated 
carryover balances on these important projects, will ensure that each 
of the Dam Safety Action Classification (DSAC) I and DSAC II projects 
funded in the Budget is able to progress efficiently and effectively to 
implement a risk reduction strategy for these structures.
Coastal Navigation
    The Budget includes $105 million for coastal navigation and 
remaining items and funds the Oakland Harbor, CA (50-foot Deepening) 
project and the Delaware River Deepening, NJ, PA, & DE project to 
completion. The Savannah Harbor Expansion Project, GA project is funded 
at $42.7 million, which is over a 100 percent increase from the fiscal 
year 2016 Budget. The Columbia River at the Mouth, OR & WA project is 
funded at a level that will enable efficient progress toward mitigating 
the life safety risk that is presented by the deteriorated jetties.
Inland Navigation
    The Budget funds inland waterways construction and remaining items 
at $246 million, of which $33.75 million will be financed through the 
Inland Waterways Trust Fund (IWTF) for the Olmsted Locks and Dams, IL & 
KY project, which at $225 million is funded at the highest amount ever 
budgeted for this project. With the passage of the Water Resources 
Reform and Development Act of 2014 (WRRDA 2014), the Olmsted Locks and 
Dam, Ohio River, Illinois and Kentucky project is now cost-shared 85 
percent General funds and 15 percent IWTF. This change reduced the cost 
of this project to the navigation users by around $500 million, and 
increased the amount that Federal taxpayers will have to pay by an 
equivalent amount. In the ABLE Act, the Congress also increased the tax 
on diesel fuel used in commercial transportation on certain of the 
inland waterways. As a result of both of these changes, over the next 
few years there will be somewhat more money in the IWTF to support the 
user-financed share of inland waterways capital investments.
    The Administration--as it has in recent years--will propose 
legislation to reform the way that we finance capital investments for 
navigation on the inland waterways. The Administration's proposal 
includes a new user fee to produce additional revenue to help finance 
long-term future investments in these waterways to support economic 
growth. We would like to work with the Congress to enact this 
legislation.
    The Corps is also finalizing a Capital Investment Strategy for the 
inland waterways. The Corps has coordinated this effort with 
stakeholders and the Inland Waterways Users Board to provide an 
opportunity for their input. The process will include an estimate of 
the investment need over the next 20 years and objective nationwide 
criteria to provide a framework for deciding which capital investments 
should have priority for funding from a national perspective. While 
this Strategy will provide a benchmark, it is a conceptual plan and 
does not take the place of normal Budget processes or commit the 
Government to future actions.
Aquatic Ecosystem Restoration
    The Corps continues to contribute to the Nation's efforts to 
restore degraded environments; to that end, the Budget for the Corps 
funds restoration of several large aquatic ecosystems that have been a 
focus of interagency collaboration, including the California Bay-Delta, 
the Chesapeake Bay, the Everglades, the Great Lakes, and the Gulf 
Coast. Other funded efforts include the Columbia River, and priority 
work in the Upper Mississippi and Missouri Rivers.
                       operation and maintenance
    The Budget provides $2.705 billion for Operation and Maintenance, 
with $1.122 billion for operation and $1.414 billion for maintenance, 
and an additional $169 million for remaining items. This encompasses a 
wide range of activities, from operating and maintaining our locks and 
dams to monitoring the condition of dunes and berms that reduce the 
risk of flooding in a hurricane from wave action and storm surges, 
running the Corps recreation facilities that are visited by millions of 
Americans each year, and helping us be responsible stewards of the 
lands associated with Corps projects and operate them in an 
increasingly sustainable fashion.
    For example, the Budget helps us maintain and improve our efforts 
on sustainability. We are reducing the Corps' carbon footprint by:
  --increasing renewable electricity consumption,
  --reducing greenhouse gas emissions, and
  --reducing non-tactical vehicle petroleum consumption.
    We are also making important investments to promote the sustainable 
management of Corps-owned lands, waters and cultural resources. The 
Budget provides $9.6 million to update 24 Master Plans and initiate 
work on 26 others that govern how we manage our facilities, which will 
helps us make better decisions about how to use the land and keep it 
healthy; $12 million to address impacts from invasive plants and 
animals at Corps facilities; and $6.9 million for enhancements and 
protections for habitat in support of the National Strategy to Promote 
the Health of Honey Bees and other Pollinators.
    The Budget also provides $35.5 million for the levee safety 
program, which will help ensure that Federal levees are safe and in 
line with the Federal Emergency Management Administration standards.
    The overall condition of the inland waterways has continued to 
improve over the last few years. The number of lock closures due to 
preventable mechanical breakdowns and failures lasting longer than one 
day and lasting longer than one week has decreased significantly since 
fiscal year 2010. However, the lock closures that do occur result in 
additional costs to shippers, carriers, and users. That is why the 
Budget continues to provide a high level of funding to operate and 
maintain the inland waterways, with emphasis on those that together 
carry 90 percent of the commercial traffic.
Harbor Maintenance Trust Fund
    The Budget provides $951 million from the Harbor Maintenance Trust 
Fund (HMTF) to maintain coastal channels and related work, which is the 
highest amount ever budgeted. This includes almost 11 percent for Great 
Lakes harbors, 10 percent for emerging harbors, $856 million from the 
O&M Account, $2 million from the Mississippi River & Tributaries 
account, and $65 million from the Construction account.
                        research and development
    Research, Development, and Technology is a component of the Science 
and Technology portfolio of the Corps and continues to address key 
strategic technology needs to inform policy-making and business 
processes. The fiscal year 2017 Budget includes $18.1 million for 
research and development. This funding will be used to extend the 
service life of water resources infrastructure through research, use of 
novel materials, and technology transfer. The Research, Development, 
and Technology program enhances our capabilities to facilitate marine 
transportation, assist flood and coastal storm preparation and recovery 
efforts, restore aquatic ecosystems, pursue sustainable environmental 
management, and respond to changing environmental conditions.
                            remaining items
    The Budget includes $276 million for remaining items, including $55 
million in the Investigations account, $44 million in the Construction 
account, $169 million in the Operation and Maintenance account, and $8 
million in the Mississippi River and Tributaries Account.
    Annual funding for these remaining items is determined based on 
current needs, such as the increased focus on technical assistance to 
States and local communities to improve resilience to climate change.
                           regulatory program
    The Budget includes $200 million for the Regulatory program.
         alternative financing and public-private partnerships
    As part of looking to the future of the Army's Civil Works program, 
we continue to consider potential tools to expand and strengthen our 
already strong partnerships, especially in the area of Alternative 
Financing. As part of this effort, we are actively talking with 
potential non-Federal partners about their ideas for how we can work 
together and soliciting suggestions and best practices from others in 
the Federal Government with experience in this area.
    Increasingly, some non-Federal sponsors have been contributing or 
advancing funds for work that is authorized to be funded at Federal 
expense. In such cases, the project beneficiaries assume more (or all) 
of the cost. Before entering into an agreement to accept such funds, 
the Corps carefully evaluates its overall workload to ensure that 
execution of the proposed work will not adversely affect our directly-
funded programs, projects and activities.
                       veterans curation program
    Finally, this Budget provides $6.5 million for the Veterans 
Curation Program, which was started in 2009 with support from the 
American Recovery and Reinvestment Act. This program offers veterans 
the opportunity to learn tangible work skills and gain experience by 
rehabilitating and preserving federally owned or administered 
archaeological collections found at Corps projects.
    Thank you all for attending today. General Bostick will provide 
further remarks on the Army Corps of Engineers 2017 Budget.

    Senator Alexander. Lieutenant General Thomas P. Bostick is 
the Chief of Engineers for the U.S. Army Corps of Engineers. He 
has been serving as Chief of Engineers since 2012. Time goes 
awfully fast. This will be his last hearing before this 
subcommittee I am told, and I want to thank General Bostick. He 
has been responsive and straightforward to me as well as to 
other Senators, and I am deeply grateful for his many years of 
service to our country.
    [The statement follows:]
       Prepared Statement of Lieutenant General Thomas P. Bostick
    Mr. Chairman and Members of the Subcommittee:
    I am honored to testify before your committee today, along with the 
Assistant Secretary of the Army for Civil Works, the Honorable Jo-Ellen 
Darcy, on the President's fiscal year 2017 Budget for the United States 
Army Corps of Engineers (Corps) Civil Works Program. This is my fourth 
and final time before this Subcommittee to testify on the Civil Works 
budget; thank you for your support in the past, and I look forward to 
continuing to work together during the remainder of my tenure as Chief 
of Engineers.
    I have been in command of the Corps for nearly 4 years, and I want 
to briefly update you on the four Campaign Plan Goals for the Corps.
    First, Support National Security. The Corps supports the National 
Security efforts of the United States. We continue working across the 
globe with presence in more than 110 countries, using our Civil Works, 
Military Missions, and Water Resources Research and Development 
expertise to support our Nation's Combatant Commanders. We are proud to 
serve this great Nation and our fellow citizens, and we are proud of 
the work the Corps does to support America's foreign policy. Civilian 
Army Corps employees from across the Nation have volunteered--and 
continue to volunteer--to work, in a civilian capacity, to provide 
critical support to our military missions abroad and humanitarian 
support to the citizens of those nations. Many of these volunteers have 
served on multiple deployments.
    Second, Transform Civil Works. The four elements of the Civil Works 
Transformation strategy will make the Corps more efficient and 
effective while continuing to support the Nation by addressing some of 
our greatest infrastructure needs. Civil Works Transformation focuses 
on modernizing the project planning process; enhancing the budget 
development process through a more streamlined process and the use of a 
systems approach, to identify and deliver more holistic outcomes to the 
Nation; evaluating the portfolio of existing water resources projects 
to support risk-informed investment decisions, identify priorities, and 
develop better solutions to water resources problems; and improving 
methods of delivery to produce and deliver quality products and 
services.
    Since the inception of Civil Works Transformation efforts in 2008, 
58 Chief's reports have been completed, with 45 Chief's Reports 
completed in the last 4 years alone; we are learning and continue to 
become more efficient in our processes.
    Third, we must continue to be proactive and develop better 
strategies to Reduce Disaster Risks, as well as respond to natural 
disasters when they do occur, under the National Response Framework, 
National Disaster Recovery Framework, Public Law 84-99 as amended, and 
Corps project authorities for flood risk management. I continue to be 
amazed at the work the Army Corps does in this arena. For example, the 
Corps provided technical expertise to the State of South Carolina 
during its historic flooding last year by assisting in inspecting over 
600 locally owned dams to assess dam safety vulnerability. More 
recently, the Corps teamed with local communities and State-led Army 
National Guard units during the Mississippi River floodfight to help 
impacted communities in the flood's aftermath. Additionally, I am 
pleased to report to you that all of the Federal flood risk reduction 
systems along the Mississippi performed as designed, demonstrating the 
effectiveness of the investments made.
    Fourth, Prepare for Tomorrow. This is about our people--ensuring we 
have a pipeline of the best Science, Technology, Engineering and 
Mathematics personnel, as well as strong Workforce Development and 
Talent Management programs. Efforts to tailor development programs to 
employee aspirations is helping to maximize talent retention and is 
instilling a career of service culture. We take seriously the 
importance of engaging and retaining our talented workforce and have 
significantly improved our agency ranking in the Federal Employee 
Viewpoint Survey over the past year, on the list of best places to work 
in the Federal Government. Equally important is helping the Nation's 
Wounded Warriors and transition out of active duty to find fulfilling 
careers. Last year, we set a goal to assist 150 transitioning Wounded 
Warriors. I am proud that we achieved more than double that goal. We 
assisted over 300 Wounded Warriors in finding permanent positions 
within the Corps and other organizations. Over the past 3 years, we 
have helped 631 Wounded Warriors find meaningful careers.
    We are equally focused on Research and Development efforts to help 
solve a host of the toughest challenges facing the Army and the Nation. 
Our Civil Works Program research and development efforts provide the 
Nation with innovative engineering products, some of which can have 
applications in both civil and military infrastructure spheres. By 
creating products that improve the efficiency of the Nation's 
engineering and construction industry, and through providing more cost-
effective ways to operate and maintain public infrastructure, Civil 
Works program research and development contributes directly to the 
national economy.
                   summary of fiscal year 2017 budget
    The fiscal year 2017 Civil Works Budget is a performance-based 
budget, and reflects a focus on the work that will provide the highest 
net economic and environmental returns on the Nation's investment or 
address a significant risk to safety. Investments by the Civil Works 
program will reduce the risks of flood impacts in communities 
throughout the Nation, facilitate comercial navigation, restore and 
protect significant aquatic ecosystems, generate low-cost renewable 
hydropower, and support American jobs. Continued investment in critical 
Civil Works infrastructure projects is an investment in the Nation's 
economy, security, and quality of life--now and in the future.
    The Budget focuses on high-performing projects and programs within 
the three main water resources missions of the Corps: commercial 
navigation, flood and storm damage reduction, and aquatic ecosystem 
restoration. The fiscal year 2017 Budget includes $4.62 billion in 
gross discretionary funding for Civil Works activities throughout the 
Nation, including the construction of water resources projects that 
will provide high economic, environmental and public safety returns on 
the Nation's investment.
    The Budget also proposes the necessary level of funding for the 
Regulatory program to protect and preserve water-related resources of 
the Nation.
                         investigations program
    The fiscal year 2017 Budget provides $85 million in the 
Investigations account, and $7 million in the Mississippi River and 
Tributaries account to evaluate and design projects within the Corps 
three main mission areas, with emphasis on those that are potentially 
the most promising on a performance basis; and for related work, 
including some research and development. The Budget also supports the 
Corps planning and technical assistance programs, including using its 
expertise to help local communities increase their resilience to, and 
preparedness for, flood risks such as the flood risks in coastal 
communities associated with hurricanes and sea-level rise.
                          construction program
    The Budget provides $1.09 billion for the construction program in 
the Construction account, and $64 million in the Mississippi River and 
Tributaries account, prioritizing projects with the greatest net 
economic and environmental returns per dollar invested, as well as 
projects that address a significant risk to safety. The Budget includes 
funds for one high-priority construction new start: Mud Mountain Dam, 
Washington. In keeping with our Civil Works transformation strategy, 
the Budget provides construction funding to complete six projects, and 
deliver their benefits to the Nation.
    The goal of the construction program is to produce as much value as 
possible for the Nation from the available funds. The Corps uses 
objective performance measures to allocate this funding. For projects 
that are being funded primarily due to their economic return, these 
include benefit-to-cost ratios. For projects funded on the basis of 
their environmental return, priority is given to those projects that 
are highly effective at restoring degraded structures, functions or 
processes of significant aquatic ecosystems on a cost-effective basis. 
The selection process also prioritizes dam safety assurance, seepage 
control, static instability correction projects, and those that address 
a significant risk to safety.
                operation and maintenance (o&m) program
    All structures age and, over time can deteriorate, causing a 
potential decline in reliability. With proper maintenance and periodic 
rehabilitation, however, we can extend the effective life of most of 
the facilities owned or operated by, or on behalf of, the Corps for 
many years. As stewards of this infrastructure, we are working to 
ensure that key features continue to provide appropriate levels of 
service to the American people.
    The Corps is working to improve the efficiency and effectiveness of 
its operation and maintenance program. The Budget focuses on 
investments that address infrastructure maintenance needs on a risk 
assessment basis. In fiscal year 2017, the Corps will further expand 
the implementation of a modern asset management program, dedicating an 
increased amount of its O&M funding to the key features of its 
infrastructure and for work that will reduce long-term O&M costs in 
real terms. The Budget also supports an energy sustainability program 
and pursues efficiencies in the acquisition and operation of our 
information technology.
    The Budget for the operation and maintenance program provides 
$2.705 billion in the O&M account, and $151 million in the Mississippi 
River and Tributaries account, with a focus on the operation and 
maintenance of key commercial navigation, flood risk management, 
hydropower and other facilities. The Budget gives priority to coastal 
ports and inland waterways with high levels of commercial traffic, and 
includes $951 million for work financed through the Harbor Maintenance 
Trust Fund. The Budget also funds some small ports, with emphasis on 
those that support significant commercial fishing, subsistence, or 
public transportation benefits. The Budget provides O&M funding for 
safety improvements at Federal dams and levees based on the risk and 
consequence of a failure. According to our analyses, 297 of the 709 
dams in our current inventory have required some form of modification 
or interim risk reduction measure, or may require them over the next 50 
years, if they are to continue to serve their authorized purposes. Many 
interim risk reduction measures have been implemented already and 
additional measures are considered and evaluated as new and existing 
issues are identified.
    Generally, the O&M program supports completed works owned or 
operated by the Corps, including administrative buildings and 
laboratories. Work to be accomplished includes: operation of locks and 
dams along the inland waterways; dredging of inland and coastal Federal 
channels; operating multi-purpose dams and reservoirs for flood risk 
reduction, hydropower, recreation, and related purposes; maintenance 
and repair of facilities; monitoring of completed projects; and general 
management of Corps facilities and the land associated with these 
purposes including work to serve as a responsible steward of the 
resources on Corps lands.
    The fiscal year 2017 Budget provides $194 million in the O&M 
account for hydropower activities in order to maintain basic power 
components such as generators, turbines, transformers and circuit 
breakers at Corps hydropower facilities to keep them operating 
efficiently and effectively. The Corps is the largest hydropower 
producer in the U.S., operating 24 percent of the Nation's hydropower 
capacity.
                          reimbursable program
    Through the Interagency and International Services (IIS) 
Reimbursable Program, the Civil Works program assists other Federal 
agencies, State, local, Tribal governments, and those of other 
countries with timely, cost-effective solutions to support their 
programs. These agencies can turn to the Corps, which already has these 
capabilities, rather than develop their own internal workforce and 
expertise to oversee project design and construction. Such 
intergovernmental cooperation is effective for agencies and the 
taxpayer, and uses the skills and talents that we bring from our Civil 
Works and Military Missions programs. The work is principally technical 
oversight and management of engineering, environmental, and 
construction projects--the work itself is typically performed by 
private sector firms--is financed by the agencies we service. IIS 
Reimbursable Program activities in support of our domestic stakeholders 
totaled $657 million in fiscal year 2015. We only accept agency 
requests that are consistent with our core technical expertise, in the 
national interest, and that can be executed without impacting our 
primary mission areas.
                          emergency management
    The fiscal year 2017 Budget provides $30 million in funding for the 
Flood Control and Coastal Emergencies account to enable the Corps to 
prepare for emergency operations in response to natural disasters. The 
Budget for the emergency management program also includes $4.5 million 
for the National Emergency Preparedness Program.
    An additional $3 million is included in the Investigations account 
for the Corps participation in the development and expansion of 
intergovernmental teams, known as Silver Jackets, which collaboratively 
reduce the risks associated with flooding and other natural hazards. 
The Silver Jackets program is an innovative program, which provides a 
national forum to address State and local flood risk management 
priorities. Each team is developed at the State level. The teams share 
lessons learned at the State level with each other, and each team works 
to apply the available Federal and State resources effectively to meet 
its State's flood risk management priorities. There are now 45 active 
teams (44 States and the District of Columbia); our goal is to have a 
Silver Jackets team for every State. The flooplain management program 
of the Corps complements this effort by providing technical assistance.
                               conclusion
    The fiscal year 2017 Budget represents a continuing, fiscally 
prudent investment in the Nation's water resources infrastructure and 
restoration of its aquatic ecosystems. The U.S. Army Corps of Engineers 
is committed to a performance-based Civil Works Program, based on 
innovative, resilient, and sustainable risk-informed solutions.
    Thank you, Mr. Chairman and Members of Subcommittee. This concludes 
my statement. I look forward to answering any questions you or other 
Members of the Subcommittee may have.

    Senator Alexander. Estevan Lopez is Commissioner of the 
Bureau of Reclamation. As far as I know, he is not going 
anywhere right now.
    [The statement follows:]
                  Prepared Statement of Estevan Lopez
    Thank you Chairman Alexander, Ranking Member Feinstein, and members 
of this Subcommittee for the opportunity to discuss with you the 
President's fiscal year 2017 Budget for the Bureau of Reclamation. I 
appreciate the time and consideration this Subcommittee gives to 
reviewing and understanding Reclamation's budget, projects, and 
programs and I look forward to working with the Committee in the future 
as Reclamation continues to address water issues in the West. 
Reclamation is committed to prioritizing and implementing its overall 
program in a manner that serves the best interest of the American 
public.
    The Budget sustains our efforts to deliver water and generate 
hydropower, consistent with applicable Federal and State law, in an 
environmentally responsible and cost-efficient manner. It also supports 
the Administration's and Department of the Interior's (Department) 
priorities to ensure healthy watersheds and sustainable, secure water 
supplies; build a landscape-level understanding of our resources; 
celebrate and enhance America's great outdoors; power our future; 
strengthen Tribal nations; and engage the next generation.
    The extreme and prolonged drought facing the western States affects 
major U.S. river basins throughout the West. Exceptional drought in 
many western States, specifically California, Nevada, Washington, and 
Oregon, affects households across the country because of the adverse 
impact on agricultural production. Drought is estimated to cost the 
Nation billions of dollars and impact thousands of jobs. In California 
alone, the estimated cost of the 2015 drought on agriculture--crop 
production, livestock, and dairies--is $2.7 billion with a total loss 
of 21,000 seasonal and part-time jobs. The effects of the current 
drought on California's Sacramento and San Joaquin River Basins, its 
water, its agricultural economy, and its communities are particularly 
acute. The Colorado River Basin--crucial for seven States and several 
Tribes, in addition to two countries--is also enduring historic 
drought. Nearly 40 million people rely on the Colorado River and its 
tributaries for some, if not all, of their municipal needs. The Basin 
is experiencing the worst drought in recorded history; the period from 
2000 through 2015 was the driest 16-year period in more than 100 years 
of record keeping. In 2015, Lake Mead, behind the Hoover Dam on the 
Colorado River, has declined to its lowest elevation since the 1930's. 
Snowpack, which functions as reservoir storage for many western basins, 
is diminishing.
    Water year 2016 is shaping up to be influenced by the periodic ``El 
Nino'' anomaly associated with warmer ocean temperatures in portions of 
the Pacific, a phenomenon that generally leads to a wetter than normal 
year in areas of the western U.S., including California. However, one 
wet year alone will not alleviate the impacts of the multi-year 
drought. This water year exists against the backdrop of long-term 
sustained climatic change; both short-term and long-term droughts are 
expected to intensify. Although Reclamation continues to emphasize 
strategic priorities and operational activities to understand, and 
effectively adapt to, the risks and impacts of a changing environment 
on western water management, groundwater must be replenished before 
runoff can fill rivers and reservoirs, and the hydrologic system as a 
whole will need time to recover. As one of the Nation's primary 
suppliers and protectors of water, Reclamation needs to continue to 
plan and prepare for the next drought and its successors, despite 
cautious optimism in 2016.
    This Budget addresses Reclamation's priorities by allocating funds 
based on objective and performance-based criteria to most effectively 
implement its management responsibilities for water and power 
infrastructure in the West. Reclamation's goals and priorities--
including water supply reliability and power generation, climate 
variability adaptation, water conservation, aging infrastructure, sound 
science to support critical decisionmaking, and ecosystem restoration-- 
were balanced in the formulation of the fiscal year 2017 budget. 
Reclamation continues to look at ways to more efficiently plan for the 
future challenges confronting water resources management, and to 
improve the way it does business.
    In order to meet Reclamation's mission goals, we are building a 
landscape-level understanding of our resources and the protection and 
restoration of the aquatic and riparian environments influenced by our 
operations. This budget is focused on meeting National priorities for 
Indian water rights settlements, ecosystem restoration, and healthy 
watersheds and sustainable, secure water supplies. Further details of 
these efforts will now be discussed.
                      water and related resources
    The fiscal year 2017 Budget for Water and Related Resources, 
Reclamation's principal operating account, is $813.4 million, a 
reduction of $305.6 million from 2016 enacted. This reflects the 
budgetary shift of $106.2 million from this account to establish a 
separate Indian Water Rights Settlement Account, and $36.0 million to 
establish a separate discretionary account within the San Joaquin River 
Restoration Fund.
    The Budget includes a total of $383.5 million at the project and 
program level for water, energy, land, fish and wildlife resource 
management, and development activities. This provides for planning, 
construction, water sustainability activities, management of 
Reclamation lands, including recreation areas, and actions to address 
the impacts of Reclamation projects on fish and wildlife.
    The Budget also provides a total of $429.9 million at the project 
level for water and power facility operations, maintenance, and 
rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities and the public. 
Providing adequate funding for these activities continues to be one of 
our highest priorities.
    highlights of the fiscal year 2017 budget for water and related 
                               resources
    I would like to share with the Committee several highlights of 
Reclamation projects and programs within the Administration's Budget. 
The Budget continues to promote and support efficient water management, 
increased renewable energy production, the construction of new 
infrastructure and sound maintenance of existing facilities, 
restoration of aquatic environments, and the continued use of applied 
science and new technologies to help safeguard sustainable water 
deliveries and energy production. As a result, Reclamation continues to 
play an important role in providing a strong foundation for economic 
activity across the American West.
    WaterSMART Program.--One method Reclamation employs to stretch 
water supplies in the West and prepare for these ongoing challenges is 
the WaterSMART (Sustain and Manage America's Resources for Tomorrow) 
Program. The programs included in WaterSMART are collaborative in 
nature and work to effectively achieve sustainable water management. 
WaterSMART Grants, Title XVI Water Reclamation and Reuse, and the Water 
Conservation Field Services Program, along with other Reclamation 
activities, support the Department's Priority Goal for Water 
Conservation. The Basin Studies component of WaterSMART supports the 
Department's priority goal Ensuring Healthy Watersheds and Sustainable, 
Secure Supplies.
    In the fiscal year 2017 Budget, the Administration proposes to fund 
WaterSMART at $61.5 million. The WaterSMART components include: 
WaterSMART Grants funded at $23.4 million; the Basin Study Program 
funded at $5.2 million; the Title XVI Water Reclamation and Reuse 
Program funded at $21.5 million; Water Conservation Field Services 
Program, funded at $4.2 million; the Cooperative Watershed Management 
Program, funded at $1.8 million; the Drought Response program, funded 
at $4.0 million; and the Resilient Infrastructure program, funded at 
$1.5 million.
    Rural Water Projects.--Congress specifically authorized Reclamation 
to undertake the design and construction of six projects intended to 
deliver potable water supplies to specific rural communities and Tribes 
located primarily in Montana, New Mexico, North Dakota, and South 
Dakota. The fiscal year 2017 Reclamation budget includes $38.1 million 
for rural water projects; $18.6 million of that total is for operation 
and maintenance of completed tribal systems, while the remaining $19.5 
million is for continued construction for authorized projects.
    Dam Safety Program.--A total of $86.1 million is provided for 
Reclamation's Safety of Dams Program, which includes $64.5 million to 
correct identified safety issues. Funding also includes $20.3 million 
for safety evaluations of existing dams and $1.3 million to oversee the 
Interior Department's Safety of Dams Program.
    Site Security.--A total of $26.2 million is provided for Site 
Security to ensure the safety and security of the public, Reclamation's 
employees, and key facilities. This funding includes $4.1 million for 
physical security upgrades at high risk critical assets and $22.1 
million to continue all aspects of Bureau-wide security efforts, 
including law enforcement, risk and threat analysis, personnel 
security, information security, risk assessments and security-related 
studies, and guards and patrols.
    Powering Our Future.--The Budget includes $1.3 million to support 
Reclamation's Sustainable Energy Strategy and actions identified 
through the Sustainable Hydropower MOU with our partners at the 
Department of Energy (DOE) and U.S. Army Corps of Engineers. This 
funding will provide for increased hydropower development at existing 
Reclamation facilities, and will allow Reclamation to work with Tribes 
to assist them in developing renewable energy sources. These important 
projects will assist in the production of cleaner, more efficient 
energy and will support the Renewable Energy Resource Development 
Priority Goal.
    Strengthening Tribal Nations.--The fiscal year 2017 Reclamation 
budget supports the Strengthening Tribal Nations initiative through a 
number of activities and projects. For example, the budget includes 
$10.4 million for Reclamation's Native American Affairs Program in 
support of Reclamation activities with Tribes, including technical 
assistance, Indian Water Rights Settlement negotiations, implementation 
of enacted settlements, and outreach to Tribes; and $15.7 million to 
continue the operation and maintenance associated with the delivery of 
up to 85,000 acre-feet of water to the Ak-Chin Indian Community in 
Arizona. Ongoing authorized rural water projects also benefit both 
tribal and non-tribal communities. Projects in the fiscal year 2017 
Budget benefiting Tribes include the rural water component of the Pick-
Sloan Missouri Basin Program, Garrison Diversion Unit; Fort Peck 
Reservation/Dry Prairie; and Rocky Boy's/North Central Montana; and 
operation and maintenance funding only for tribal features of the Mni 
Wiconi Project following completion of construction. Numerous other 
projects and programs, such as the Columbia/Snake River Salmon Recovery 
Program, Klamath Project, and the Yakima River Basin Water Enhancement 
Project also benefit Tribes. In fiscal year 2017, $106.2 million for 
planning and construction of three recent Indian Water Rights 
Settlements is being proposed in a new separate account as described 
below.
    River Restoration.--To meet Reclamation's mission goals of securing 
America's energy resources and managing water in a sustainable manner 
for the 21st century, our programs also focus on the protection and 
restoration of the aquatic and riparian environments influenced by our 
operations. Ecosystem restoration involves many activities, including 
Reclamation's Endangered Species Act recovery programs, which directly 
address the environmental aspects of the Reclamation mission. In fiscal 
year 2017, a total of $135.5 million in the Budget for Reclamation 
projects and programs directly supports the goals of the America's 
Great Outdoors Program, through local and basin-wide collaboration in 
watershed partnerships. Several of the programs are described below.
    The Budget has $27.3 million for Endangered Species Act Recovery 
Implementation programs within the Bureau of Reclamation, including 
$19.9 million in the Great Plains Region to implement the Platte River 
Endangered Species Recovery Implementation program. Within California's 
Central Valley Project, $11.8 million is for the Trinity River 
Restoration Program, with an additional $1.5 million from the Central 
Valley Project Restoration Fund.
    Many other projects and programs also contribute to ecosystem 
restoration including the Lower Colorado River Multi-species 
Conservation Program, Middle Rio Grande Endangered Species Act 
Collaborative Program, the Columbia/Snake River Salmon Recovery 
Program, and the Yakima River Basin Water Enhancement Project.
    Research and Development.--Reclamation continues to promote 
research and development to advance the science and technology that 
supports best management of the country's natural resources and 
heritage. In fiscal year 2017 the research and development (R&D) budget 
totals $28.6 million, with $22.8 million for Science and Technology and 
$5.8 million for the Desalination and Water Purification Research 
Program. Scientific discovery, technological breakthroughs, and 
innovation are the primary engines for expanding the frontiers of human 
knowledge, which are vital for responding to the challenges and 
opportunities of the 21st century. Scientific and engineering 
innovation promotes sustainable economic growth and job creation, moves 
us toward a clean energy future, and helps us manage competing demands 
on environmental resources.
    Desalination and water purification research strives to produce new 
clean water technologies, reduce costs, and decrease environmental 
impacts while converting unusable waters into viable water supplies. 
Reclamation's budget for these efforts also supports the 
Administration's science and technology priorities, including 
sponsorship of technology prize competitions, to spur innovative 
breakthroughs and research related to climate adaptation and clean 
energy.
    In addition to the highlights just discussed, the fiscal year 2017 
Water and Related Resources budget provides $110.8 million to operate, 
manage, and improve California's Central Valley Project; this amount 
reflects the shift of $36.0 million for a separate discretionary 
account within the San Joaquin River Restoration Fund, as discussed 
below. The next three accounts are also related to California water and 
restoration.
                   san joaquin river restoration fund
    Reclamation proposes $36.0 million of current funds for the San 
Joaquin River Restoration Fund account in fiscal year 2017. The fiscal 
year 2017 Budget funds activities consistent with the settlement of 
Natural Resources Defense Council v. Rodgers as authorized by the San 
Joaquin River Restoration Settlement Act. The Act includes a provision 
to establish the San Joaquin River Restoration Fund to implement the 
provisions of the Settlement. The Settlement's two primary goals are to 
restore and maintain fish populations, and restore and avoid adverse 
impacts to water supplies. Under the Settlement, the legislation 
provides for nearly $2.0 million in annual appropriations from the 
Central Valley Project Restoration Fund for this purpose.
                central valley project restoration fund
    The fiscal year 2017 Budget includes a total of $55.6 million for 
the Central Valley Project Restoration Fund (CVPRF). This amount is 
determined on the basis of a 3-year rolling average not to exceed $50.0 
million per year and indexed to 1992 price levels. These expenditures 
are offset by collections estimated at $55.6 million from mitigation 
and restoration charges authorized by the Central Valley Project 
Improvement Act.
                    california bay-delta restoration
    The fiscal year 2017 Budget provides $36.0 million for California 
Bay-Delta Restoration. The account focuses on the health of the Bay-
Delta ecosystem and improving water management and supplies. The Budget 
will support the coequal goals of environmental restoration and 
improved water supply reliability, under the following program 
activities including: $2.2 million for a Renewed Federal State 
Partnership, $5.3 million for Smarter Water Supply and Use, and $28.5 
million for Habitat Restoration. These program activities are based on 
the Interim Federal Action Plan for the California Bay-Delta issued 
December 22, 2009.
                    indian water rights settlements
    In fiscal year 2017, Reclamation will enhance support of Tribal 
nations. The fiscal year 2017 Budget proposes $106.2 million for Indian 
Water Rights Settlements (IWRS), in a new account of the same name. 
Reclamation is proposing establishment of an Indian Water Rights 
Settlements account to assure continuity in the construction of the 
authorized projects, and to highlight and enhance transparency in 
handling these funds. This account is proposed to cover expenses 
associated with Indian water rights settlements contained in the Claims 
Resolution Act of 2010 (Public Law 111-291) and the Navajo-Gallup Water 
Supply Project within Title X of the Omnibus Public Land Management Act 
of 2009 (Public Law 111-11).
    Of this amount, $6.4 million is for the Aamodt Settlement (Pueblos 
of Nambe, Pojoaque, Tesuque and San Ildefonso in New Mexico); $12.8 
million for the Crow Settlement (Crow Tribe in Montana); $87.0 million 
for the Navajo-Gallup Settlement (Navajo Nation in New Mexico). These 
settlements will provide permanent water supplies and offer economic 
security for the Tribes and pueblos described above. The agreements 
will build and improve reservation water systems, rehabilitate 
irrigation projects, construct a regional multi-pueblo water system, 
and codify water- sharing arrangements between Indian and neighboring 
communities.
    Per the Claims Resolution Act of 2010, in addition to the 
discretionary funding included in this Budget, additional mandatory 
funds have already been made available to Reclamation, in order to 
realize the deadlines mandated in the settlement acts. The White 
Mountain Apache Tribe activities will continue in fiscal year 2017 
using mandatory funds.
                       policy and administration
    The fiscal year 2017 Budget for Policy and Administration, the 
account that finances Reclamation's central and regional management 
functions is $59.0 million. The account supports activities necessary 
for the management and administration of Reclamation that are not 
chargeable directly to a specific project or program, such as corporate 
oversight, policy and overall program management, budget preparation, 
finance and procurement, and management of safety and health, human 
resources, and information technology.
                        permanent appropriations
    The total permanent appropriation of $106.8 million in fiscal year 
2017 primarily includes $103.6 million for the Colorado River Dam Fund. 
Revenues from the sale of Boulder Canyon power are placed in this fund 
and are available without further appropriation to pay for operation 
and maintenance of the project and other costs.
                    2016 through 2017 priority goals
    Priority goals are a key element of the President's agenda for 
building a high-performing government. The priority goals demonstrate 
that our programs are a high value to the public and they reflect 
achievement of key Departmental milestones. These goals focus attention 
on initiatives for change that have significant performance outcomes, 
which can be clearly evaluated, and are quantifiable and measurable in 
a timely manner. Reclamation's participation in the Water Conservation 
and Supply Enhancement, Renewable Energy Resource Development, Climate 
Change Adaptation, and Engaging the Next Generation priority goals 
helps to achieve these objectives.
    Water Conservation and Supply Enhancement.--The fiscal year 2017 
Budget will enable Reclamation to achieve water conservation capability 
for agricultural, municipal, industrial, and environmental uses in the 
western United States by 1,040,000 acre-feet/year cumulatively (since 
2009) through September 30, 2017. This will be accomplished through the 
use of the WaterSMART Program to assist communities in stretching water 
supplies while improving water management and increasing the efficient 
use of water. By the end of fiscal year 2015, Reclamation had already 
exceeded the prior goal of 975,000 acre-feet through partnerships with 
States, Tribes, irrigation and water districts and other organizations 
with water or power delivery authority.
    Renewable Energy Resource Development.--The Budget also supports 
efforts to increase approved capacity authorized for renewable energy 
resources affecting Department of the Interior managed lands to at 
least 16,600 Megawatts (since 2009) by September 30, 2017. Reclamation 
contributes to the Departmental goal primarily through the Memorandum 
of Understanding (MOU) on Hydropower with the Departments of Interior, 
Energy, and the U.S. Army Corps of Engineers (USACE), signed March 24, 
2010. The MOU encourages the development of sustainable hydropower at 
Federal facilities in order to help meet the Nation's needs for 
reliable, affordable, and environmentally sustainable hydropower by 
prioritizing goals and coordinating hydropower research and development 
efforts through studies and assessments. The Budget includes $1.3 
million for Reclamation to implement an automated data collection and 
archival system to aid in hydropower benchmarking, performance testing, 
and strategic decisionmaking.
    Climate Change Adaptation.--Consistent with the direction in the 
President's 2013 Climate Action Plan, Reclamation is developing and 
implementing approaches to understand, and effectively adapt to, the 
risks and impacts of a changing environment on western water 
management. Some examples include:
  --The Basin Study Program takes a coordinated approach to assess 
        risks and impacts; develop landscape-level science; communicate 
        information and science to other entities and agencies; and 
        work closely with stakeholders to develop adaptation strategies 
        to cope with water supply and demand imbalances in a 
        collaborative manner.
  --The Drought Response Program will implement a comprehensive new 
        approach to drought planning and will implement actions to help 
        communities manage drought and develop long-term resilience 
        strategies.
  --Through the Resilient Infrastructure Program, Reclamation will 
        proactively maintain and improve existing infrastructure for 
        system reliability, safety, and efficiency for water 
        conservation to prepare for extremes and to support healthy and 
        resilient watersheds. Reclamation will continue to develop, 
        implement, and test an enhanced decisionmaking criteria 
        framework for selecting resilient infrastructure investments 
        and will identify opportunities to integrate operational 
        efficiencies more compatible with climate variability 
        adaptation goals, as part of the Bureau's ongoing 
        infrastructure investments.
  --Reclamation's Science and Technology Program conducts water 
        resources research to improve capability for managing water 
        resources under multiple stressors, including a changing 
        climate. This research agenda will collaborate with and 
        leverage the capabilities of the Interior Climate Science 
        Centers.
    Reclamation's WaterSMART Grants, Water Conservation Field Services, 
and Title XVI Programs are enabling the West to better adapt to the 
impacts of a changing environment by helping to conserve tens of 
thousands of acre-feet of water each year in urban and rural settings, 
on both large and small scales.
    Engaging the Next Generation.--By September 30, 2017, the 
Department of the Interior will provide 100,000 work and training 
opportunities over four fiscal years, 2014 through 2017, for 
individuals ages 15 to 35 to support the Department's mission. In 
fiscal year 2017, Reclamation will continue to provide work and 
training opportunities by leveraging funding through agreements with 
21st Century Conservation Service Corps partners. Reclamation will 
continue to use the Public Land Corps Act authority and the Youth 
Conservation Corps Act to enter into partnership agreements. These 
agreements will be used to assist on-the-ground projects and 
internships involving youth in cooperative efforts in cultural and 
natural resource conservation related to Reclamation projects. In 
addition, a partnership agreement with the National Fish and Wildlife 
Foundation will help provide additional youth conservation employment 
opportunities.
    President's Build America Investment Initiative.--To help advance 
the goals and priorities of the Department, a new Center for Natural 
Resources Investment was recently launched by the Department as part of 
the President's Build America Investment Initiative. Reclamation fully 
supports this activity, as the new center will promote increased 
private investment in water infrastructure and facilitate locally-led 
water exchange agreements in the western United States to increase 
resilience of water supplies and drive additional investment in 
conservation technologies.
    Appropriations/Authorization Language Proposals.--The 
Administration is proposing two significant changes in authorizations, 
for which language is included in the fiscal year 2017 Budget. The 
first is to extend the California Federal Bay-Delta Authorization Act, 
as amended, from 2017 through 2018, so the CALFED program can continue 
its mission--even more important given the current drought. Language is 
also included to increase the authorized appropriations ceiling of 
Section 9504(e) of the Secure Water Act of 2009 from $350 million to 
$400 million to provide the appropriations ceiling needed for much of 
the funding for Reclamation's WaterSMART program, one of our most 
effective programs.
                               conclusion
    Importantly, the fiscal year 2017 Budget demonstrates Reclamation's 
commitment to addressing the water and power demands of the West in a 
fiscally responsible manner. This Budget continues Reclamation's 
emphasis on managing, operating, and maintaining its public 
infrastructure and delivering water and power in an environmentally and 
economically sound manner, in the interest of the American public. 
Reclamation is committed to working with its customers, States, Tribes, 
and other stakeholders to find ways to balance and support the mix of 
water resource demands in fiscal year 2017 and beyond.
    This completes my statement. I would be happy to answer any 
questions.

    Senator Alexander. And Tom Iseman, Deputy Assistant 
Secretary for Water and Science at the Department of Interior, 
is also here.
    [The statement follows:]
                  Prepared Statement of Thomas Iseman
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Subcommittee, I am Tom Iseman, Interior's Deputy Assistant Secretary 
for Water and Science, and I appreciate the opportunity to talk with 
you about the water related programs of the Department of the Interior, 
and the President's 2017 Budget. My office oversees the Bureau of 
Reclamation and U.S. Geological Survey activities.
    This is a strong budget that builds on our accomplishments. Our 
request enables us to carry out our important missions--maintain our 
core capabilities, meet commitments, and invest in key priorities. The 
investments in this request show the Administration remains focused on 
meeting the Nation's greatest challenges looking forward and ensuring 
our economy works for all.
    Our budget is part of the President's broader strategy to make 
critical investments in domestic and national security priorities while 
adhering to the bipartisan budget agreement signed into law last fall, 
and lifts sequestration in future years to continue investment in the 
future. This Budget recognizes the importance of the programs of 
Reclamation and the USGS to the overall strength of the Nation's 
economy, and its infrastructure. To put this into perspective, the U.S. 
Department of the Interior Economic Report for fiscal year 2014 States, 
Interior-managed lands and activities contributed about $360 billion in 
national economic output, supporting an estimated two million jobs. Of 
this, Reclamation's contribution, including recreation activities, was 
$48.4 billion, supporting over 360,000 jobs.
    At the same time, the Department of the Interior's 2017 proposed 
investments lay the groundwork for promoting renewable energy 
development, wise water utilization, managing the Nation's lands 
responsibly, helping to protect communities in the face of climate 
change, and investing in science to inform natural resource management. 
This request addresses significant resource challenges for the Nation, 
including water availability, particularly in the arid West, and makes 
important investments in America's water infrastructure.
    Interior's 2017 budget includes $1.0 billion for research and 
development activities throughout the Department, an increase of $84.5 
million from the 2016 enacted level. Activities supported include 
scientific analysis of natural systems and applied field research to 
address specific problems, such as thawing permafrost, invasive 
species, and flooding. With multiple science programs across the 
Department's bureaus and offices, science coordination remains a 
critical component in the process of effective science application. 
Interior is well served by the deployment of science advisors in each 
bureau. These advisors serve critical roles within the organizations 
and across the Department by sharing information application. The 
Interior 2017 budget reflects high priority needs identified for 
scientific research across the Department, which is the foundation for 
the $28.6 million requested for research and development for 
Reclamation. This request supports the Administration's efforts to 
collaborate with non-Federal partners on advanced water treatment and 
clean water technologies while conserving scarce Western water and 
protecting species habitat.
            the 2017 budget advances a record of achievement
    This budget builds on a record of achievement across Interior's 
diverse mission in general, as well as within Reclamation's specific 
mission. To support the Powering Our Future Initiative, the 2017 
Reclamation budget includes $1.3 million to implement an automated data 
collection and archival system to aid in hydropower benchmarking, 
performance testing, and strategic decisionmaking; investigate 
Reclamation's capability to integrate large amounts of renewable 
resources such as wind and solar into the electric grid; and work with 
Tribes to assist in developing renewable energy sources. These 
important projects will assist in the production of cleaner, more 
efficient renewable energy.
    In addition, the 2017 budget sustains President Obama's strong 
commitment to tribal self- determination, strengthening tribal nations, 
and investing in the future of Native youth, as illustrated by 
Reclamation's continuing investment in endangered species recovery, 
rural water, and water rights settlement programs. In fact, the 
Department's overall budget continues to address Indian water rights 
settlement commitments and programs to support Tribes in resolving 
water rights claims, developing water sharing agreements, and 
supporting sustainable water management.
    Interior continues to engage in innovative efforts to leverage 
youth engagement and partnerships to advance the Department's 
extraordinary mission, and Reclamation is a contributor to this effort.
    Bureau of Reclamation projects funded from 2010 through 2015 
exceeded the cumulative water savings target of 910,000 acre-feet of 
water/year, achieving savings of over 970,000 acre-feet, roughly the 
amount of water needed for household use in Phoenix and the surrounding 
area each year. The budget keeps Reclamation on track to conserve 
1,040,000 acre-feet by the end of fiscal year 2017.
   promotes the conservation and protection of america's natural and 
                           cultural resources
    America's public lands and waters offer space to get outside and 
get active, and provide living classrooms with hands-on opportunities 
to build skills. The Administration launched the Every Kid in a Park 
Initiative to inspire the next generation to discover all America's 
public lands and waters have to offer. Starting with the 2015-2016 
school year, all fourth grade students and their families are able to 
receive free admission to all national parks and other Federal lands 
for a full year. Reclamation's mission goals of securing America's 
energy resources and managing water in a sustainable manner for the 
21st Century demands a focus on the protection and restoration of the 
aquatic and riparian environments influenced by its operations. 
Ecosystem restoration involves many activities, including Reclamation's 
Endangered Species Act recovery programs, which directly address the 
environmental aspects of Reclamation's mission. In 2017, a total of 
$135.5 million in Reclamation's budget directly supports the goals of 
America's Great Outdoors Initiatives, through local and basin-wide 
collaboration in watershed partnerships. This supports efforts to 
manage and promote the health and resilience of ecosystems on a 
landscape scale, including a continued focus in priority landscapes 
such as the California Bay-Delta.
             implements the president's climate action plan
    As manager of roughly 20 percent of the land area of the United 
States and a partner with tribal, Federal, State, local, and 
territorial government land managers, the Interior Department works to 
address the challenges of natural hazards brought on by a changing 
climate as an integral part of its mission. The budget includes funding 
to improve the resilience of communities and ecosystems to changing 
stressors, including flooding, severe storm events, and drought as part 
of the Administration's effort to better understand and prepare for the 
impacts of a changing climate.
    Healthy communities require secure, sustainable water supplies. 
This is particularly challenging with record drought conditions and 
increasing demand taxing watersheds throughout the country, especially 
in the arid West. To help increase the security and sustainability of 
Western watersheds, the budget continues investment in the Department's 
WaterSMART program to promote water reuse, recycling, and conservation, 
in partnership with States, Tribes, and other partners. Funding is also 
included for research, development, and challenge competitions to find 
longer term solutions through new water technologies. The budget 
invests in the Nation's water infrastructure to ensure millions of 
customers receive the water and power that are the foundation of a 
healthy economy.
             improves oversight and use of federal dollars
    Interior has several multi-year efforts underway to reduce its 
nationwide facilities footprint, and improve the efficiency and 
effectiveness of its information technology infrastructure and 
financial reporting capabilities. Funding for these specific efforts is 
included in the Department's budget request. Reclamation is 
participating in these efficiency endeavors, as well as improving 
reporting and increasing data quality and transparency, as envisioned 
in the DATA Act. Reclamation is also implementing the Federal 
Information Technology Acquisition Reform Act, to improve 
standardization of information technology investments by strengthening 
the role of the Department's Chief Information Officer in strategic 
planning, budget formulation and execution, and acquisition of 
information management and technology activities.
                   natural resource investment center
    The Department has established a Natural Resource Investment Center 
to spur partnerships with the private sector to develop creative 
financing opportunities that support economic development goals while 
advancing the Department's resource stewardship mission.
    The Center will use market-based tools and innovative public-
private collaborations to increase investment in water conservation and 
critical water infrastructure, as well as promote investments that 
conserve important habitat in a manner that advances efficient 
permitting and meaningful landscape-level conservation. The Center will 
work closely with the private sector and others to identify innovative 
ideas and financing options for projects that conserve scarce Western 
water resources and protect species habitat.
                         reclamation highlights
    The 2017 budget for Reclamation and the Central Utah Project 
Completion Act (CUPCA) totals $1.1 billion and focuses on investments 
in Indian water rights settlements, ecosystem restoration, healthy 
watersheds and sustainable, secure water supplies.
    Funding for Water and Related Resources shows a reduction of $305.6 
million from 2016, reflecting the shift of $106.2 million to the 
requested new Indian Water Rights Settlements account and $36.0 million 
for a separate discretionary account within the San Joaquin River 
Restoration Fund.
    Reclamation requests establishment of an Indian Water Rights 
Settlements account in 2017 to assure continuity in the construction of 
the authorized projects and to highlight and enhance transparency in 
handling these funds. The budget includes $12.8 million to implement 
the Crow Tribe Rights Settlement Act, $6.4 million for the Aamodt 
Litigation Settlement Act, and $87.0 million for the Navajo-Gallup 
Water Supply Project.
    The extreme and prolonged drought facing the western States affects 
major U.S. river basins in virtually every western State. The effects 
of the current drought on California water, its agrarian economy, and 
its communities are particularly acute. According to the Economic 
Analysis of the 2015 Drought for California Agriculture by California 
Department of Food and Agriculture, University of California-Davis and 
California Department of Water Resources, the estimated cost of the 
2015 drought on California agriculture-crop production, livestock, and 
dairies is $2.7 billion with a total loss of 21,000 seasonal and part-
time jobs. The Colorado River Basin-- crucial for seven States and 
several Tribes, in addition to two countries--is also enduring historic 
drought. Nearly 40 million people rely on the Colorado River and its 
tributaries for some, if not all, of their municipal needs. The Basin 
is experiencing the worst drought in recorded history; the period of 
2000-2015 was the driest 16-year period in more than 100 years of 
record keeping.
  watersmart, water conservation field services and title xvi programs
    Reclamation's WaterSMART program, requested at $61.5 million, is 
helping to address the drought and other water supply issues across the 
West. WaterSMART Grants, Water Conservation Field Services, and Title 
XVI Programs, along with other Reclamation activities are enabling the 
West to better adapt to the impacts of a changing environment by 
helping to conserve tens of thousands of acre-feet of water each year 
in urban and rural settings, and on both large and small scales. The 
Drought Response Program will implement a comprehensive new approach to 
drought planning and will implement actions to help communities manage 
drought and develop long-term resilience strategies. Reclamation 
continues to promote research and development through its Science and 
Technology and Desalination and Water Purification Research Programs to 
produce new clean water technologies, reduce costs, and decrease 
environmental impacts while converting unusable water into viable water 
supplies. The 2017 budget includes $8.5 million for an X-Prize 
competition to encourage innovative water purification and treatment 
technologies.
    WaterSMART enables the USGS and Reclamation to make focused and 
leveraged investments to address water resource challenges. The USGS 
budget provides an increase of $18.4 million for science to support 
sustainable water management, nearly doubling the investment made in 
2016. As climate models forecast increasingly frequent and more intense 
droughts, improving water management science is a paramount concern for 
land and water management agencies, States, local governments, and 
Tribes. The USGS budget would improve water use information and 
research, provide grants to State water resource agencies, and create 
hydrologic models and databases for better decision support. The USGS 
budget also includes $3.9 million for drought science and $4.0 million 
to develop methods to assess regional and national water use trends 
during drought.
                  central utah project completion act
    The Central Utah Project Completion Act, or CUPCA, Office is a 
Department of the Interior program that reports directly to the Office 
of Water and Science. The fiscal year 2017 Budget proposes $5.6 
million, a reduction of $4.4 million from 2016 enacted, and includes 
$1.3 million to be transferred to the Utah Reclamation Mitigation and 
Conservation Commission. The 2017 reduction in construction funding is 
the result of difficult choices necessitated by the constrained fiscal 
environment. The Budget provides funding through the CUPCA office to 
continue the partnership with the Central Utah Water Conservancy 
District in completing the Spanish Fork Canyon-Provo Reservoir Pipeline 
(Northern Pipeline) of the Utah Lake System delivering 30,000 acre-feet 
of water to Salt Lake County; required program oversight activities; 
and endangered species recovery program implementation.
                               conclusion
    Thank you for the opportunity to testify on the President's 2017 
budget request for the Bureau of Reclamation and CUPCA. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance water conservation and the stewardship of water 
resources. I thank you again for your continued support of our mission. 
I look forward to answering questions about this budget. This concludes 
my statement.

    Senator Alexander. As I said, we are here today to review 
the President's fiscal year 2017 budget request for the Corps 
of Engineers and the Bureau of Reclamation, and I am going to 
focus my questions on three main areas. Number one, making 
investments in our Nation's water infrastructure a priority. We 
have made some real progress there in the last few years. 
Properly maintaining our inland waterway system. We have also 
made progress there. And deepening and widening our coastal 
harbors. We have made progress there, and I would like to keep 
making that progress.
    Number one, in my opinion we should be spending more, not 
less, on our Nation's water infrastructure. Last year, Congress 
made record investments in our water infrastructure by 
providing nearly $6 billion to the Corps of Engineers, the 
largest amount of funding for the Corps in a regular 
appropriations bill. Instead of building on that investment, 
however, the President's budget request this year proposes to 
cut funding for the Corps of Engineers to $4.620 billion, which 
is $1.4 billion, or a 23 percent, cut below fiscal year 2016.
    This is an enormous step backwards. In fact, if we simply 
approve the President's request, the Corps of Engineers would 
receive less than what Congress appropriated in fiscal year 
2006, setting us back more than a decade. And if we look at the 
condition of the locks and dams that the Corps operates across 
the country, for example, we should be able to see exactly why 
these investments are needed.
    The National Academy of Sciences in 2011 said that the 
Corps has 138 locks in operation that are over 50 years old, 
and that the average age of our locks is 58 years. These locks 
are critically important to jobs. They ought to be among our 
highest priorities in Federal spending and support. Using locks 
is the only way for inland waterway shippers to move things 
like grain, steel, fertilizer, and coal up and down rivers. And 
having to unexpectedly shut them down for extended periods of 
time could be catastrophic for agriculture and other 
commodities that rely on them to get their goods to the market.
    Yet as these facilities age, major upgrades, maintenance, 
sometimes replacement is required, so I think it is fair to ask 
why would the President cut funding for the Corps of Engineers 
at a time when more investment is needed? I believe President 
Obama should make funding our Nation's waterways a priority, 
but this year's budget request certainly does not reflect that, 
and I am going to ask our witnesses why that is the case.

              PROPERLY FUNDING OUR INLAND WATERWAY SYSTEM

    The President's budget request proposes significant cuts to 
our 12,000-mile inland waterway system. Critical projects, such 
as replacing Chickamauga Lock in Tennessee, have been piling up 
for years due to a lack of funding, and many of us in Congress 
have recognized that we needed to take steps to increase 
funding for the Corps of Engineers to address this backlog.
    First, Congress passed a law that reduced the amount of 
money that comes from the Inland Waterways Trust Fund to 
replace Olmsted Lock, a project in Illinois and Kentucky that 
was soaking up almost all the money that is available for 
inland waterway projects. Second, Congress worked with the 
commercial waterways industry to establish a priority list for 
projects that needed to be funded on which Chickamauga ranks 
near the top in fourth place.
    And third, 2 years ago, working together in a bipartisan 
way, we increased the user fee that commercial barge owners 
asked to pay in order to provide more money to replace locks 
and dams across the country, including Chickamauga Lock. These 
user fees are deposited into the Inland Waterways Trust Fund. 
These steps increased the amount of funding that was available 
for inland waterway projects from about $85 million--at least 
the amount of money from the trust funds that was available 
from $85 million in 2014 to now $106 million this year.
    Overall, these changes permitted us to spend over $400 
million on our locks and inland waterways when they were 
matched with funds from the General Treasury. Yet the 
President's budget request only proposes to spend $34 million 
instead of $106 million from the Inland Waterways Trust Fund, 
leaving about 75 percent of the available funds unspent. That 
means, in effect, that we would be collecting taxes from 
commercial barges to go through the locks in order to improve 
the locks, and then we would be keeping the money, putting it 
in the bank, and not spending it for the intended--for the 
intended reason.
    The budget request also proposes to fund a single project, 
Olmsted Lock, and eliminates funding for three other projects 
that received funding last year, Monongahela Kentucky Locks and 
Chickamauga Lock. Replacing Chickamauga Lock is important to 
all of Tennessee, and if Chickamauga Lock closes, it will throw 
150,000 more trucks onto I-75, yet the Administration continues 
to not include it in the budget. I have worked with Secretary 
Darcy and General Bostick, and I thank them for this, over the 
past few years with the money that we have appropriated here in 
the Congress. And I deeply appreciate the fact that we found a 
way to restart construction on Chickamauga Lock, which has now 
been funded for two consecutive years.
    But this budget proposal is a huge step backwards in this 
area, and I will be asking witnesses today why the 
Administration has not proposed to spend all the funds that 
have been collected, especially since commercial barge owners 
asked Congress to increase user fees they pay to improve our 
inland waterway infrastructure. We hear about unhappy Americans 
today in this election season. I would think one reason they 
would be unhappy if we raise their taxes at their request to 
improve the locks, and then took the money and did not spend it 
for the reason that we said we were raising the taxes.

               DEEPENING AND WIDENING OUR COASTAL HARBORS

    The budget request also fails to make critical investments 
in our Nation's harbors. To maintain our economic 
competitiveness, our harbors need to be able to accept the 
larger ships that are expected to come through the Panama 
Canal. Significant work and funding is necessary to deepen and 
widen our coastal harbors to accommodate these bigger ships, 
yet the Administration's budget proposes major cuts for this 
program as well.
    To ensure that these critical investments are made to our 
harbors, Congress enacted spending targets for the Harbor 
Maintenance Trust Fund in the 2014 Water Resources Reform and 
Development Act. The target for fiscal year 2017 is about $1.18 
billion, yet the Administration only proposes to spend $986 
million, a shortfall of $194 million.
    Now, we are talking about harbors that need work badly--
Mobile, Charleston, Savannah, New York, Jacksonville. These are 
important to the future of our country. For 2 years, we have in 
Congress done what we said we would do and matched our targets 
for these critical investments. Yet the Administration would 
knock us back by about $200 million this year. So I will ask 
our witnesses how they plan to make these important upgrades to 
our harbors without requesting sufficient resources to do it.

                         BUREAU OF RECLAMATION

    I would also like to recognize our witnesses from the 
Department of Interior and Bureau of Reclamation. The Bureau of 
Reclamation delivers water to one of five farmers in the West, 
irrigating more than 10 million acres of some of the most 
productive agricultural land in the country. We have a farmer 
from the West on our committee. My guess is that he will 
probably have some questions in this area. Although Reclamation 
does not manage water resources in Tennessee, I know of its 
deep importance to Senator Feinstein and other Senators on this 
subcommittee, and we look forward to hearing your testimony.
    Now, Senator Feinstein is not here, and what I think we 
will do is, Senator Tester, because of the votes today, what 
we--have you voted already? So what we decided to do was to go 
ahead and try to make the hearing a movable feast here, and 
they are going to submit their questions for the record, and 
Senators will have a chance to ask questions as they come in. 
If Senator Feinstein arrives, she will make her opening 
statement and ask her questions. If she does not before I 
leave, then I will turn to you and let you--if I may do that, 
and let you take questions.

                            INLAND WATERWAYS

    Let me start with a few questions, and then I will go--then 
I will go vote. Ms. Darcy, we worked well together to improve 
funding for inland waterways, but this budget is a big 
disappointment. Can you explain why the Corps' proposed budget 
does not seem to reflect the President's statements that we 
should be investing more in our Nation's infrastructure?
    Ms. Darcy. Senator Alexander, given the fiscal realities 
that we are facing, the President's overall budget for the Army 
Civil Works Program is what is affordable at this time given 
all the other competing requirements for the budget, including 
even deficit reduction. So at this time, it is what is 
affordable for us to be able to move forward with inland 
waterways as well as others in the overall President's budget.
    Senator Alexander. But we collected money from the 
commercial users of the locks. I mean, it is one of those 
unusual circumstances where the barge owners came and said 
would you please raise our taxes and use those taxes to improve 
the locks and the waterways. And so, we have done that, and you 
cooperated with that last year very well, and that permitted us 
to match the user fee money with appropriations and have more 
than $400 million.
    Yet this year if we take the President's budget, we would 
only have about $225 million, and we would be leaving $72 
million in taxes that we collected unspent. What should I say 
to those commercial barge owners who paid extra taxes so we 
would use it to improve the locks when we not use it?
    Ms. Darcy. Senator, as you know, with any funding coming 
out of the Inland Waterways Trust Fund, which is collected from 
the taxes, there has to be a match from the General Treasury 
from our budget, a 50/50 match for everything within the Inland 
Waterways Trust Fund. In the 2017 budget, the President funded 
Olmsted Lock and Dam at $33.5 million out of the Trust Fund, 
because there was a change made in the law year before last 
that the cost share for Olmsted would not be 50/50. It would be 
15 percent from the Trust Fund and 85 percent from the General 
Treasury.
    In order to meet that match, the remaining money in the 
Trust Fund could not be matched for the other projects. In 
2017, we are funding Olmsted Lock's capability, and then in the 
coming years, as you say, there is an unexpended balance in the 
Trust Fund. I think it will be $106 million.
    But over time, when we are buying down and completing 
Olmsted, which we expect to have completed in 2018, we will be 
able to free up other monies and match them with the Trust Fund 
in the out-years for other projects on the capital strategies 
list for inland waterways.
    Senator Alexander. Let me stop my questioning just for a 
moment. Senator Cochran, have you already voted?
    Senator Cochran. Yes and no.
    Senator Alexander. So you have to go over and vote?
    We have got about three minutes left I think in the voting. 
Would you like to make your opening statement before we go 
vote?
    Senator Cochran. I have to go vote.
    Senator Alexander. Okay. Well then, why don't we do this. 
Why don't you and I go vote, and then we will come back, and 
then I will recognize you. And, Senator Tester, would you 
assume control of the committee here?
    Senator Tester. That is a dangerous thing.
    Senator Alexander. I know, but I trust you.
    Senator Tester. I will do it.
    Senator Alexander. And when Senator Feinstein comes, if you 
could hand over the gavel to her?
    Senator Tester. I would be more than happy to do that. I 
will hold the fort down while you are gone doing your job.
    Senator Alexander. Thank you.
    Senator Tester [presiding]. Thank you. Thank you all for 
being here. I appreciate your work. And thank you, Mr. 
Chairman, for the flexibility.

                          RURAL WATER PROJECTS

    I am going to be starting with you, Commissioner Lopez. I 
believe we have got a half a dozen major rural water projects 
that are in progress, that are being constructed. I think the 
request this year is $19.5 million for construction on those 
six projects. I think it is probably north of $1 and a half 
billion if we are going to complete them all right now, and 
that might be pretty conservative, quite frankly.
    Montana has two of them that are pushing between $250 and 
$300 million each, give or take a few million dollars, and the 
request is for $19.5 million. Now in past years we plussed that 
account up, I think $47 million last year and $31 million the 
year before that. I guess I do not know how the Department is 
doing its budget, but is it--are we coming in at such a low 
number just assuming we are going to bump it up, and then you 
can look fiscally conservative, and we do not look so fiscally 
conservative? What is the thought process behind that, because 
$19.5 million is not even close to keeping up with the rate of 
inflation.
    Mr. Lopez. Good afternoon, Senator, and thank you for your 
question. My answer is very similar to Secretary Darcy's 
earlier remarks, working within the fiscal constraints that we 
are. Much of our infrastructure is quite old, 50 to 100 years 
old. So the vast majority of our funds go towards the 
continuing O&M and upkeep of that existing infrastructure. We 
try and maximize the amount that remains for this construction 
of new projects. Unfortunately, it is a very small remainder.
    Senator Tester. Yeah, I would guess. And one of the 
problems is that, you know, we are probably--I hope we plus 
this up again. But if you came asking for a few more bucks, we 
might be able to get more than just what we are going to plus 
it up by, because, I mean, the need here is for $100 million, 
not $19.5 million, and I think you agree with that. It could 
easily be used when you get these water projects done, move 
onto the next piece of infrastructure, and be done with it. Is 
there a long-term plan as far as--or a short-term plan--I do 
not care, either one--within the Agency to complete these 
projects?
    Mr. Lopez. Within the current budget constraints, we are 
doing what we can. We do thank Congress for the plus up. It 
certainly has helped us get moving along, but it has been 
inadequate.
    Senator Tester. So what you are saying is that as long as 
we are under these budget constraints, they will continue to--
these projects will continue to flounder for dollars.
    Mr. Lopez. Senator, unfortunately we have to maintain our 
existing infrastructure and make sure that that continues to 
function.
    Senator Tester. Okay. Well, there was a proposal out there 
that my predecessor, Max Baucus, I believe, put forth about 
taking a funding stream out of the Reclamation Fund. Is that 
something that you think is appropriate? Is that something you 
would support?
    Mr. Lopez. Senator, obviously I would have to coordinate 
with the Administration as to an Administration position. 
However, I think your idea was the original intent of that 
Reclamation Fund----
    Senator Tester. Yes, it is.
    Mr. Lopez [continuing]. To plow back into investment and 
infrastructure. It seems like that would be a wise use of some 
of that money.
    Senator Tester. I will take that as an endorsement. Thank 
you.
    Mr. Lopez. I think it was.

                            IRRIGATION WATER

    Senator Tester. Assistant Secretary Darcy, my guess is at 
this point in time in your life, you would like to see the term 
``intake dam'' go away. It has been--I am going to tell you 
from my perspective it has been--I do not know if we would go 
as far as calling it a nightmare, but it has not gone smoothly, 
let us just put it that way. There is active litigation 
currently on this project. I do not want you to get into those 
details.
    But could you comment on what you are doing to make sure 
that the irrigators have access to irrigation water that they 
would normally get from intake? I think it is about 52,000 
acres.
    Ms. Darcy. We are trying to maintain existing operations. 
However, as you know, building the intake structure is 
currently under litigation, and we are forbidden from going 
forward with construction. But we have let a construction 
contract, so we would be ready to go if and when the litigation 
is resolved.
    Senator Tester. So do you anticipate that litigation is 
going to be solved by this month?
    Ms. Darcy. I would not say this month, Senator.
    Senator Tester. Oh, okay.
    Ms. Darcy. I would like to say this fall.
    Senator Tester. Okay. Well, that is instructive. Here is 
the problem. Are these folks going to have water this season? I 
do not know what they are planning, but they could be putting 
in the ground at the end of this month, like I say, depending 
on what the crop is. It could be in April. It could be in May. 
It could be in June. That is long before fall. Are they going 
to have water this year?
    Ms. Darcy. I would have to say I do not know.
    Senator Tester. Whoa.
    Ms. Darcy. General Bostick? I do not know.
    Senator Tester. That is not the right answer.
    Ms. Darcy. I know.
    Senator Tester. Can somebody else shed some light on it?
    General Bostick. A lot of our effort to move forward is 
going to depend on the completion of the EIS, and that EIS is 
not going to be completed until the fall. But once that is 
completed, then we can move forward with the construction.
    Senator Tester. I gotcha.
    General Bostick. Beyond that, it would be difficult for us 
to commit. I know the water is needed earlier than that, but it 
would be difficult to do without the court ruling to move 
forward.
    Senator Tester. So by fall, just so you know, I mean, you 
guys--I hope you know this. By fall, the growing season is 
over. So is there anything we can do? Talk to me, please.
    General Bostick. I think we can continue to work to 
accelerate it as much as we can.
    Senator Tester. So that you know, I do not know what crop 
insurance does in cases like this for these guys. I do not know 
if they can easily convert back to a dry land system. I doubt 
it. I do not know if Mother Nature will smile upon them this 
year so they will not need as much water. But we could--without 
irrigation water, we really--I mean, these guys could be--
literally lose the farm. And I do not know their operations, 
but I do know that if it was my operation and I was counting on 
irrigated yield to pay my bills and I got dry land yield, it 
would be very difficult to maintain that operation. So----
    Mr. Lopez. Senator, if I may.
    Senator Tester. Sure, go ahead.
    Mr. Lopez. If I may address that just a little bit. We are 
working with the Lower Yellowstone Board of Control to seek an 
extension of a permit that would allow the continued rock 
piling of that diversion weir to try and get water this season. 
Obviously it is not certain that we will be totally successful, 
but we are going to do everything that we can to make sure that 
the farmers get some water.
    Senator Tester. You know what. Thank you. I mean, that is 
all I can ask for, you do everything you can do to make sure 
those folks get their water, and they will get their water. I 
appreciate that.
    I feel bad not to--not having more questions for you 
because I have got time, and usually this never happens, okay.

                   WATER INFRASTRUCTURE IMPROVEMENTS

    I guess what I will say is that I appreciate what you are 
doing, and I do appreciate the work everybody at this table and 
their priorities for the fiscal year. I think the issue when it 
comes to infrastructure is it is expensive, and it is needed. 
You talked about 50 to 100, and probably east of Mississippi it 
is 150 years old some of that water infrastructure. And it is 
in dire need of rebuild or replace.
    And in some cases in Montana it is in dire need of just 
getting water in places that do not have water. It is 
critically important if we are going to have any kind of 
economy. And so, hopefully through your work, and if you 
continue to lay out the case and be honest with Congress about 
what the needs are and what your capacity is under the current 
budget restraints, we will get enough votes in this outfit to 
try to get some solid infrastructure improvements around this 
country. It is something that my parents' generation got. 
Unfortunately my generation does not, at least the ones that 
serve here in Washington, DC.
    So thank you for your work, whether it is in recreation, or 
flood protection, or hydropower production, or irrigation for 
agriculture, or drinking water. I certainly appreciate what you 
do.
    With that, I guess if I was in the military, I would say 
``at ease, smoke them if you got them.'' But we are in a 
building that you do not do that in, and I will wait for 
Senator Feinstein's arrival, and we will go from there.
    Okay. We will recess until the Chair, or Vice Chair, or a 
member of this Committee shows, and then I can go vote. Thank 
you all.
    [Recess.]
    Senator Alexander [presiding]. The committee hearing will 
resume. Thanks to the witnesses. I understand we exhausted 
Senator Tester.
    He missed his opportunity of a lifetime, but he appreciated 
the chance to question you. I will proceed with some of my 
questions until another Senator arrives, particularly Senator 
Feinstein, Senator Cochran I know, and we will talk a little 
bit. And I will defer to them whenever they come or as other 
Senators come. We have three more votes, but still we should be 
able to give Senators an opportunity to have a good discussion.

                            CHICKAMAUGA LOCK

    General Bostick, I want to go back Chickamauga Lock on 
which I have worked with you before. I generally do appreciate 
the work that you and Secretary Darcy have done in the past 2 
years to restart Chickamauga Lock. I know you have looked at it 
carefully. You have stayed within your--within the established 
priorities within your Department. But you had sufficient funds 
to spend $3 million in 2015 of unallocated money, and then this 
past year the funding that Congress provided gave sufficient 
funds to do what you needed to do with the first three 
priorities on that priority list and left $29 million for work 
on the fiscal year 2016 work plan for Chickamauga Lock.
    I am perplexed about why the Corps would want to restart a 
project and then not propose to fund it until it is finished. 
So let me ask you this. How much funding could Chickamauga Lock 
use during fiscal year 2017?
    General Bostick. Senator, you are asking about the 
capabilities, and I thought I would first talk about how we 
look at the capability on a project.
    Senator Alexander. That would be fine.
    General Bostick. When we look at the civil works budget, it 
is a performance-based budget as we look at our projects. We 
look at each project based on what we can obligate each year, 
and that would be what we call the capability. It is also 
important to understand that when we look at capability, we 
identify the capability for each project without regard to the 
amount of money that we might have for the whole civil works 
budget. So if you added the capability of every project, it 
would obviously be more than the capability that we could 
execute in a given year.
    Given that, $37 million would be the capability of Chick 
Lock in fiscal year 2017.
    Senator Alexander. So, well, thank you for such a precise 
answer. So if you sufficiently funded the first three 
priorities on your list, then the question would be whether you 
had $37 million for Chickamauga Lock, which is fourth. Is that 
also correct?
    General Bostick. If we sufficiently funded the first three 
projects, would we have----
    Senator Alexander. No. I guess the way you would be looking 
at it. Let us go back to this year. I think what you did this 
year, you looked at the first three priorities on your capital 
list and determined that you had a sufficient amount of money. 
What would the capability be for each of those.
    General Bostick. Correct.
    Senator Alexander. You did that, and you had $29 million 
left, and you spent that on Chickamauga Lock. Is that basically 
right?
    Ms. Darcy. Yes.
    General Bostick. The $29 million, correct. That was out of 
the work plan.
    Senator Alexander. So in the next year it would be--$37 
million would be the amount you could spend if you had it 
available.
    General Bostick. $37 would be what we could obligate in 
fiscal year 2017.
    Senator Alexander. Thank you for your answer. I am now 
going to call on Senator Feinstein for her opening statement. I 
know that Senator Cochran, the committee's chairman is coming, 
hoping to--he was here earlier, hoping to make a statement. And 
we will continue until every Senator has a chance to do that, 
and we will go back and forth to voting. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. And, 
first of all, let me give my apologies to you and to our 
witnesses as well as to the people that were here. As you know, 
I had an amendment on the floor and spoke on it, and at least 
am pleased that it passed unanimously. So that is the good news 
part of this.
    I want to welcome our witnesses. I want to thank you for 
your testimony today. And, General Bostick, I understand you 
are retiring this year, so I want to extend my gratitude for 
your service to this country. It is very much appreciated.
    General Bostick. Thank you.
    Senator Feinstein. You have served with distinction within 
the Army, both at home and abroad, and we are very proud of 
you. So thank you. And you have done work on behalf of 
California, which I thank you for.
    Turning the President's 2017 budget request, Mr. Chairman, 
I have to say I am disappointed in the proposals from both 
agencies represented here today. A 23 percent drop in the 
Corps' budget and a 13 percent drop in Reclamation's budget is 
simply unacceptable when one considers all of the water 
resource needs our Nation faces. The work your agencies do to 
provide tangible benefits to more people on a daily basis than 
perhaps anything else funded in our bill.
    You are responsible for providing drinking water, water to 
produce food. You are tasked with protecting lives, homes, 
businesses from floods. You maintain navigation channels and 
ports. You restore the ecosystem to help combat climate change. 
So it is disappointing that every year we go through the same 
exercise of examining an Army Corps budget that has been cut by 
over $1 billion from the previous year's enactment level, and 
that is not your doing. It is the executive branch's doing.
    It seems to me your job is already difficult enough, and I 
am not pleased to have to play these games with the 
Administration for yet another year. So I hope we can come to 
some agreement on numbers that allow you to do the job well.
    I am equally disappointed with Reclamation's proposed 
budget, which is a 13 percent decrease from fiscal year 2016. 
The subcommittee has undertaken herculean efforts to provide 
$150 million more than was requested over the last 2 years to 
address the drought facing the West. And so, once again the 
Administration did not propose to continue that funding. That 
is $150 million that we put in that they did not continue, and 
indeed did not request any additional funding for the drought. 
That, as a Californian, is really unacceptable.
    My constituents are also the President's constituents, and 
I am really frustrated that the Administration seems unwilling 
to help me do something about this drought. One El Nino year 
alone will not be enough to end this drought, and Californians 
are really hurting. It should matter.
    It is a huge State, 40-plus million people. Sixty-nine 
communities in our State have significant water supplies and 
water quality issues. Our economy lost $42.7 billion from the 
drought last year. One million acres of California farmland was 
fallowed in 2015. The drought has led to 35,000 permanent jobs 
lost. Land subsidence from pumping too much groundwater has 
caused large areas of the San Joaquin Valley to sink by as much 
as two inches per month. As a result, bridges, aqueducts, and 
roads have already begun to crack.
    Fifty million large trees are dead or likely will die. 
Another--and get this number--888 million trees experienced 
loss of canopy cover since 2011. And I said to my staff, 
Commissioner, this cannot be right, and they said, oh, yes, we 
have checked it, it is.
    There are two themes I want to highlight today. The first 
is data versus intuition, and the second is win-win scenarios. 
Commissioner Lopez, this subcommittee has provided the Bureau 
with extraordinary resources over the past 2 years to provide 
more water to people in the West. Yet I continue to hear that 
water pumping decisions are still being based on intuition of 
when protected fish might be near the pumps rather than when we 
know they are actually present.
    For example, Interior may reduce pumping if even one smelt 
this size is found as far away as 17 miles from the pumps near 
a monitoring station called Prisoner's Point. But outside, 
biologists and scientists believe that Reclamation is reducing 
pumping prematurely. These experts believe that the Agencies 
could continue with higher pumping levels, even if smelt are 
found at a monitoring station that is only 12 miles from the 
pumps. Why? Because they can still move back.
    So we need to know who is right, and that is why I believe, 
and what we have proposed, is daily boat monitoring in turbid 
waters because that water is critical to making an informed 
decision and increasing the Agencies' operational flexibility. 
Reclamation has been given significant funds to make more data 
driven decisions grounded in the latest science, and so I hope 
you will do so.
    Secretary Darcy, while water supply is not your primary 
mission, I believe that water supply can be achieved also 
during the course of the Corps' traditional work on flood 
protection, navigation, and ecosystem restoration. I believe 
there are numerous opportunities for the Corps to find these 
win-win scenarios, and you have done a good job, and I just 
want to encourage you to look for doing that.
    For example, seismic retrofits could be coupled with dam 
raises, and we have that in one proposal of such in the San 
Joaquin Valley. Better weather forecasting resulting in less 
water being unnecessarily released from damns. I met with the 
Army Corps head from Sacramento yesterday about Folsom Dam. 
Folsom Dam is just 60 percent filled, and yet they are 
releasing water because of the possibility of rain, which could 
possibly produce flooding.
    Now, I do not know if 60 percent is the right level to 
begin that--to do that or not, but I really think in view of 
the drought we ought to take a look at that. And ecosystem 
restoration projects can provide for additional groundwater 
recharge as well.
    So, Mr. Chairman, let me say one thing. We have worked well 
together, and I have so appreciated your leadership over these 
many years. But this drought is the hardest thing I have ever 
done in my 23 years in the Senate. And I really want to make 
sure that the two agencies testifying today are working hand-
in-hand with each other, with other Federal agencies, and with 
State and local partners. We are the most populous State in the 
Union, a significant source of our Nation's food, at least 50 
percent. That means that drought is a problem for the whole 
Government and will require a whole of Government solution.
    So, Mr. Chairman, what I am saying today is I look forward 
to working with you. You have always been a great one to work 
with, and I really appreciate it. And I hope that we will be 
able to reallocate some funds to solve some of these big 
problems. So thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. We have 
had an excellent working relationship on this committee and 
with the witnesses. For the information of Senators, what we 
decided to do today, we dispensed with their testimony. That 
has been submitted to the record. We dispensed with opening 
statements except for the chair and the ranking member. And 
because of the votes we are giving Senators an opportunity to 
take their five minutes in terms of questions or statements in 
order.
    And so, Senator Feinstein, if I may suggest, I am going to 
ask you to chair for the next few minutes, and I will go take 
the--I will vote early on vote three, and then I can get back 
here I think in time for you to go.
    Senator Feinstein. Good.
    Senator Alexander. And after you are through, if Senator 
Cochran comes back, he would be next. And if he is not, Senator 
Murkowski would.
    Senator Feinstein. Okay.
    Senator Alexander. So if you could please do your questions 
and then go to the next Republican member, I will be back by 
that time.

                        WATER PUMPING DECISIONS

    Senator Feinstein [presiding]. Thank you very much, Mr. 
Chairman.
    My main question is on delta operations, and I am concerned 
that Reclamation has pumped less water in 2016 during this El 
Nino year than it did in 2015 when California was in extreme 
drought. Flows were as high as 50,000 CFS in the Sacramento 
River, yet the Agencies reduced pumping to the low end of the 
biological opinions because of one smelt.
    I continue to hear that water pumping decisions are still 
being based on when protected fish might be near the pumps 
rather than when we know they actually are present. For 
example, Interior may reduce pumping even if one smelt is found 
as far as 17 miles away, as I have said, at Prisoner's Point. 
And I mentioned what outside biologists and scientists believe. 
I will not go into that again.
    So here is the question. What are you doing to test whether 
or not smelt identified past the Prisoner's Point monitoring 
station can still survive and make their way back out to the 
central delta.
    Mr. Lopez. Senator, first of all, let me start by saying 
that I understand your frustration and that of the water users. 
We are equally frustrated. Having said that, I need to answer 
this by talking a little bit about what I understand the fish 
agencies are relying on.
    And basically what they are concerned about is that once 
fish get to that point, Prisoner's Point and south of there, 
they are essentially entrained in the system. If they get into 
that area, they are not going to survive, nor are they going to 
spawn.
    Senator Feinstein. Excuse me. As long as we concur that 
Prisoner's Point is 17 miles from the pumps, right? That is 
all.
    Mr. Lopez. That is correct.
    Senator Feinstein. Please continue.
    Mr. Lopez. So we operate the pumps under the biological 
opinions, and the Fish and Wildlife Service regulate the 
conditions of the biological opinion of the smelt. They have a 
Smelt Working Group that is, in essence, the best minds on the 
issues of the smelt and its survivability.
    They are of the opinion that once smelt get to that point 
around Prisoner's Point and points south, if the flow into the 
Old and Middle River is reversed, the smelt essentially moves 
on towards the pumps, they become entrained there, and they 
will not survive. So they are concerned about smelt even at a 
very long distance away from the pumps.
    In fact, what has happened in recent timeframes of high 
flows, as you have mentioned, the Smelt Working Group has 
recommended even lower pumping rates than what we have done. 
But David Murillo, our regional director of the Mid-Pacific, 
whom you know well, he and the fish agencies have a very good 
working relationship. They have agreed to essentially try 
something that is beyond what has been recommended, and that is 
what they have been doing.
    One of the reasons that they are trying to prevent the 
entrainment is that we had an instance in the winter of 2012-
2013 where the smelt did get entrained in that area. Once they 
got entrained, they got pulled into the pumps and we reached 
the take limit, and at that point we had to re-consult, and 
then we were even further constrained on pumping.
    Senator Feinstein. Let me ask you this question. Would you 
be willing to sit down with those biologists and agencies that 
believe that in the distance from 17 miles away and 12 miles 
away that those fish can still return, that they will not be 
entrained, would you at least sit down with them and listen?
    Mr. Lopez. Senator, absolutely, I would.
    Senator Feinstein. Okay. I will set it up.
    Mr. Lopez. However, I also want to mention that the entity 
that has to be convinced is the Fish and Wildlife Service and 
their biologists. They, in essence, regulate what we do.
    Senator Feinstein. We will include them, too.
    Mr. Lopez. Yes.
    Senator Feinstein. But, look, I do not intend to quit, so I 
am going to be at this, and there are so many conflicting 
opinions. Maybe if we get them in one room and listen to them, 
it might be profitable. So I very much appreciate that.
    Senator Murkowski, welcome. You have a heavy load today I 
know.

                               KING COVE

    Senator Murkowski. We are all busy, and I apologize. We are 
all kind of jumping up and down like jack-in-the-boxes here to 
go vote because this is so important. I have what I hope will 
be three very quick questions.
    The first one is relating to King Cove. Senator Feinstein 
indicates she is not giving up. I am not ever giving up on King 
Cove and getting my 10-mile--the people of King Cove a 10-mile, 
one-lane gravel non-commercial use road.
    I am told, because I had the Secretary of Interior before 
me today in Interior Appropriations Subcommittee and last week 
in Energy, that the study that she asked the Corps to do about 
alternatives for King Cove was done by the Corps. When I asked 
her if she could make that public, she said she did not know if 
she could. She was going to have to check with the Corps. And I 
said, well, conveniently, I have got the Corps in front of me 
this afternoon, so I will ask if we will be able to get a copy 
of that report that was requested by the Secretary.
    Ms. Darcy. Senator, I am----
    Senator Feinstein. Excuse me. Ms. Darcy, if you could wait. 
I will go down and vote, and you just continue on. Is that 
agreeable, Senator?
    Senator Murkowski. Thank you. Thank you.
    Senator Feinstein. Thank you.
    Senator Murkowski [presiding]. Thank you, Madam Chair.
    Ms. Darcy. Senator, in response to your question, we did a 
report at the request at the Department of Interior for the 
non-road alternatives. And I will personally ask the Secretary 
of the Interior if we can make it public.
    Senator Murkowski. I would appreciate that. I think the 
people of King Cove would appreciate that, so I will look 
forward to that.

                         ARCTIC DEEP PORT STUDY

    Let me ask you about the Port of Nome, and more 
specifically to a deepwater port in the Arctic. As you know, I 
have been a long proponent of making sure that we have 
infrastructure in the Arctic as we see developments taking 
place up north, and the increased traffic in the Bering, the 
Beaufort, and the Chukchi.
    Last year, the Corps placed a strategic pause on the 
proposed port in Nome. When the President was up in September, 
he announced the need for a deepwater port that would be north 
of Dutch Harbor. Given the President's support for this, why 
have we not included construction funding going forward in this 
next fiscal year?
    Ms. Darcy. Senator, the Arctic deep port study that you are 
referencing was indeed put on pause last October in conjunction 
with the local sponsor, the State of Alaska. Since that time 
and since the President's visit, we are now going to look at 
further scoping of that study, because it was limited to just 
some economics involving oil and gas. But there are other 
things that we think can be included in this, for instance, 
that the Port of Nome may be considered a port of national 
significance, in addition to the fact that it could possibly 
house the Coast Guard's icebreaker in the future, as well as 
other benefits that could come from that.
    Senator Murkowski. I appreciate the additional scoping, and 
I think that it is important that--life safety reasons. Like 
the socioeconomic benefit that accrues to a community, to a 
region when you have a port that is accessible that can reduce 
the cost of goods that come in, reduce the cost of fuel that 
comes in, just the general cost of living.
    But I do find it just really quite surprising that the 
assessment for a port could have been built upon one project 
without recognition of, again, the expanded role, the 
activities in the region. This is one of those areas where when 
you talk to the people, whether they are in Nome or anywhere 
south of that, they say the Arctic is more than just oil and 
gas exploration.
    It is just more than just shale up north. It is about 
having infrastructure to accommodate a reality, a daunting 
reality that--it is almost as if a new ocean has been 
discovered at the top of the globe. And so, how are we 
preparing for that? You cannot really be in the game, you 
cannot be that Arctic participant unless we have that system of 
ports. So know that we are going to continue to press on this.

                  SECTION 107 SMALL NAVIGATION PROGRAM

    The last thing that I wanted to ask you, and I actually 
have constituents that are waiting to see me from the community 
of St. George on the Pribilof Islands. I had asked about the 
Section 107 Small Navigation Program last year. Many of my 
constituents have thanked me for advocating on behalf of that 
program because it really is a great fit, a great fit for these 
small villages, these small communities that are trying to 
construct a small harbor, break water. But the waiting between 
WRRDA (Water Resources Reform and Development Act) bills has 
been a little bit lengthy, and just these are projects, as you 
and I know, just compete on that national scale.
    And what I would ask from you is just further commitment 
from you, from your staff to continue to work with my office so 
this Section 107 Program can continue to benefit these small 
communities. I know for a fact that the people of St. George 
that are waiting for me as I go to this next vote are going to 
want to know that this type of support is going to continue.
    Ms. Darcy. Yes, the CAP programs are an important part of 
our entire program, and we have three 107 projects now ongoing 
in Alaska. And that program is one that it is for smaller 
projects that do not need the full-blown WRDA authorization, 
and that is why it has been successful, especially in small 
communities like those in Alaska.

                     LIQUEFIED NATURAL GAS EXPORTS

    Senator Murkowski. Well, we will work with you on that. And 
since nobody is back, I will take an opportunity. I was in 
Houston last week at CERAWeek, which is the big oil and gas 
summit really in the country. And a lot of discussion about the 
fact that we had just seen that Wednesday the first shipment of 
LNG leaving Louisiana to head out to Brazil. Obviously exports 
of LNG (liquefied natural gas) are a big deal for me both 
because of the Alaska LNG project and because of the energy 
bill that we are working on that would expedite these 
approvals.

                        SABRINE-NECHES WATERWAY

    The Sabine-Neches Waterway is probably one of the more 
important waterways in the Nation. By all accounts it is poised 
to play a key role in the buildout of LNG exports from the 
United States, specifically Louisiana and Texas. So if you 
could just give us a quick update on the 2014 authorization 
that we need to deepen that waterway.
    Ms. Darcy. You are talking about Sabine-Neches?
    Senator Murkowski. Yes.
    Ms. Darcy. That project currently has a benefit to cost 
ratio that does not compete well for budgeting at a 7 percent 
rate. However, our Galveston district is doing and economic 
update and that economic update I think will be approved in the 
third quarter of this year. So with an uptick in the economics, 
there is a possibility that the benefit-to-cost ratio would be 
improved and make it more competitive for budgeting.
    Senator Murkowski. Do you anticipate that that would, given 
what we expect to see coming out of Louisiana and coming out of 
Texas with LNG exports?
    Ms. Darcy. I think in considering those, since the 4-year 
ban has been lifted and that can happen now, that will change 
the economics.
    Senator Murkowski. And that will be included as part of 
your analysis.
    Ms. Darcy. It will be considered in it, yes.
    Senator Murkowski. Okay. I appreciate that. I am going to 
utilize a little bit of executive authority and call a recess 
for the committee until other members get back so that I do not 
miss this important vote. So we are recessed to the call of the 
chair.
    Senator Alexander [presiding]. Thank you for your 
flexibility. The hearing will come to order. That was the last 
vote, so Senators will be here, and Senator Coons was here 
earlier, so I will call on Senator Coons at this point for his 
five minutes of statements and questions.
    Senator Coons. Thank you very much, Chairman Alexander. 
Thank you both for your forbearance and for your sound and 
solid leadership of this subcommittee and others. Thank you for 
your service and for the opportunity to talk with you today 
about the Army Corps of Engineers.

                        DELAWARE RIVER DREDGING

    I have been particularly pleased with the service of the 
colonel who is charged with the Philadelphia district, 
Lieutenant Colonel Mike Bliss. And I am grateful for your 
continued support for a project that is near and dear to my 
constituents, the Delaware River dredging. I am pleased there 
is another $55 million overall in the work plan to complete the 
project, so I just want to start by saying thank you since I 
know not every opportunity is taken to thank you for budget 
support and for leadership.

                       DELAWARE BEACH PROTECTION

    If I might, Assistant Secretary Darcy, I just want to talk 
about Delaware's beaches. We have several world-class beaches. 
They are a key driver of tourism in our region, and they are 
essential to the economy of southern Delaware. We had a 
significant storm recently that imposed some very hard damage. 
We were grateful for previous investment in beach nourishment 
that protected those beaches, but most of what had been 
provided in recent years was torn away. That has left a lot of 
our coastal communities and their infrastructure exposed. I am 
hopeful that we can work together to find resources.
    The President's budget, to my disappointment, did not 
include funding for Bethany Beach or South Bethany Beach, and 
as the project information reports from the Philadelphia 
district come into your office describing damage to Delaware's 
beaches, I am hopeful that you conclude that the Flood Control 
and Coastal Emergencies Act Funds that remain unspent from 
Sandy could be used for Rehoboth, Bethany, and South Bethany.
    Do you think that is possible or likely, and if not, what 
else do you think we could do to rebuild Delaware's beaches and 
its coastal defenses?
    Ms. Darcy. As you say, Senator, we are in the PIR stage 
which will inform as to what damages were done and what the 
actual cost of those repairs will be.
    As far as using Sandy supplemental funds, I am going to 
have to defer because I believe that those can only be used for 
damages that were incurred from Super Storm Sandy as opposed to 
subsequent storms. That is something we will check into if the 
need for the repairs is unmet.
    Senator Coons. Given just a visual inspection as well as 
detailed reports from local government leaders suggest to 
Delaware's congressional delegation that there will be some 
significant needs here, what funding source do you think is 
most likely relevant or appropriate to take action this year?
    Ms. Darcy. Probably the FCCE account. That is our Flood and 
Coastal Emergencies account, but it would depend on how they 
are evaluated as far as relative to the most recent storm.
    Senator Coons. I will join comments made by other of my 
colleagues earlier in this hearing that it is disappointing 
that the Administration's funding request is insufficient for 
what are the likely needs of the whole country. As a member of 
this subcommittee, I am happy to commit to continuing to 
support needed increased funding that will make it possible for 
you to address the needs of Delaware and many other States.

                           PORT OF WILMINGTON

    Let me also turn to the Port of Wilmington. It is on a 
dredging cycle that really is not sufficient to meet the needs 
of this port. It is a relatively small port, but it is an 
important port for my home State. It silts in about every 6 to 
9 months, and right now it is causing havoc with the number of 
customers at the port. I am hopeful that going forward you will 
consider including funding for two dredging cycles a year. Is 
this something you are familiar with?
    Ms. Darcy. Senator, I am aware that we did provide 2016 O&M 
dredging for this port at $3.845 million, and also in the 
President's 2017 budget request we have $4.355 million for the 
next dredging cycle. So I think an additional dredging cycle is 
what your question is, sir?
    Senator Coons. Yes.
    Ms. Darcy. I believe that currently we are budgeting on a 
single dredging cycle, and that is what I think those numbers 
reflect.

                    DELAWARE RIVER BASIN COMMISSION

    Senator Coons. Well, I will urge you to reconsider, based 
on experience at the port, two dredging cycles a year. Let me 
in my closing moments simply recommend to you again funding for 
the Delaware River Basin Commission. Although there is a 
congressionally approved compact that requires a Federal 
contribution, the Federal contribution has been forthcoming, I 
think, in 19 of the last 20 fiscal years.

                     HARBOR MAINTENANCE TRUST FUND

    I also am an advocate for the Harbor Maintenance Trust 
Fund. You have made some significant, I think, improvements. 
The request is higher. Our funding has improved, but it is 
still 20 percent less this year than what was appropriated 
last. I think it would make a significant different for harbors 
across the country, not just in my home State of Delaware.
    So please note me as an advocate for working to ensure that 
the Harbor Maintenance Trust Fund is put to its appropriate 
purposes, and that we invest to the level we need to in order 
to ensure that our export and import businesses that go through 
our vital ports and harbors are appropriately maintained.
    Ms. Darcy. Yes, sir.
    Senator Coons. Thank you very much.
    Senator Alexander. Senator Udall, I think we have other 
Republican members coming, but since you are here, I will call 
on you. And what we have done is because of the votes, we have 
asked the witnesses to put their statements in the record, 
Senators have put their opening statements in the record, and 
now you have five minutes for statements or questions, whatever 
you would like. Senator Udall.

                    NEW MEXICO RURAL WATER PROJECTS

    Senator Udall. Senator Alexander, Chairman Alexander, thank 
you very much. And I guess I lucked out with not having to 
alternate here.
    I want to thank you both for working with the Albuquerque 
District to fund some important New Mexico projects over the 
last few years. New Mexico often has a tough time in the 
President's budget request, so additional discretionary funds 
that this committee provides and your hard work is really 
critical in my State.
    We have had some good success funding flood control 
projects in Alamogordo, Socorro, the Southwest Valley, and 
others, and I am very relieved that we have continued the New 
Mexico Acacias Program. I hope you know what that is, Honorable 
Jo-Ellen Darcy.
    Ms. Darcy. I visited about 4 years ago.
    Senator Udall. Good. Good. And to support the historic--
these are various, you know, historic irrigation canals that 
also help our local ecosystems and manage water flows.
    Additionally, I am pleased that for 2016, the Corps has 
funded the Rio Grande Environmental Management Program for the 
first time. It will be important to continue that effort which 
will link together stakeholders and watershed information to 
encourage collaboration on water challenges and minimize the 
potential for counterproductive conflicts. And finally, I am 
glad we are making progress on reimbursements under the 
Environmental Management Accounts, specifically for Rio Rancho 
in 2016. We talked about this issue last year, and I wanted to 
thank you for your attention to this issue.
    The Corps signed agreements years ago with a variety of New 
Mexico communities to fund water projects, and we need to close 
these accounts out. So given our recent success--hopefully this 
is an easy question--will you continue to work with this 
committee and stakeholders in New Mexico to advance these kinds 
of projects in a fiscally responsible way if this committee 
continues to provide additional discretionary funding for the 
Corps?
    Ms. Darcy. Yes, Senator.

                      GILA RIVER DIVERSION PROJECT

    Senator Udall. Thank you very much. And now turning to the 
commissioner of Bureau of Reclamation Estevan. Good, solid New 
Mexican is back here. Good to see you again.
    Commissioner Lopez, I want to touch on an issue that is 
very important to me and one I know you are familiar with, the 
proposed Gila River diversion project. The Gila River is the 
crown jewel of the Southwest and one of the last remaining 
free-flowing rivers in the United States. The river provides 
amazing opportunities for recreation, wildlife habitat 
protection, and has unique historic value. And, of course, we 
are also very sympathetic to the water needs of nearby 
communities and the agricultural needs.
    I understand why any proposal that could mean more water 
resources is a discussion worth having, but from everything I 
have seen, this project simply does not add up. My 
understanding is that a diversion has the potential for about 
14,000-acre feet of water, but with significant technical 
challenges, and only in a wet year that will not happen very 
often, with construction costs estimated near a billion dollars 
and would need NEPA approval for disturbing a relatively 
untouched river system. In short, this does not seem like a 
viable or wise project.
    I understand that the environmental review process is the 
next step, and the Bureau of Reclamation along with the New 
Mexico Interstate Stream Commission are joint leads on this. 
What kinds of analyses will be included in your comprehensive 
review process? Will the costs associated with this project be 
fully reviewed in an objective way, because I have said, and 
please go ahead with those, Estevan, and then I will just 
finish with these last couple of questions.
    Mr. Lopez. Good afternoon, Senator. It is good to see you.
    Senator Udall. It is a pleasure. Great to see you.
    Mr. Lopez. And so, to date New Mexico has yet--the New 
Mexico Unit entity has yet--to propose a project, so we have 
not yet begun that process. Once they do, it will be a few 
months before we begin a public scoping process. We would 
develop a full range of alternatives that would be evaluated in 
that process, and we would assure that there is a robust 
analysis that would comport to the Federal principles, 
requirements, and guidelines for water and land related 
resource implementation studies. That was part of the agreement 
that was entered into last November.
    Specifically, you asked what type of studies would be 
looked at. We would intend to look at the impacts on fish and 
wildlife, hydrology, land use, cultural resources, recreation, 
and ecosystems, and, by all means, the economics of any 
proposal that comes forth. We are committed to a robust 
evaluation of this. As you say, the Gila is truly a jewel in 
the Southwest, and it is something that needs to be protected.
    Senator Udall. Thank you. And, Senator Alexander, I will 
submit the rest of my questions to Mr. Lopez for the record. 
But I just want to say that I have seen estimates that range 
from half a billion to $1 billion for construction. I cannot 
see any White House Office of Management and Budget clearing a 
new billion-dollar Federal water supply project with such 
limited potential. So thank you, and I will submit additional 
questions, and look forward to your answers.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Udall.
    Senator Lankford.

                 CORPS OF ENGINEERS DISPOSITION STUDIES

    Senator Lankford. Thank you, Mr. Chairman. Thank you all 
for being here and for the work that goes into this. General 
Bostick, good to see you again. Let me pepper you with 
questions. It is so good to see you. How about that?
    We have talked a couple of times before about the 2014 
water bill that put into it a request to the Corps to say give 
us an inventory that is not needed--this was the quote--``not 
needed for the mission of the Corps of Engineers.'' Obviously 
it is trying to determine if there may be any properties or 
entities that are anywhere within the Corps of Engineers that 
are not needed so that we can spend money on what is essential 
for the Corps.
    How is that study, that assessment going, and when can we 
expect to have that report?
    General Bostick. It is good to see you again, Senator. 
There are a number of activities going that I think are related 
that I wanted to highlight and talk about. And the first is the 
deauthorization report that we had to come back to Congress 
with, $18 billion worth of deauthorizations.
    Senator Lankford. If my memory serves me correctly, about 
$14 billion in that $18 billion request.
    General Bostick. We were able to come up with $14 billion, 
but in coming with that, we had to do an assessment of many of 
our projects, so the assessment is underway. We are not 
complete. We still have a lot of work to do. It is not directly 
tied to the 6002 report, but it is related. The other thing 
that----
    Senator Lankford. So give me a ballpark on timing when that 
assessment might be complete.
    General Bostick. I cannot give you a ballpark time on that. 
What we are trying to do, because we have not started the 6002 
report because we have put all of our focus on trying to get 
the deauthorization report accomplished. We did that, and now 
we are doing the annual deauthorization, and we will be 
finished with that in September of 2016.
    I think combining the two efforts, we will be closer to 
doing an overall assessment. What we have done is completed an 
overall operational assessment of our projects, but we have not 
made an assessment of which ones we should retain, which ones 
we should divest ourselves of, and which ones should be 
repurposed. That is going to be a longer effort.
    Senator Lankford. Sure. Well, that is why we started it 
early because you know my next question on that is the disposal 
process, and once we determine some of the things that might. 
And I say ``might'' because we are not asking you to choose 
those, but at least to start to put together a list of things 
that are not central to the mission of the Corps. Once we have 
that list, we have got to work through the process of how do we 
actually dispose of that.
    Any ideas at this point on disposal authorities that the 
Corps may need once that list is out there?
    General Bostick. Well, you do have authorities under 
Section 216, and rather than waiting until we have the complete 
report finished, we are starting now with disposition on two 
projects, disposition studies on the Kentucky River Lock and 
Dam and the West Pearl Navigation Project. So those disposition 
studies will go on this year.
    Many activities are working in parallel. We are not going 
to wait until the complete report is done, but we are using the 
deauthorization requirement, both the annual and the one time 
report required in WRRDA, and also moving forward with 216 
authorities.
    Senator Lankford. Okay. That will be one of those things we 
will want to talk about at length is if there are additional 
authorities or ways we can help in that process. Obviously if 
we have an area where we are not authorizing or allowing or 
transferring, we do not want it to be more expensive than 
actually maintaining it. We want to actually have an efficiency 
of the process with this so you all do not have to worry about 
that.

            ACCEPTING NON-FEDERAL FUNDING DURING EMERGENCIES

    Let me ask about another question that came up from the 
2014 WRRDA, and that is accepting materials and services from 
non-Federal entities in the case of an emergency situation. 
Obviously this has implications around the country, especially 
in inland waterways and places where we may have an emergency 
situation.
    Congress passed that, and asking for a set of--asking for 
implementation. We were pretty clear to give that authority. I 
am trying to figure out if the Corps has the implementation on 
that, the guidelines for that done at this point. Are those 
guidelines complete?
    General Bostick. Yes, we are finalizing initial 
Implementation Guidance on that. I think where we are finding 
challenges at the local level is we can accept funds on an 
emergency disaster type situation, but we cannot accept funds 
for some of our projects where we have not been able to 
maintain them.
    Senator Lankford. So what about--this is an emergency 
situation just starting with that. What about services? You 
accept services. So if someone had materials, had equipment, 
had personnel, a contractor that was there, and a State or a 
private entity said this is an emergency, we want to be able to 
help with that. Are you all in a position now with these 
guidances to be able to accept those goods or services in the 
time of an emergency?
    General Bostick. If it is related to a disaster, my answer 
would be yes.
    Senator Lankford. Okay. Yeah, all these are contingent on 
an emergency. That was the definition that was on it, which is 
left open of what is an emergency. When I talked to several of 
the folks in the different areas, there seems to be a hesitancy 
in the field and in the regional offices to accept goods or 
services or be able to discuss that even of what the process 
would be in case of an emergency.
    Those folks want to plan contingencies, and what I hear is, 
well, we are studying it. There are not those guidelines in 
place in the field. So I do not know if those guidelines had 
just been released or not, but the individuals that this would 
actually affect cannot plan their contingencies because they do 
not know how to connect to the Corps at this point in case of 
an emergency.
    General Bostick. We will go back and redouble our efforts 
to make sure that the Implementation Guidance that we will put 
out is understood in terms of what they can and cannot accept.
    Senator Lankford. Okay. If there are additional authorities 
that are needed on that, we just need to know because if this 
is going to be an issue of, yes, we technically can, Congress 
gave us permission, but there are liability risks, and who is 
going to pay for what if it breaks. And suddenly we are in a 
position where there is actually not done what Congress said we 
could do, and there is some gap in it, we need to know in that 
process so we can actually resolve this. So can you help us 
with that?
    General Bostick. We will follow up.
    Senator Lankford. Great. Thank you. I yield back, Mr. 
Chairman.
    Senator Alexander. Thank you, Senator Lankford.
    Senator Hoeven.

                       RED RIVER FLOOD PROTECTION

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
begin by thanking Secretary Darcy, also General Bostick, and I 
see that you brought Colonel Price with you as well. Thank you 
for your help and your commitment to move forward with 
permanent flood protection both in the Minot region as well as 
in the Fargo/Moorhead region in the Red River Valley. It is 
much appreciated and very important for both regions, so I 
would like to thank all of you. I would also like to thank the 
chairman of this committee. I appreciate it very much.
    My first question would be to Secretary Darcy and also to 
General Bostick. And that is in terms of moving forward with 
the Red River permanent flood protection, if you would please 
describe for me how you anticipate approaching the Minnesota 
DNR process.
    Ms. Darcy. In the 2016 work plan when we funded this 
project for $5 million, there was a provision that said that in 
order to work through the current issues with the DNR, that we 
would need to have all of those issues addressed before May of 
this year when the Environmental Impact Statement is due. And 
then I would need to make a determination as to whether those 
conditions were met by July of this year in order for us to be 
able to execute a Project Partnership Agreement by August 30th 
of this year.
    Senator Hoeven. And I would ask both you, Secretary Darcy, 
and General Bostick to address, your thoughts on the DNR 
process, but then also how you are going about addressing 
upstream concerns as well in regard to the project.
    General Bostick. I do not have anything else to add beyond 
what Secretary Darcy talked about on the DNR.
    Senator Hoeven. Okay. And then both of you, just your 
thoughts on, again, working to bring everybody together and 
advancing the project, but also working with upstream 
interests.
    Ms. Darcy. Because this is a two-State project, we always 
have to consider the upstream impacts as well as the 
downstream. In this particular situation, given the alternative 
financing arrangements, we need to be able to work with the 
upstream interests in order to be able to go forward with both 
the upstream portion as well as the downstream portion because 
the downstream portion is the Federal part of the project, and 
the upper portion is what the local sponsor as well as their 
private partners are going to be able to finance.

                         ALTERNATIVE FINANCING

    Senator Hoeven. And if you would, either or both of you 
talk for just a minute about the unique public/private 
financing model, and what you hope to accomplish here, and how 
you see that can provide benefits not only here, but to the 
Corps in general going forward.
    General Bostick. When you look at some of the work that we 
are doing now, just the work that we are currently putting 
money in our overall program, it would cost about $19.7 billion 
of additional funds to finish that work currently in 
construction. And we receive about a billion dollars in 
construction each year so, on average, it is going to take 
about $20 billion or 20 years to finish the work that we are 
currently doing at this rate.
    I think it is very important that we look at alternative 
means of financing where we bring in the private sector, the 
public sector, to see if we can accelerate these projects 
because when you take that long to complete these projects, the 
benefits are not accruing obviously, and the BCRs come down, 
and the people are just unsatisfied. So I think alternative 
financing is something that we must do. This is a first effort 
to move out on them.
    Senator Hoeven. Madam Secretary, did you have anything you 
wanted to add?
    Ms. Darcy. I would concur with General Bostick's comments, 
and the fact that this is one of the first times the Army Corps 
of Engineers has approached a project in this way, it shows 
that we are open to looking at alternative ways of financing 
these projects with limited funding. In this instance because 
there are upstream concerns as well as downstream, we are going 
to take a really close look at all of this. I am going to have 
someone from my staff work with the upstream States in the next 
month to try to make sure that we can get this all agreed to in 
the timeframe that we have.
    Senator Hoeven. Thank you. And also, I want to, I guess, 
again emphasize the creativity that you are showing in both of 
these projects, not only the public/private partnership, but 
also in Minot you are--by providing for a study, you are 
allowing the State and locals to go forward and build flood 
protection while we are working on a--on the Federal portion of 
the project.
    That is the kind of creativity that is not only going to 
save billions of dollars across the country for the Corps and 
for the Federal Government, but it is going to get these 
projects done sooner. So that creativity in the case of the 
Minot region is enabling them to start building using State and 
local funds. And so, I think, you know, just incredibly 
important that you are providing this flexibility, and, again, 
I want to thank you for that.
    And, Mr. Chairman, I do have some more questions. I will 
certainly defer until the next round, but I just wanted you to 
be aware.
    Senator Alexander. Thanks, Senator Hoeven. Just to--we will 
have a second round of questions. Just a comment on that. This 
has been an interesting discussion with me. The leadership of 
the committee has worked with Senator Hoeven and with the Corps 
of Engineers on a new approach toward dealing with this backlog 
of important projects. And it will be interesting to see if 
this significant State and local contribution, when matched 
with the Federal flexibility and Federal dollars, provides a 
way in the future to take that $20 billion figure and move more 
rapidly in it.
    So I appreciate the flexibility that you have shown in your 
leadership of the Corps to work with this committee and with 
Senator Hoeven on that issue. I think taxpayers would be 
pleased with us for seeing how this works, and particularly 
taking a project where there has been such a significant State 
and local investment. It is easy for me to say because North 
Dakota is a long way from Tennessee.
    Let me ask two or three questions here, and then I will go 
to Senator Feinstein, and then we will see if other Senators 
have other questions.

                     HARBOR MAINTENANCE TRUST FUND

    Let me talk about the Harbor Maintenance Trust Fund. This 
is something that--well, a few years ago several of us, 
including Senator Feinstein, reared back and asked our staff 
what would a great country like the United States--what kind of 
harbors do we need, particularly in light of the widening of 
the Panama Canal. We came up with a figure, and Congress passed 
a bill, set a target, and we have met that target for a couple 
of years.
    Now, we are talking about ports like Los Angeles, Long 
Beach, Oakland, Mobile, Savannah, Charleston, Memphis, 
Louisiana, Cleveland Harbor. These are important parts of our 
commerce in this country, and for two straight years this 
committee has been able to meet our goals in terms of deepening 
these harbors so the ships can do their work there and not do 
it in ports in other places in the world.
    Now, we also collect money from the private sector when 
they come into the harbors. So my question, Secretary Darcy, is 
how much money do you expect to collect in fiscal year 2017 in 
the Harbor Maintenance Trust Fund?
    Ms. Darcy. Senator, I believe that the Treasury has made an 
estimate that in 2017 we would be collecting $1.6 billion. I 
think it is down from what Treasury projected in 2016. I think 
it is $1.6 billion.
    Senator Alexander. Okay. How much----
    Ms. Darcy. In collections in 2017.
    Senator Alexander. In collections in 2017 to the Harbor 
Maintenance Trust Fund is the Treasury estimate. How much does 
the budget propose that we spend of that $1.6 or $1.7 billion?
    Ms. Darcy. The President's budget request for the Harbor 
Maintenance Trust Fund is $951 million for fiscal year 2017.
    Senator Alexander. So we are collecting taxes for a 
dedicated purpose at about $1.6 or $1.7 billion to deepen ports 
to improve commerce, but we are just going to keep the money 
and not spend it even though we take it. And as a result of 
those kinds of practices, the Harbor Maintenance Trust Fund 
today has over $9 billion in it, money that was collected from 
ports, from people doing business in the port with the 
expectation that it would be spent to keep the ports in good 
shape and we are just stacking it up in the Federal bank.

                       INLAND WATERWAY TRUST FUND

    We talked a little earlier about the Inland Waterway Trust 
Fund. We do not want that to happen there. We do not have much 
money in the Inland Waterway Trust Fund that is unspent. Am I 
correct about that?
    Ms. Darcy. Currently, I think the unspent balance in the 
Inland Waterway Trust Fund is $106 million for 2017.
    Senator Alexander. The unspent, but we could spend that 
for--I mean, that is yet to be determined how much of that we 
are going to spend, correct?
    Ms. Darcy. Yes, because that would have to be matched with 
other revenues from the budget.
    Senator Alexander. But if we matched it in 2017 as we did 
in the current year, then there would be almost no unspent 
money in the Inland Waterway Trust Fund. Am I correct about 
that?
    Ms. Darcy. If there was a 50 percent match coming from 
General Treasury and coming from the Corps budget to match, 
that is possible.
    Senator Alexander. But on the Harbor Maintenance Trust 
Fund, we already got $9 billion that should have been spent on 
our harbors, yet the President's budget only asks for $986 
million, about $194 million short of the target that Congress 
set for this year. So we are going to continue to build up the 
unspent money in the trust fund. I am very concerned about 
that.

                         NATIONAL FISH HATCHERY

    Let me ask you a different--completely different question. 
TVA, the Bureau of Reclamation, the Corps of Engineers all 
mitigate the loss of fish caused by the dams that they operate. 
This is a general subject that Secretary Darcy and I have 
discussed before, but not a specific one. The Corps of 
Engineers purchases fish from the National Fish Hatchery at 
Dale Hollow and Irwin to restock fish in the Cumberland River 
where there are dams and excellent fishing, by the way. TVA is 
mitigating that loss of dam--loss of fish due to the dams. It 
operates on the Tennessee River.
    So you are already doing what I think you should be doing. 
But my question is, does your budget request sufficiently 
reimburse the Fish and Wildlife Service to ensure our Nation's 
mitigation fish hatcheries can continue to meet the mitigation 
needs?
    Ms. Darcy. Yes, it does, Senator.
    Senator Alexander. Thank you, Secretary Darcy, and I 
greatly appreciate your personal attention to that.
    I am about out of time, so why do I not go to Senator 
Feinstein, and then I see Senator Hoeven, I think, also has 
questions.

                         BOAT TURBIDITY STUDIES

    Senator Feinstein. Thanks very much, Mr. Chairman. Mr. 
Chairman, you and I and certain members in the House of 
Representatives were able to get $100 million in the omnibus 
for drought. That money is still there. The President did not 
ask for the money to be continued in 2017; however, it is there 
for the remainder of the year. And I am wondering, Commissioner 
Lopez, would it be possible to use some of that money to begin 
to do boat turbidity studies in the turbid waters both 12 miles 
and 17 miles from the pumps to determine with some accuracy the 
degree of smelt that are present?
    Mr. Lopez. Senator, I think that we have created a spending 
plan for that money, and we have tried to build in maximum 
flexibility to use that in the way that is going to be deemed 
the most useful. So I think that we can. I think my answer to 
your question is that we can expend some of that money for 
those purposes.
    I have recently seen some correspondence in preparing for 
this hearing that calls into question the utility of that sort 
of thing simply because there are so few smelt that are out 
there. But I can certainly look into that, and I think we do 
have a mechanism by which we could use some of that money for 
that purpose.
    Senator Feinstein. Well, I thank you very much for that. 
Now, we know the smelt gravitate toward turbid waters.
    Mr. Lopez. That is right.
    Senator Feinstein. And so, it seems to me that the 
monitoring should be in the turbid places, and the turbid 
places where decisions are made about operations of the pumps. 
We are in a drought emergency proclaimed by the governor. It 
seems to me that this is an appropriate use of that money, and 
I would like very much to work with you to see that the 
appropriate monitoring gets set up as quickly as possible 
because time is a-wasting. If we have El Nino, it is going to 
be in the next couple of months or this month and maybe through 
March, so this means moving with it. So I am going to get out 
my needle and start poking at you, and I thank you for that 
answer.

                      SHASTA DAM AND LOS VAQUEROS

    I would also like to ask this question, and I go to pages 
407 and 408 of the omnibus. 407 stated that ``The commissioner 
of Reclamation shall complete the feasibility studies,'' and in 
this section on 407 it refers to Shasta Dam. That was completed 
in December of 2015. The next section on 408 refers to sites in 
Los Vaqueros by November 30th, 2016. Will you complete those 
studies?
    Mr. Lopez. Senator, for both Sites and Los Vaqueros, we 
need to work with non-Federal partners to fund even the study 
portions of these. And to date, we do not have those agreements 
in place, further----
    Senator Feinstein. Commissioner, it is has been 9 years. We 
are in our 10th year.
    Mr. Lopez [continuing]. The proponents, the Sites JPA and 
Contra Costa, have both recently--as recent as last week, come 
to us and asked that we actually slow the process down a little 
bit to be more in line with the State's process of the funding 
proposals that will be taken in November of 2017. They want to 
assure that the study we do comports not only with our 
requirements, but whatever requirements the State is going to 
have. And so, we are working with them to try and position----
    Senator Feinstein. Well, let me say something. This is a 
law. It is not ``may complete.'' It is ``shall complete.'' So 
if you would relay to the Sites JPA my concern that this has 
taken too long, and you are now mandated by law to complete 
these studies. Sir, I suggest you do it.

                           SAN LUIS EXPANSION

    There is a third one, and that is the feasibility study 
that has to do with the San Luis expansion, ``shall be 
completed not later than December 31, 2017.'' This is not up to 
the Sites JPA to make these decisions. You have the law.
    Mr. Lopez. Senator, going back to sites, we do have that 
mandate. You are absolutely correct. We recognize that. What we 
do not have is we do not have the funds to do the work that 
is----
    Senator Feinstein. Then I suggest you use some of the 
drought $100 million to get it done.
    Mr. Lopez. We will look into it, Senator.
    Senator Feinstein. But really, sir, you have got one 
California Senator that is going to ride this. We worked hard 
to get these things in that omnibus, and they are there now. 
And it is not ``may,'' it is ``shall.'' And I think--I have met 
with the committee. I think they are doing very good work, but 
they are not the law, and this is the law. So you can quote me, 
and if they have a problem, they can come see me, okay?
    Mr. Lopez. Senator, I will convey that to them.

                        SEISMIC SAFETY PROJECTS

    Senator Feinstein. Thank you. Secretary Darcy, there are 
four critical seismic safety projects, California VA projects: 
L.A., San Francisco, Long Beach, and San Diego. And they will 
be part of this new construction partnership between the Army 
Corps and the VA. And I would like to ensure that they proceed 
as quickly as possible because the seismic risk in California 
is not going down. It is going up. So when do you expect to 
execute the joint agreement with the VA regarding the new 
collaboration?
    Ms. Darcy. I do not know. I am going to ask General Bostick 
if he might know. He has been working more closely with the VA 
on these issues than I.
    General Bostick. I have worked with Secretary McDonald very 
closely in discussions on how some of these projects would 
transfer. The first one obviously was the Aurora Hospital in 
Colorado, and we are complete with that transfer, and we are 
starting to work on it. We are taking each of these one at a 
time and assessing them on a case-by-case basis, but moving out 
as rapidly as we can. Much of----
    Senator Feinstein. Could you give me some times, please? I 
do not want to ask your successor 10 years from now, if I am 
still alive, what happened.
    General Bostick. The overall understanding is already 
completed. If it is over $100 million, as in the cases of the 
California hospitals, there is already agreement that the Corps 
will take those on. The next step is to determine if the 
designs are appropriate for us to move out and award a 
contract. That work is ongoing.
    Senator Feinstein. Okay. Well, that is good news. Do you 
have a specific timeline for when seismic safety projects can 
proceed?
    General Bostick. I do not have a timeline, but I will 
respond----
    Senator Feinstein. May I ask that perhaps before you leave 
you could get a timeline? You set the course for your 
successor?
    General Bostick. I will do that.
    Senator Feinstein. This is important, so thank you. And is 
there any--do you have any thoughts on how this collaboration, 
and maybe it does not affect these projects. But will they 
introduce of themselves time delays?
    General Bostick. I cannot speak to the group of them in 
total, but if the project has not started, and some of these 
are brand new projects if they have a design, then we can just 
take that design if the design is adequate, then we can move 
out and award a contract. In the case of Aurora, for example, 
that took us a lot longer, a number of months in order to 
transition that one. So I would say it is a case-by-case 
situation, but I think it could be a clean transfer depending 
on the design.
    Senator Feinstein. So my job would be to see if the VA 
facilities in L.A., San Francisco, Long Beach, and San Diego 
have a design. Is that correct?
    General Bostick. We can work on that, Senator.
    Senator Feinstein. Okay. Well, we will check.
    General Bostick. We will follow up with you on that.
    Senator Feinstein. And I would appreciate it if you could 
let me know.
    General Bostick. We will.
    Senator Feinstein. The question is do they have a design, 
and I thank you, General, very much.
    Thanks, Mr. Chairman.
    Senator Alexander. Thanks you. Thank you, Senator 
Feinstein.
    Senator Hoeven, whatever time--take time to ask whatever 
questions you may have.

                              LAKE TSCHIDA

    Senator Hoeven. Thank you, Mr. Chairman. Commissioner 
Lopez, we have discussed Lake Tschida, Heart Butte Dam a number 
of times. You have been out, and I appreciate you coming out. I 
am drafting legislation to try to address this issue. We 
continue to work on trying to find a solution.
    Specifically, my legislation would direct the Bureau to 
allow permittees in the trailer areas around Lake Tschida to 
keep their existing trailers on the lots as long as they comply 
with anchoring requirements set forth by the Bureau. These 
permittees have made investments and improvements to the lots 
and trailers over the years, all with the consent of the 
Bureau. I think this would be a good compromise to ensure dam 
safety while also allowing trailer owners to get full use out 
of the investments that they made honestly with the approval of 
the Bureau.
    So my question is, would you be willing to work with me to 
find agreement on legislative language that would satisfy the 
Bureau's concerns while giving fair treatment to the trailer 
owners around the lake?
    Mr. Lopez. Senator, I would certainly be willing to work 
with you on trying to develop legislation that would meet both 
those needs. You know my concerns about the trailers being 
within the flood pool and the concerns that that creates for 
us. If there is legislation to be worked on, we would work with 
you on it.

                          MARKET RENT SURVEYS

    Senator Hoeven. Thank you. I appreciate that. The other 
question I have is in regard to some of the recent market rent 
surveys that have been done by the BOR. As a result of those 
surveys, rents will double at Heart Butte Dam, Lake Tschida, 
but they triple at the Jamestown Reservoir and the Dickinson 
Reservoir. And my understanding is that any rents received go 
into maintenance and management of the reservoir.
    And so, my first question is, is the Federal Government 
making a profit on this, or is all that money being put back 
into management and maintenance at those reservoirs?
    Mr. Lopez. Senator, I do not believe we are making any 
profit on anything, and the money that we collect is used in 
the O&M of those reservoirs.
    Senator Hoeven. Well, and essentially where I am going with 
this is, you know, those are very significant increases. We are 
hearing from the people that live around those reservoirs and 
have homes around those reservoirs. And there is a real concern 
that the rents are being raised well above what is going into 
management and maintenance at the reservoir, and well in excess 
of what those management and maintenance needs or expenses are.
    And that is a real concern because I think those rents are 
supposed to be limited to the management and maintenance need 
costs of those specific reservoirs. And so, I would ask that 
you work with us to look at those and make sure that the 
increases are not unreasonable, and that the money is not being 
used for some other purpose.
    Mr. Lopez. Senator, I commit that we will look into that 
question, and assure that we are not collecting any more than 
we can use for those purposes.
    Senator Hoeven. Thank you, Commissioner. I appreciate it. 
Thank you, Mr. Chairman. Those are all the questions I had. I 
appreciate it.
    Senator Alexander. Thanks, Senator Hoeven. I have got a 
couple of questions.

                            INLAND WATERWAYS

    Secretary Darcy, back to inland waterways. When we took the 
big step forward on inland waterways, Congress, among other 
things, got an agreement about what the priorities are for the 
inland waterways. The users agreed to that as well, and that 
helped us have some priority. That was the 2010 Capital 
Development Plan. Last year--the Congress then asked--told you 
to do a 20-year plan, but in our appropriations bill last year 
we said you should use the 2010 Capital User Development Plan 
priorities until we have a chance to review the new plans.
    So my question is, will the Corps' new plan keep the list 
of priorities in the 2010 Capital Development Plan that has 
been endorsed by the inland waterway users?
    Ms. Darcy. Senator, we will be having the new capital 
investment strategy delivered to you all before the month is 
out, so we will be able to discuss the specifics of that while 
you are putting together the bill for this year. I have not 
reviewed the final study to be quite honest with you, so I 
cannot answer whether they are the same priorities or not. But 
as I say, we will be getting that to you before the month is 
out, so.
    Senator Alexander. Well, you know the priority I am 
interested in.
    Ms. Darcy. Let me guess.

                        REHABILITATION PROJECTS

    Senator Alexander. Yeah. And along that line, as you make 
your review, let me ask you to comment on something that really 
affects all of your projects, and that is the economic analysis 
that you use to justify a project, which I would assume you are 
going through now as you make up--as you finish this new plan. 
Funding the projects is largely based on their so-called 
benefit-to-cost ratio. The higher the ratio, the better the 
chance the project gets funded, the higher up the priority 
list.
    I am concerned that the economic analysis for a project may 
not accurately take into account the true benefits. For 
example, your economic analysis may--let us take the 
Chickamauga Lock, for example. In 2004, 2.7 million tons of 
cargo were moving through the lock every year. That was 12 
years ago. Today it is closer to one million tons.
    Now, one big reason it has gone from 2.7 to one million 
tons is because the lock is in bad shape and needs to be 
replaced. And so, if you based your benefit-to-cost ratio upon 
the current lock cargo, it would not be realistic because when 
you fix the lock, one would assume that you would be back up to 
some number. I do not know what number. Maybe it would be 2.7, 
or maybe it would be more, maybe it would be a little less.
    But do you not think that has become outdated or 
inappropriate to base your benefit-to-cost ratio on the way 
things are today in a lock that has for 12 years been in such 
bad shape that a lot of cargo simply could not go through it?
    Ms. Darcy. I do agree, Senator, because in our equations 
that we developed for rehabilitation projects, I do not think 
that we take into account the historic significance of these 
projects. And I think that we are losing those benefits in 
making a future calculation.
    As you know, rehabilitation projects do not compete well in 
the budget because they have a lower benefit-to-cost ratio 
because of that. I think we need to look at how we do the 
evaluations for the benefit-to-cost ratio and rehabilitation 
projects in a different way, and account for not only historic 
patterns--historic benefits that they have brought, but without 
that lock, what would have been lost if we did not have that 
lock. That calculation, and all of the benefits that it has 
brought not only up until one point in time, but historically, 
I think needs to be calculated for a rehabilitation project.

                    COMPLETING CONSTRUCTION PROJECTS

    Senator Alexander. Well, that is important testimony coming 
from someone with your experience both in Congress and in your 
current position. And finally, there also ought to be something 
to consider--I mean, should we not complete projects we have 
already started to build? For example, in Kentucky Lock we have 
already spent $471 million, and on the Chickamauga Lock, we 
have already spent $216 million. And as we have discussed, over 
the last 2 years working with Congress, you restarted 
construction.
    But should we not take into account the fact that we 
complete projects that we have already started to build?
    Ms. Darcy. I think we should take that into consideration, 
and I think finishing what you have started is a laudable goal. 
It is just not always one that we are able to achieve in the 
current fiscal situation.
    Senator Alexander. There were several rules of life I 
learned from my parents, and one that I learned from my father 
was finish what you start, which turns out to be a pretty good 
rule of life, and might even be good for the Corps of 
Engineers.
    I do not have any more questions. I will ask Senator 
Feinstein if she does, and then after that, her comments, we 
will conclude the hearing.

       RESPONDING TO THE SUBCOMMITTEE'S QUESTIONS FOR THE RECORD

    Senator Feinstein. I have one, and I think it will surprise 
you. Madam Secretary, this committee held the Army Corps fiscal 
year 2016 budget hearing last year on February 11, after which 
members of this subcommittee submitted about 50 questions for 
the record. Believe it or not, we just received the responses 
to those questions yesterday evening, so it took a full year 
after the hearing to get the answers back to us.
    I do not think you find that acceptable, and I do not find 
it acceptable. So can you help me understand why it took the 
Corps over a year to provide the responses to questions from 
this subcommittee?
    Ms. Darcy. Senator, it is an unacceptable time, and for 
that I apologize. There is a lengthy review process within the 
Administration that takes place in order to respond to 
questions, and it is too long. And I will try to come through 
with a commitment to make it a shorter time because I will not 
be here a year from now, so I want to be able to get you the 
answers to your questions in a more timely manner this year.
    Senator Feinstein. Well, let me ask you, what do you think 
is a reasonable response time, because we are going to submit 
some questions from this hearing. And, candidly, I would like 
them back in a couple of weeks because there are issues that 
are pressing.
    Ms. Darcy. They are answers to questions that you need the 
answers to in order to formulate your bill.
    Senator Feinstein. That is right.
    Ms. Darcy. And, you know, that happens this summer and this 
fall. I think 3 months is more than enough time for us to be 
able to respond to your questions.
    Senator Feinstein. So are you saying you put a response 
time of 3 months, and that we would have our questions answered 
in 3 months?
    Ms. Darcy. That is my goal.
    Senator Feinstein. What do you think?
    Senator Alexander. Well, if you had not asked that, I was 
going to. So here is what I think. My guess is that part of the 
fault lies with the Office of Management and Budget. I do not 
expect you to comment on that. But I think here is what we 
ought to do. I think----
    Senator Feinstein. Well, can I? Are you saying the Office 
of Management and Budget reviews the answers to questions?
    Senator Alexander. My guess is they do, right?
    Ms. Darcy. That is correct.
    Senator Feinstein. They do?
    Ms. Darcy. Yes, ma'am.
    Senator Alexander. Yeah, that is the way they work.
    Senator Feinstein. Ask her if she could tell us why.
    Ms. Darcy. Okay.
    Senator Alexander. Why?
    Ms. Darcy. Any of the responses that come to Congress from 
agencies are reviewed by the Office of Management and Budget.
    Senator Feinstein. Oh, my god.
    Senator Alexander. Well, I would say to Senator Feinstein, 
and, you know, I would guess that the idea of underfunding the 
inland waterways and the Harbor Maintenance Account did not 
come from the Army Corps of Engineers, but probably came from 
the budget process. And so, here is what I think we should do.
    Three months, Senator McConnell, and he has talked to 
Senator Reid about this. We hope to move rapidly on the 
appropriations process this year. We hope to keep big 
controversial riders off the committee bill.
    Senator Feinstein. Good.
    Senator Alexander. And they can debate them on the floor if 
they want to do that, and hopefully Senator Feinstein and I 
could do that. So we are moving pretty fast. This is our second 
hearing. We have got two more, and we would like to be finished 
by when, Tyler?
    [Off audio.]
    No, with the bill.
    Well, he said early May. I am thinking maybe mid-April 
would be--would be better. So 3 months, that is just 6 weeks 
away. So I would suggest Senator Feinstein and I write a letter 
both to the Corps of Engineers and to the Office of Management 
and Budget and say we find this unacceptable. You have said you 
are going to do your best to get answers in at least by 3 
months, that we are moving on a fast pace on appropriations. 
And there may be some questions that we would like to have an 
answer to more rapidly than that.
    You have got a background of work on the Hill, and we can 
talk with you about that in an informal way. But it is very 
important to us to know your thinking before we write the bill.
    Senator Feinstein. Yes, that is right.
    Senator Alexander. So we will formally write the letter 
would be my suggestion if you would agree.
    Senator Feinstein. That is fine with me.
    Senator Alexander. And then we will ask staff to work with 
you informally on the questions that we think are the most 
important to us as we draft the bill. We would like to be among 
the first in line when we present a bill to Senator McConnell 
and Senator Reid to put on the floor, and I am hoping it is 
mid-April or not long after that when we are finished with the 
bill.
    Senator Feinstein. And I hope that we can keep our 
questions relatively limited to the need for this particular 
session and our budget--our appropriations bill.
    Senator Alexander. Yeah, so we will work with you. I mean, 
Senator Feinstein and I will work with you, and if you say, 
look, I have got 100 questions here, are there 20 that are more 
important, we will help you--we will help prioritize that. And 
that will be easier for you to give us responses to that. And 
there may be some cases where you could simply give us an oral 
response.
    Senator Feinstein. That is right.
    Senator Alexander. Just answer a question, and we do not--
we will not have to go through a lengthy process. Senator 
Feinstein, do you have other questions or comments?
    Senator Feinstein. No, I am fine. Thank you very much, Mr. 
Chairman.
    Senator Alexander. Well, I want to thank all the witnesses 
for being here today. I am sorry about the voting interrupting, 
but I think we Senators had a chance to ask their questions and 
to make their testimony. We, again, thank Secretary Darcy and 
General Bostick for working with us, especially since this may 
be their last hearing before the subcommittee.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time if they would like. We would like to have all 
responses to questions to be provided within 30 days of 
receipt. You said 3 months. For the priority questions or most 
questions, we would like to ask for 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Jo-Ellen Darcy
            Questions Submitted by Senator Richard C. Shelby
    Question. Currently, the General Reevaluation Report (GRR) and 
accompanying Supplemental Environmental Impact Statement (SEIS) for the 
Port of Mobile is ongoing. Together, they are expected to take 
approximately 4 years to complete, which is around 2019 or 2020. 
Secretary Darcy, can you give me an update on the status of this 
undertaking and what, if anything, can be done to expedite this 
process?
    Answer. Preparation of the Supplemental Environmental Impact 
Statement, will require consultation with various resource agencies to 
satisfy the National Environmental Protection Act requirements. 
Coordination with a wide variety of Federal, State, and local agencies 
(U.S. Fish and Wildlife Service (USFWS), National Marine Fisheries 
Service, the Environmental Protection Agency, Alabama Department of 
Environmental Management, Alabama Department of Conservation and 
Natural Resources, the State Historic Preservation Office, etc.) is 
currently on-going. Coordination is also ongoing with State and Federal 
Environmental Agencies to include discussion of the modeling needs of 
the project and begin the process of identifying realistic beneficial 
use opportunities for the dredged material from this project. Sediment 
removed in association with the potential deepening and widening of up 
to 37 miles of channel could generate up to 63 million cubic yards of 
material. Currently, the U.S. Army Engineer Research Development Center 
is collecting data to establish the existing and baseline environmental 
conditions of the project area. The Corps has met with the USFWS and 
work has begun on the Fish and Wildlife Coordination Act Report. 
Additionally, the documentation of the existing conditions for the 
benefit-cost analysis is complete. This task included gathering 
economic and demographic data, close review of Mobile Harbor's 
operational practices and trends, and gathering historical commodity 
flows and fleet data. Coordination is ongoing with the Corps' Institute 
of Water Resources and the Port to determine the commodity forecast for 
the Port, which is a critical step in the benefit analysis.
    The proposed study duration was initially 56 months, but has been 
expedited to allow the study to be completed in 48 months. Currently, 
no additional measures have been identified that would allow the study 
schedule to be further accelerated.
    Question. Assistant Secretary Darcy, an issue of importance to the 
State of Alabama is the ongoing water dispute involving Georgia, 
Florida, Alabama, and the Army Corps of Engineers. This Committee, 
included language in the last year's appropriations bill specific to 
this issue. In addition, the 2013 WRDA Conference Report contained 
language in Section 1051 that encouraged the governors of Alabama, 
Florida, and Georgia to reach a compromise to once and for all resolve 
this matter stating that ``[a]bsent such action, the Committees of 
jurisdiction should consider appropriate legislation to address these 
matters including any necessary clarifications to the Water Supply Act 
of 1958 or other law.'' Unfortunately, a resolution to this decades 
long dispute does not seem any closer than when it began. On May 4, 
2015, the Corps signed a Record of Decision regarding a Water Control 
Manual (WCM) update that applies to the ACT River Basin. Both States of 
Alabama and Georgia have filed lawsuits relating to the ACT WCM, with 
no resolution in sight.
    Subsequently, on October 2, 2015, the Corps released a Draft 
Environmental Impact Statement (DEIS) pertaining to the WCM for the ACF 
River Basin. In comments recently submitted regarding the ACF DEIS, 
Alabama, Florida, and even the Environmental Protection Agency noted 
multiple concerns that the current proposal is contrary to legal 
rationale, public policy, and prioritizes one State's water needs over 
others. Assistant Secretary Darcy, can you respond directly to and 
elaborate on the concerns surrounding both the ACT WCM and the proposed 
ACF WCM? In addition, given its troubled history of decisionmaking in 
both the ACT and ACF basins, wouldn't it be best to leave such 
decisions to the affected States to work out their difference regarding 
these basins without unproductive Corps interference, including Federal 
legislation enabling such, if necessary?
    Answer. The purpose of Water Control Manuals is to determine how 
Federal projects should be operated for their authorized purposes, in 
light of current conditions and applicable law. The Corps commenced its 
most recent efforts to update the master water control manuals for the 
systems of Federal improvements in the Alabama, Coosa, and Tallapoosa 
(ACT) and Apalachicola, Chattahoochee, and Flint (ACF) River Basins in 
October 2007 and January 2008, respectively. The purpose of the updates 
is to reflect changes in water usage and best practices about water 
resource management.
    The water control manual updates will not determine how the waters 
of either basin will be allocated among the States. However, the 
Department of the Army has continuously expressed to the Governors of 
Alabama, Florida, and Georgia the Army's willingness, within the limits 
of its authority, to adjust the operation of the Corps projects in the 
ACT and ACF systems to accommodate any allocation of waters within 
those basins upon which the three States agree, and to provide 
technical assistance if requested by the States in reaching an 
agreement.
    The Corps is currently in the process of reviewing public comments 
submitted on the draft EIS and water control manuals for the ACF basin. 
The Corps is considering all comments, and is committed to working with 
State and Federal agencies and stakeholders to address concerns. A 
final EIS and approval of the updated ACF master manual are anticipated 
by March 2017.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                 veterans affairs construction projects
    Question. Secretary Darcy, the 2016 Defense Authorization Act 
directed the Department of Veterans Affairs to work with the Army Corps 
to make the VA construction process more efficient, and Congress 
provided an additional $100 million to compensate the Corps for this 
new mandate.
    There are four critical seismic safety projects at California VA 
facilities (Los Angeles, San Francisco, Long Beach, and San Diego) that 
will be part of this new construction partnership between the Army 
Corps and the VA, and I want to ensure that they proceed as quickly as 
possible, given the seismic risk in California.
    When do you expect to execute the joint agreement with the VA 
regarding the new collaboration?
    Answer. The Corps and the Department of Veterans Affairs (VA) have 
already entered into the initial Inter-Agency Agreements (IAA) for two 
of the four of the projects in question. The San Francisco IAA was 
signed on November 13, 2015 and the Long Beach IAA was signed on 
February 4, 2016. The agreements for the two remaining projects, West 
Los Angeles Buildings 205/208 and San Diego are expected to be signed 
in the coming months. As the projects proceed towards construction 
award this will require the agencies to modify these IAAs.
    The Corps will make every effort to process IAA modifications in a 
timely manner and ensure that these projects are completed efficiently. 
The Corps will remain vigilant to avoid unnecessary cost growth and 
incorporate sound engineering practices to protect public safety.
    Question. Do you have a specific timeline for when seismic safety 
projects in California can proceed?
    Answer. Based on an initial assessment of the projects, the Corps 
is forecasting a spring 2017 construction award for most portions of 
the Long Beach, San Francisco, San Diego, and West Los Angeles 
projects. San Diego and West Los Angeles projects were already 
completely designed under contract by the VA, and Long Beach and San 
Francisco are anticipated to have completed designs in June 2016 and 
November 2016, respectively. The construction award date in spring 2017 
is a forecast, because the Corps must also perform a Design and Cost 
Validation process in order to accept these projects. Once the Corps 
completes this process, and they are satisfied that the technical 
solution, design and construction approach, and cost is appropriate, 
they can work to solicit and award the projects. As the Corps continues 
with this assessment phase of the individual project designs, they will 
refine schedules accordingly with the intent of saving time, where 
possible, while still implementing sound engineering practices. The 
duration for construction completion for each project is still pending 
further evaluation and will be based on the required work for each of 
the facilities.
    Question. How will you ensure that the new collaboration does not 
introduce lengthy delays into the process?
    Answer. There have been many discussions between the VA and the 
Corps to reduce delays and gain efficiencies where practicable. On the 
other hand, the new collaboration may itself lead to some delay in 
execution. Introducing a new responsible design and construction agent 
requires that the agency assume many significant responsibilities; the 
Corps must ensure that the work already done meets public safety needs, 
application of sound engineering practices, and code requirements, and 
that in entering into this collaboration, it does so with a goal of 
achieving and managing cost and schedule expectations. Public safety, 
sound engineering, the maintenance of professional relationships, and 
the appropriate due diligence to cost and execution issues are 
paramount. The Corps assessment process evaluates the technical 
solution and design approach, estimated construction cost, and 
forecasted construction duration to ensure that expectations are met 
and public safety is assured.
    The Corps understands that many areas of California have seismic 
risks, and will work with the VA to mitigate risk and avoid unnecessary 
delays.
                   south san francisco bay shoreline
    Question. The San Francisco Bay region is extremely vulnerable to 
rising sea levels as a result of climate change. Nearly 200 square 
miles of the communities in the region sit in low-lying areas along the 
shoreline, including some that are more than 13 feet below sea level.
    The South San Francisco Bay Shoreline Study was originally 
authorized by Congress in 2002, but the Chief's Report was only just 
completed in December of 2015, more than a decade later.
    Secretary Darcy, as you well know, this project is very important 
to me. It will restore 2,900 acres of former salt ponds, create a new 
recreation area, and construct a four mile long levee to protect homes, 
high-tech businesses, and the new Silicon Valley water purification 
center. This work is very important to the local economy, safety, and 
quality of life for my constituents.
    I want to thank you for including $3 million in the fiscal year 
2016 work plan for pre- construction engineering and design work for 
Phase 1 of the project.
    What is the timeline for this step in the process, and when do you 
expect the project to be ready for construction?
    Answer. The next scheduled milestone is execution of a Design 
Agreement for Preconstruction, Engineering and Design (PED) with the 
non-Federal partners. The current schedule identifies completion of PED 
by September 2017.
    Question. How long do you estimate Phase 1 construction will take?
    Answer. The Corps estimates that it would take around 4 years to 
construct phase I of this project once physical construction begins, 
assuming the availability of funding at the maximum level that the 
Corps can efficiently and effectively use for this project.
    Question. Do you plan to prioritize funding the in fiscal year 2017 
work plan for studies for the next phase of this project?
    Answer. Should the Congress provide additional funding for which 
this study of the next proposed phase of this project would qualify, 
the study would be considered for funding in the 2017 Corps work plan 
along with other programs, projects, and activities across the Nation 
in competition for the available Federal resources.
           california drought and army corps ``big picture''
    Question. California's population has grown to 40 million people 
according to recent census data. However, the State's water 
infrastructure is largely unchanged from when it was built 50 years ago 
when California was home to only 16 million people.
    The drought in California is a powerful example of how important it 
is for our country to keep up with changing water infrastructure needs.
    I understand that the Army Corps has conducted a large-scale study 
to assess flood risks and ecosystem restoration opportunities in 
California's Central Valley and in the Delta.
    I also understand that there have been studies of individual 
watersheds in and around the Sacramento and San Joaquin River Basins.
    Given continuing population growth and more unpredictable weather 
as a result of climate change, it is more important than ever that the 
Federal Government looks at water infrastructure in a ``big picture'' 
way rather than on an individual study-by-study basis.
    Secretary Darcy, what steps has the Corps taken to look at water 
infrastructure in a holistic way and ensure that different individual 
projects are incorporated into a ``big picture'' understanding of 
future needs?
    Answer. California's water resources management challenges are 
complex. As the Corps carries out its missions of flood and storm 
damage reduction, commercial navigation, and aquatic ecosystem 
restoration in this State, we are mindful that tens of millions of 
people live and work there.
    In Northern California, an example of a Corps effort in support of 
watershed-level planning is the Sacramento and San Joaquin 
Comprehensive Basin Study (also known as the Central Valley Integrated 
Flood Management Study (CVIFMS)), which focuses on the Sacramento River 
Basin. CVIFMS is intended to be a Federal companion to the California 
Department of Water Resources' Central Valley Flood Protection Plan, 
which is the State's plan for long-term sustainable flood management in 
the Central Valley. The goals of CVIFMS are to:
  --Develop and share a consistent and mutually complementary system-
        wide strategy for flood risk reduction and environmental 
        stewardship with the State of California;
  --Provide a blueprint to connect water resources management actions 
        across the Sacramento, Yuba, American, and Feather River 
        watersheds.
    In evaluating water resources options in the Sacramento River 
Basin, the Corps is building on earlier studies, such as the American 
River Common Features and West Sacramento General Reevaluation Reports, 
and the Sutter Basin Feasibility Study, to update the system's multi-
purpose performance baseline. The Corps work on CVIFMS continues to 
inform other studies, such as the Sacramento River General Reevaluation 
Study which began in July 2015, and has enabled the Corps to 
strategically align many of its regional, interagency activities.
    In Southern California, the Corps is currently working with the 
Responses to Climate Change team and in particular with regard to 
impacts to Corps' projects due to extreme drought. A Drought 
Contingency Plan (DCP) Project Delivery Team (PDT) is working to assess 
the applicability of current available Drought Contingency Plans 
documents, as well as the need for updating these documents. The DCP 
PDT consists of Corps personnel nation-wide, with at least one 
representative from each Division. This endeavor to derive updated 
guidance for preparation of DCPs is still ongoing.
    Question. When evaluating projects, particularly in California, 
does the Corps consider how they impact the State's overall water 
supply infrastructure and needs?
    Answer. The Corps' role in water resources management is focused on 
its three main missions--flood and storm damage reduction, commercial 
navigation, and aquatic ecosystem restoration. The Bureau of 
Reclamation has responsibility for the Federal Government's involvement 
in water supply planning and operations in California.
    However, the Corps is cognizant of California's significant water 
supply challenges. While Corps studies and projects focus on its three 
main mission areas, the Corps works with the Bureau of Reclamation, the 
California Department of Water Resources, as well as other Federal, 
State, and local agencies, in order to ensure the Corps work in 
California complements their effort on water supply.
    An example of this coordination is the Joint Federal Project at 
Folsom Dam. This project is a cooperative effort between the Corps and 
the Bureau of Reclamation. Once completed, it will help to further 
reduce the flood risk in the Sacramento region; and at the same time, 
Reclamation (which is the owner and operator of the dam) will have more 
flexibility in maintaining water storage levels at the Dam.
    Also, at the request of the non-Federal sponsors, the Corps is 
currently working on two Feasibility Studies to conserve water for 
Whittier Narrows Dam and Prado Dam. The dams' original authorization 
are for flood control, however the Feasibility Studies will look at 
water conservation opportunities such as permanent changes to dam 
operations and the timing of water releases following storm events. 
Constraints for these studies include ongoing dam safety issues as well 
as the inherent flood risk in these areas with unpredictable flash 
flooding. The local sponsor for the Whittier Narrows Dam Water 
Conservation Feasibility Study is the Los Angeles County Department of 
Public Works. The Prado Basin Ecosystem Restoration and Water 
Conservation Study is a dual-purpose study that includes both aquatic 
ecosystem restoration and options for a change to the water control 
plan for water conservation year-round at a higher elevation at Prado 
Dam. The local sponsor for the Prado Basin study is the Orange County 
Water District.
    Question. Does the Corps have a system-wide strategy to address 
water and ecosystem problems in the Sacramento--San Joaquin River 
Delta?
    Answer. The Corps Central Valley Integrated Flood Management Study 
(CVIFMS) is exploring options for system-wide flood risk management and 
ecosystem restoration strategy in the Sacramento River Basin, the San 
Joaquin River Basin, and the Bay-Delta. As mentioned above, the first 
phase of CVIFMS focuses on the Sacramento River Basin, while the next 
phase would focus on the San Joaquin River Basin.
                  army corps projects and water supply
    Question. Secretary Darcy, I understand that the Corp's primary 
mission is flood protection. However, there are many instances in which 
flood protection projects also impact other important issues like water 
storage and ecosystem restoration.
    For example, seismic retrofits on a dam can also be used to raise 
the height of a dam and store more water. Better forecasting of 
impending storms can result in more scientific decisions on when to 
release water from a reservoir and when to hold it, potentially 
providing water supply benefits.
    Secretary Darcy, how does the potential for these ``win-win'' type 
of outcomes influence the Corps' internal policies and evaluation of 
projects?
    Answer. The Corps agrees that projects do not necessarily have to 
be constrained to benefit only one purpose. The Corps seeks to achieve 
multiple public benefits at individual projects to maximize returns on 
Federal, State, and local investments. The Corps has extensive 
experience managing reservoirs for multiple project purposes throughout 
the United States, but the consideration of multiple project purposes 
is a matter of making trade-offs. Currently, the Sacramento River 
General Reevaluation Report underway is investigating both flood risk 
reduction and ecosystem restoration opportunities in the lower 
Sacramento River Basin.
    With regard to reservoir operations, the Corps incorporates 
flexibility to consider other objectives like water supply storage when 
applicable. The Corps has always relied on weather forecasting as one 
of a wide range of factors to determine when reservoir releases should 
be made or held back to meet its public safety mission and other 
objectives. Improved forecasting has allowed the Corps to adapt and be 
more agile in responding to changing conditions.
    The Corps water control manuals are not static, and are 
continuously examined to determine if revisions are necessary based on 
engineering manuals and regulations. In addition, especially during 
times of significant drought, the Corps may allow for temporary 
deviations of water control manuals in order to increase water supply 
through conservation measures. As discussed below (Question #6), the 
Corps has almost completed the Folsom Water Control Manual Update 
project for the Folsom Dam; the update incorporates the use of 
forecasts in flood release operations. Lessons learned at Folsom, as 
well as at Lake Mendocino, could inform operations at other projects, 
and help the Corps and its partners achieve the multiple purposes that 
these reservoirs serve.
    The Corps will continue to consider and evaluate opportunities for 
multi-purpose water management strategies at both Corps-owned and 
operated dams and those ``Section 7'' dams where the Corps may not own 
or operate the facility but has purchased flood pool space and provides 
oversight in accordance with the Water Control Manual, in consultation 
with stakeholders, and in accordance with law and policy.
    Question. Are there any legislative barriers that hinder the Corps 
in assisting with drought mitigation, especially in light of the 
ongoing investments the Army Corps is making in California water 
infrastructure from a flood control and ecosystem restoration 
standpoint?
    Answer. No. There are no legislative barriers. The Corps is closely 
coordinating with other Federal, State, and local partners to determine 
how they can help support other agencies' objectives--such as water 
storage and supply --while operating within its defined main missions, 
which are flood and storm damage reduction, commercial navigation, and 
aquatic ecosystem restoration.
    For example, 15 Federal, State, and local agencies have agreed to 
coordinate with one another to identify and potentially implement 
compatible Federal and non-Federal actions in the Yolo Bypass to 
achieve multiple public benefits, including flood risk reduction, fish 
and wildlife habitat restoration, water quality and supply 
improvements, agricultural land preservation, recreation.
    Question. In general, what is the Corps doing to help with drought 
conditions in California?
    Answer. The Corps has collaborated and communicated with the State, 
resulting in conservation measures in some California reservoirs, 
which, in turn, has helped to mitigate the effects of the drought on 
urban, agricultural, and environmental sectors.
    Below are some of the Corps ongoing activities:

    Water Management.--The operations manuals for many Corps dams 
includes a specific subset of instructions for drought conditions that 
allow flexibility in making flood releases from the Corps ``flood 
control space'' while the drought continues. The Corps water management 
team is fully engaged with other State and Federal agencies regarding 
operations and conditions, and is responsible for responding to 
deviation requests from our local water partners at Corps-owned dams. 
Water releases are closely coordinated and managed with local water 
users, power generating partners, and the Corps water management team, 
including times when drought conditions dictate that water releases 
fall below required or recommended flows.
    Emergency Operations.--Under the Flood Control and Coastal 
Emergency Act (Public Law 84- 99, as amended), the Corps can provide 
emergency water assistance due to drought. The Corps has the authority 
to transport emergency water supplies of clean drinking water for human 
consumption to any locality designated as a drought distressed area. 
Affected localities also have the option of purchasing storage space 
where available at Corps reservoirs. Also, the Corps is authorized to 
construct wells in drought distressed areas if the option is not 
commercially available.
    Regulatory Division.--During drought conditions, local water 
interests may consider temporary and permanent measures to improve 
water extraction such as pumps, siphons, wells, and dredging. Most 
activities fall under the Corps Nationwide Permit Program or the 
District's general permit for emergency actions, pursuant to Section 10 
of the Rivers and Harbors Act and Section 404 of the Clean Water Act.
    In some emergency situations, procedures may be approved by the 
Corps to issue a permit more quickly following informal coordination 
with resource agencies. For example, the Corps expedited a permit that 
allowed the California Department of Water Resources to construct a 
large temporary drought barrier in June 2015 to hold back saltwater 
from the interior Delta, and thus protect its freshwater supply.
    Contracting.--PL 84-99 emergency response requests typically come 
with a contracting component--such as contracting for emergency 
services, supplies, construction, or system design. Contracting 
Division has the authority to streamline the contracting process where 
appropriate. Additionally, the Corps could modify existing contracts to 
change water use or conservation measures at our sites.
    Real Estate Division.--Where needed, the Real Estate Division is 
authorized to procure land or buildings that might be needed to store 
water for pumping or for staging water bottle distribution.
    The Corps currently has a deviation to the water control plan in 
effect for Whittier Narrows Dam for the purpose of water conservation. 
Last flood season the Corps had a short-term deviation in effect for 
Prado Dam and the Corps is considering a request for a 5-year deviation 
for Prado Dam. The deviations allow the Corps to impound additional 
water for water conservation purposes. In fiscal year 2016, Whittier 
Narrows Dam conserved 1,300 acre-feet of water from the deviation. 
Similarly, Prado Dam conserved 7,300 acre-feet.
                beneficial use of clean dredge material
    Question. I understand that more than 400 ports and 25,000 miles of 
navigation channels are dredged throughout the United States to keep 
ship traffic operating efficiently. The operations and maintenance of 
our ports falls under the jurisdiction of the Army Corps of Engineers.
    Aquatic ecosystem restoration is also a critical mission of the 
Army Corps. Coastal resilience projects, like wetland construction, 
often require additional clean sediment material. This is true in many 
places all along the California coastline.
    It seems to me that there is an opportunity here for a ``win-win'' 
scenario by using clean material dredged from ports for ecosystem 
restoration projects that have a need for additional dredged material.
    Secretary Darcy, does the Corps have a process for pairing up 
projects so that material dredged from one project can be used in a 
second project?
    Answer. Yes. There is coordination across Corps mission areas that 
can reduce overall costs. The beneficial use of dredged material is 
considered when and where practicable. The Corps also has a Regional 
Sediment Management Program to establish regional management strategies 
and link sediment management actions at authorized Corps projects. 
Management activities with other Federal agencies, State, and local 
governments are coordinated within the boundaries of physical systems, 
including inland watersheds, rivers, estuaries, and the coast.
    Question. Given the need for dredged material in ecosystem 
restoration projects, does the Army Corps currently view dredged 
material as a resource, rather than just as a waste product from 
waterways?
    Answer. Yes. The Corps considers dredged material as a resource and 
has been using dredged material beneficially for decades. There are 
numerous examples of the Corps using dredged material to nourish 
eroding shorelines and create offshore berms to reduce wave energy and 
provide a sand source for littoral drift. Dredged material has also 
been used to create wetlands, oyster reefs, submerged aquatic 
vegetation, bird islands, and other aquatic habitat, as well as to 
restore Brownfields, cap landfills, and enrich soil for agriculture. 
Dredged material has even been used as a construction product. Examples 
include restoration of the Middle Harbor Enhancement Area using dredged 
material from the Oakland Harbor project; construction of the Senator 
Paul S. Sarbanes Poplar Island Ecosystem Restoration project with 
dredged material from the Baltimore Harbor & Channels project; 
restoration of wetlands in the Mississippi River Delta using dredged 
material from the Mississippi River Baton Rouge to the Gulf project; 
and the use of sand from many coastal projects to re-nourish beaches 
and reduce erosion. While many of these beneficial use alternatives can 
be costly, some can be accomplished as the least cost alternative.
    Question. Are there any barriers to using dredge materials more 
productively other than cost?
    Answer. There are many factors that must be considered in deciding 
whether or not dredged material can be used beneficially, and where the 
material can be placed. These include, but are not limited to, the type 
of material (whether it is sandy, rocky, fine- grained, etc.), whether 
or not there is contamination in the dredged material, the needs of any 
biological resources that would be benefitted, time of year 
restrictions for the dredging and placement activities, and type and 
availability of equipment required to place the material. For instance, 
it is not good practice to use fine-grained or contaminated material to 
re-nourish beaches or create oyster bars.
                     updating dam operation manuals
    Question. The technical decisions made by reservoir operators 
regarding when to release water have become particularly important 
during the prolonged California drought. We want to make sure that we 
are not wasting even a single drop of water by releasing it when we 
don't have to.
    In California, I understand that many regions receive a large 
portion of their annual rainfall from intense, but geographically 
narrow storm events called Atmospheric Rivers.
    It seems to me that if we are better able to predict these storm 
events and the amount of precipitation they bring, we would be able to 
make more informed decisions about how we operate and manage our dams 
and reservoirs.
    I believe this is another instance of bureaucratic inertia rather 
than prioritization of the latest science. We must ensure that the 
Federal Government is actually using the latest science to make 
informed water decisions.
    Secretary Darcy, how is the Corps incorporating the latest science 
regarding Atmospheric Rivers into the way it operates dams?
    Answer. The Corps is closely following the latest science on 
Atmospheric Rivers. In operating Corps-owned dams, and in managing 
flood releases at Section 7 dams, the Corps has incorporated the latest 
science. Corps dams are designed for extreme weather events. Given the 
fact that the Corps dams are designed for the extreme events, the 
agency must also balance the needs for flood control and other 
authorized purposes, relying heavily on several tools to ensure that 
the water conservation efforts do not compromise the safety of the dam. 
Such tools include: (1) Weather forecasts from the National Weather 
Service and private weather contractors; (2) Flow forecasts from the 
River Forecast Center; and (3) Corps Water Management System (CWMS) 
numerical models that can predict the water level at the dams from 
forecasted precipitation.
    The Corps continues to evaluate its portfolio of dams with regard 
to risk and vulnerability to an array of potential scenarios that might 
impact the overall safety of the facilities. This could be attributed 
to a host of factors, including extreme design events and loading 
scenarios, as well as hydrologic and seismic events, and pertinent 
maintenance challenges associated with aging infrastructure. One of the 
contributing factors that is evaluated is the development of inflow 
frequency curves that explore the full range of loading conditions 
(including extreme events). This will help dam operators estimate how 
frequently the extreme events occur at each dam and how those loading 
events influence decisions with respect to Federal investment 
strategies to address infrastructure needs. Specifically, the Corps has 
almost completed the Folsom Water Control Manual Update project which 
is incorporating the use of forecasts in the flood release operations 
rule set for that Section 7 reservoir.
    The Corps is currently participating in a 5-year research study to 
investigate use of the latest science in forecasting of the Atmospheric 
Rivers. If promising, the results of the study could be incorporated 
into operation of reservoirs. The study is known as the Forecast-
Informed Reservoir Operations (FIRO) research in Lake Mendocino, and it 
is a pilot study that would use atmospheric river (advanced hydro-
meteorological) forecasting data to inform water management decisions 
in a manner which reflects current and forecasted conditions. The study 
was scoped in 2014, and began in 2015. The research is projected to be 
a 5-year effort, and the results may indicate whether this technology 
can be applied in actual operations of certain projects. The Corps is 
participating in this pilot project with a consortium led by Scripps 
Center for Western Weather and Water Extremes, along with the Sonoma 
County Water Agency, California Department of Water Resources and State 
Climate Office, Bureau of Reclamation, NOAA's National Weather Service, 
Earth Systems Research Laboratory, and Restoration Center, USGS, and 
the private sector.
    Question. How does the Corps prioritize which dam operations 
manuals need to be updated and when?
    Answer. Updates are prioritized based on several factors, such as 
significance of the changes to original design components, operations, 
hydrology, environmental changes and/or a need to evaluate proposed 
changes to existing water control plans, vulnerability of the 
populations downstream of the dam, and interest from downstream 
partners. Prioritization of water control manual updates must also be 
made alongside other competing demands within the Corps budget.
    Question. What is the Army Corps' basis for refusing to accept non-
Federal contributions to pay for upgrades to these flood control 
manuals?
    Answer. The Corps can--and does--accept funding to update manuals 
for Corps- operated and maintained dams. Paragraph (5)(B) of Section 
1046(a) in WRRDA 2014 states, ``The Secretary [of the Army] may accept 
and expend amounts from non-Federal entities and other Federal agencies 
to carry out this subsection and reviews of project operations or 
activities resulting from those reviews.'' This only applies to 
projects that are ``operated and maintained by the Secretary [of the 
Army]'', meaning projects operated and maintained by the Corps of 
Engineers. Section 1046 does not allow the Corps to accept funds for 
projects operated and maintained by other agencies.
    Question. How is the Corps ensuring that rigid water release 
schedules do not undermine other Federal efforts to increase water 
storage?
    Answer. The Corps uses operational flexibility afforded by the 
water control manuals to store water for the longest period of time 
possible, helping meet the needs of partners without compromising the 
flood control mission. The water release schedules prescribed by the 
Corps consider the most recent forecasts available as well as the 
results of coordination with our partners. Water release schedules are 
reevaluated on a 6-hour basis during flood events and daily during non-
flood events to ensure that changes to the reservoir, stakeholder 
concerns, and forecasts are appropriately considered. The Corps also 
has a process for deviations from control plans, outlined in ``Guidance 
on the Preparation of Deviations from Approved Water Control Plans,'' 
Regulation No. 10-1-04, dated 18 December 2014. This allows the Corps 
to operate reservoirs to meet flood control requirements while 
considering other objectives, such as increased water storage.
    Question. How has California's drought affected the Corps' 
management of Federal dams?
    Answer. In general, the drought decreased the amount of water 
coming into and being stored in Corps reservoirs, which reduced the 
number of occasions where water was released solely for flood control 
reasons. It has also showcased the importance of coordination with 
partners, especially when the storage levels in the reservoirs entered 
the flood control space. Consistent communication between the Corps and 
its partners has helped keep all parties aware of upcoming water 
demands, inflow and precipitation forecasts, and changes to reservoir 
release schedules.
    Question. When updating operation manuals, is the Corps accounting 
for its other missions, like aquatic ecosystem restoration, to ensure 
that water storage and releases benefit the California water system in 
multiple ways?
    Answer. The Army Corps always considers its missions and the 
reservoirs' authorized purposes, including when updating water control 
manuals. The Corps works collaboratively with Federal and non-Federal 
partners to update water control manuals to identify and incorporate 
benefits for different missions, and Corps partners have opportunities 
to provide comments before any documents are finalized.
                       merced army corps project
    Question. Merced County, a rural county in California, has been 
struggling for years to complete project elements of the Merced Streams 
Group that was authorized in 1944. One major project element of the 
Merced Streams Group that is yet to be completed is a flood control 
system on the Black Rascal Watershed.
    It is my understanding that the project has remained stalled due 
scarce Federal resources, delays, and errors on the part of Corps 
district staff.
    In 2013, the Corps advised Merced County that it could use local 
dollars to move forward with a cost share agreement. In 2015, however, 
the Corps reversed its position and said only Federal funds could be 
used.
    Secretary Darcy, can you explain the current situation with Merced 
County and what needs to be changed to allow them to use local dollars 
to advance the project?
    Answer. Pursuant to the Corps' contributed funds authority (33 
U.S.C. 701h), the Corps may accept such funds only if Federal funds 
have been appropriated for the study. That has not occurred because 
studies elsewhere in the Nation were considered a higher priority for 
the available Federal funds. In addition, the proposed work was 
considered in formulation of the original Merced County project 
authorized by the Flood Control Act of 1944 (Public Law 78-534). It was 
not part of the recommended plan due to concerns involving impacts to 
federally listed species.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Assistant Secretary Darcy, on February 11, 2016, I sent 
you a letter signed by 13 of my colleagues asking the Army Corps to 
finalize and publish implementation guidance for Section 2106 of the 
Water Resources and Development Act (WRRDA). WRRDA was signed into law 
in June 2014. This Subcommittee secured $25 million in funding for 
Section 2106 in the fiscal year 2016 Omnibus Appropriations bill. And 
yet, the Army Corps has still not completed implementation guidance. It 
is critical that this is done as soon as possible so that eligible 
ports have access to the appropriated funding and can maximize the 
effectiveness of Section 2106. When do you expect to issue guidance for 
Section 2106? Has the Army Corps met with eligible ports to understand 
how Section 2106 funds could be maximized on a port by port basis?
    Answer. The Corps expects to finalize implementation guidance for 
Section 2106 in the coming months. Individual Corps districts 
coordinated with eligible ports to determine how they would utilize the 
Section 2106 funds. In addition, the Corps Headquarters has been 
working to develop criteria to allocate those funds, in consultation 
with the American Association of Port Authorities. Corps Headquarters 
has also been consulting with U. S. Customs and Border Protection on 
how payments will be made to shippers and importers in those cases 
where ports elect to provide those payments.
    Question. Congress created Section 2106 so that donor ports and 
energy transfer ports can better address competitiveness by maintaining 
infrastructure through expanded uses and environmental remediation and 
by establishing a rebate program for importers and shippers to reduce 
cargo diversion to non-U.S. gateways. It is critical that the Army 
Corps provide ports the necessary flexibility to target the rebate 
program to cargo that is most at risk of diversion to non-U.S. ports. 
How will the Army Corps work with eligible ports to address cargo 
diversion? With respect to infrastructure improvements through expanded 
uses and environmental remediation projects, how will the Army Corps 
ensure eligible ports can define project parameters and contract the 
work themselves to ensure timely and cost effective project delivery?
    Answer. Section 2106 specifies that payments may be provided to 
importers entering cargo or shippers transporting cargo through that 
port. The Corps has no authority to provide ports the flexibility to 
target the rebate program to cargo that is most at risk of diversion to 
non-U.S. ports. The Corps will issue implementation guidance and work 
with the ports to define the process and infrastructure improvements 
under expanded uses and environmental remediation projects, whether the 
ports decide to perform the work themselves or have the Corps perform 
the work for them.
    Question. Washington State is the leading shellfish producing State 
in the Nation, employing over 2,700 people around the State, including 
in rural areas. The Army Corps, through the Seattle District, regulates 
the shellfish industry under Clean Water Act and Endangered Species Act 
authorities. In 2007, the Army Corps adopted Nationwide Permit 48 (NWP 
48) to permit existing shellfish farms, and an updated NWP 48 was 
adopted in 2012 to cover shellfish farms through March 2017. Since 2007 
and the initial NWP 48, Washington growers have submitted approximately 
1,000 requests for NWP 48 verification. I am very concerned by reports 
that none of these requests have been approved.
    The commercial shellfish industry contributes over $184 million 
annually to the Washington State economy, and shellfish are important 
economically and culturally to tribal and non- tribal harvesters. In 
all industries, including shellfish growing, certainty for participants 
is important for success. I understand that the Army Corps is working 
with Federal partners, including the National Marine Fisheries Service 
and U.S. Fish and Wildlife Service, to complete action on Endangered 
Species Act permitting requirements through a Programmatic Biological 
Assessment. Can you provide me with an update on when this process will 
be completed? How does the Army Corps plan to communicate with the 
regulated community as the Programmatic Biological Assessment is being 
finalized and once the regulations have been implemented on how they 
can obtain verifications?
    Answer. At this time, a Section 7 ESA consultation is underway 
between the Corps and the National Marine Fisheries Service and U.S. 
Fish and Wildlife Service (the Services) for aquaculture activities. 
This consultation is the result of several years of coordination among 
the Corps and the Services. Once this consultation is completed, many 
activities with pending requests for verification under NWP 48 may be 
verified. Any automatic verification of the pending projects before 
completion of this consultation would not be compliant with the 
Endangered Species Act or the ``endangered species'' general condition 
for the NWPs. Both the Services have indicated they will complete their 
consultations this spring.
    Question. I also understand the Army Corps is reviewing options to 
update regulations of shellfish growers under the Clean Water Act. As 
this effort continues and potential pathways are explored, can you 
share your plan for communication and engagement with interested 
stakeholders, including the State of Washington, Federal agencies, 
shellfish growers, and tribes? Increased transparency and communication 
with interested parties, including explanations of regulatory authority 
under the Endangered Species Act and Clean Water Act, are of great 
interest to me and I ask that you submit an update and expected 
timelines on these efforts to me in writing.
    Answer. Following receipt of the final Biological Opinions, the 
Corps' Seattle District intends to host an open house to explain to 
shellfish growers and all other interested parties the conditions of 
the Biological Opinions and the next steps for the pending 
applications.
    Question. The Amy Corps, through the Northwest Division, plays an 
important day-to-day role in implementing the Columbia River Treaty as 
a member of the U.S. Entity. The U.S. Entity engaged in a multi-year 
process with tribal nations and domestic stakeholders throughout the 
Pacific Northwest to reach a regional consensus to modernize the 
Columbia River Treaty. The ``Regional Recommendation for the Future of 
the Columbia River Treaty after 2024'' was presented to the 
Administration in December 2013, and the Administration has since 
developed a high-level consensus position for negotiations with Canada 
based upon these recommendations.
    Twice the entire Northwest Congressional Delegation wrote the 
Administration asking to begin formal negotiations with Canada. 
Unfortunately, we keep being told negotiations could begin soon and 
little progress has been made.
    Assistant Secretary Darcy, my constituents are greatly concerned 
about the impacts a change in Administration may have on these 
negotiations. I urge you to encourage the Administration to begin 
formal negotiation with Canada as soon as possible.
    Answer. The U.S. Army Corps of Engineers, Northwestern Division 
Commander, as a member of the U.S. Entity for the Columbia River 
Treaty, has informed the Department of State that the U.S. Entity is 
ready to support and assist in the negotiations with Canada on the 
future of the Columbia River Treaty.
    Question. Assistant Secretary Darcy, as we have previously 
discussed, the Mud Mountain Dam project is of great importance to me, 
my constituents, and Washington State. I appreciate the time and energy 
you have put into finding a path forward with NOAA to ensure the Army 
Corps meets its Endangered Species Act and tribal trust 
responsibilities by replacing the diversion dam and building a new fish 
trap facility.
    While I am pleased that the fiscal year 2017 budget request 
provides $22.35 million and a construction new start for Mud Mountain 
Dam, I firmly believe this project is not a new start. Similar projects 
have not been subject to this hurdle, for example the Columbia River 
Fish Mitigation and Missouri River Recovery Program projects. Replacing 
the old barrier structure and fish trap facility is a continuation of 
the Army Corps' Endangered Species Act and tribal trust 
responsibilities and are simply requirements to mitigate the original 
construction and ongoing operation of Mud Mountain Dam for flood 
control.
    Assistant Secretary Darcy, how is the Mud Mountain Dam project 
different than the Columbia River Fish Mitigation or Missouri River 
Recovery Program? Can you explain why a Biological Opinion which will 
bring an existing Army Corps project into compliance is a new start? 
Further, I ask that you work with me to ensure there are no funding 
gaps for this critical project if Congress passes a Continuing 
Resolution before a full-year fiscal year 2017 appropriations measure.
    Answer. Multiple construction actions have been occurring over 
numerous years on the Columbia and Missouri in an effort to mitigate 
the impacts of ongoing operation of Federal projects to threatened and 
endangered species and their habitat, while at Mud Mountain Dam the 
plan is to initiate new construction to replace a 100-year old 
facility. The Mud Mountain Dam was determined to be a new start due to 
the scope and cost of this new investment.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
    Question. After many years of strong support from the Army Corps, 
there was no funding for continuation of construction of the McCook 
Reservoir of the Chicagoland Underflow Plan in the Administration's 
fiscal year 2017 Budget. The project was authorized in 1988, and the 
Army Corps' own documentation since then shows that it has always been 
considered one flood protection project, and it has consistently 
received funding. The reservoir provides $100 million in annual 
benefits to 3.1 million people in 37 counties, including the City of 
the Chicago. It is 65 percent complete, and enjoys a three to one 
benefit cost ratio. Stopping construction of this project does not make 
sense.
    Why was funding discontinued in the President's budget? Will you 
commit to seeking its inclusion in the Army Corps' fiscal year 2017 
work plan?
    Answer. The 2016 Corps work plan added $5 million above the Budget 
level in order to provide the full amount that the Corps estimated it 
would need to complete ``Stage I'' of the McCook Reservoir project. The 
December 2011 consent decree with EPA and the Department of Justice 
requires the Metropolitan Water Reclamation District of Greater Chicago 
(MWRD) to ensure that the first of two McCook Reservoirs is in 
operation by December 31, 2017. The focus of the Corps funding to date 
has been to help MWRD meet its December 31, 2017 deadline by 
constructing part of the infrastructure called for in the consent 
decree. The Corps has now funded all of the authorized Federal share of 
that work, which will enable MWRD to collect and hold combined sewer 
overflow in this reservoir during a storm.
    The 2017 Budget does not include funding for ``Stage II'' of the 
McCook Reservoir project. Should the Congress provide additional 
funding for which this project would qualify, this project would be 
considered for funding in the 2017 Corps work plan along with other 
programs, projects, and activities across the Nation in competition for 
the available Federal resources.
    Question. Investment in flood prevention in the Metro East region, 
including protecting our levees, is vital to protecting Metro East 
communities.
    Will the Assistant Secretary commit continued open dialogue with 
the local Flood Prevention District? Will the Assistant Secretary 
commit to providing regular updates to me or my staff as they happen?
    Answer. The Metro East levee system consists of 75.8 miles of 
levees located in Madison, St. Clair, and Monroe Counties in Illinois. 
The Corps is working on this project with the Southwestern Illinois 
Flood Protection District Council (FPD) and the local levee districts 
to reduce the risk of under-seepage at these levees. The Corps welcomes 
the views of all interested parties, including the FPD, the local levee 
districts, and the public. Should the FPD or the local levee districts 
have any questions or concerns, they may contact the Corps at the 
district office, division, or headquarters levels, or my staff. The 
Corps provides periodic updates to my office on this project. I would 
be happy to work with you and your staff as well, in order to help keep 
you informed of the project status.
                                 ______
                                 
      Questions Submitted to Lieutenant General Thomas P. Bostick
             Questions Submitted by Senator James Lankford
    Question. Section 1024 of WRRDA provides that the Corps can accept 
materials and services from a non-Federal entity in an emergency 
situation if the Secretary deems it to be in the public interest. 
Considering maintenance needs of Corps assets system-wide, this would 
seem to be a good opportunity to leverage stakeholder resources. It is 
my understanding that this section has not yet been implemented.
    Does the Corps have draft implementation guidelines yet? Could we 
have a copy?
    Answer. The Corps is currently preparing implementation guidance 
for Section 1024 of WRRDA 2014.
    Question. Has this information been shared with stakeholders that 
depend on waterway systems to ensure it is workable from the private 
partner perspective?
    Answer. The Corps has discussed this provision with interested 
stakeholders. Their input is being taken into consideration during the 
preparation of the implementation guidance.
    Question. How does the Corps interpret ``emergency''? With 
substantial maintenance needs across the system, it is very possible 
that failures could occur outside of a situation in which there is an 
emergency declaration. Would these types of failures be eligible for 
private repair funding?
    Answer. Section 1024 authorizes the acceptance of materials and 
services to repair, restore, or replace a water resources development 
project that has been damaged or destroyed as a result of an emergency. 
Section 1024 is not limited to situations where there has been an 
emergency declaration by the President.
    The Corps does not view Section 1024 as allowing the Corps to 
accept services or materials to address general repair and maintenance 
needs. However, the Corps is authorized under 33 U.S.C. 701h to accept 
contributed funds from non-Federal public entities and from nonprofit 
entities, with the consent of the affected local Government, for that 
purpose.
    Question. Has the Corps settled how to handle issues regarding who 
liable for damage or injuries caused during emergency repairs using 
private funds? Do you have all the authority you need to settle 
questions over liability and licensing?
    Answer. Yes, we have all the authority needed to resolve questions 
over liability and licensing. Based on discussions with stakeholders, 
we expect to be able to address this concern.
    Question. What is the timeline for having guidelines in place and 
allowing private partners to assist with emergency repairs?
    Answer. This guidance is being developed and we anticipate issuing 
it later this year.
    Question. Stakeholders in Oklahoma have expressed an interest in 
allowing assets to be used by the Corps at no cost, but have been told 
that regulations prohibit them from accepting use of resources. For 
instance, private entities may have a dredge that they would like to 
offer to the Corps to use upon request. What is the rationale for not 
accepting this assistance?
    Answer. In general, the Corps needs specific authority to use 
equipment being provided at no cost, rather than obtaining such 
equipment using Federal procurement authorities and regulations. We 
anticipate the Corps would in many cases be able to accept and use a 
dredge provided for the purpose of repairing or restoring a project 
damaged or destroyed as a result of an emergency under Section 1024, 
but cannot answer more specifically until the implementation guidance 
is issued.
    Question. In the 2014 reauthorization of the Water Resources Reform 
and Development Act (WRRDA), Congress included a provision requiring 
the Corps to conduct an assessment of all of their properties to 
determine which are ``not needed for the mission of the Corps of 
Engineers'' (Section 6002). The intent of this language was to assess 
how Congress could help unburden the Corps from the considerable 
backlog in maintenance needs.
    In the hearing, it was stated that the Corps has not yet started 
this assessment. When will this task be undertaken? When can we expect 
to see the draft report? When can we expect to have the final report?
    Answer. Implementation guidance for Section 6002 of WRRDA 14 was 
issued on August 7, 2015. The Corps periodically reviews the need for 
the Federal properties at its projects and uses existing property 
disposal methods for those properties if they are no longer needed to 
accomplish the agency mission. These efforts are ongoing.
    Question. The Corps has previously shared that the disposal process 
for unneeded properties is so cumbersome and costly that it is often 
easier and less expensive in the short run to simply maintain unneeded 
assets. Would granting the Corps disposal authority independent of GSA 
assist in making the disposal process more manageable? What does the 
Corps need from Congress to be able to divest of unneeded assets in a 
cost-effective manner?
    Answer. Generally, GSA is responsible for the disposal of real 
property that is no longer mission-critical to Federal agencies. This 
authority works well for land and general use improvements. In some 
cases, the Corps will seek to dispose of lands associated with a 
project as part of an effort to deauthorize the project. In those 
cases, the Corps generally would perform a study and seek 
deauthorization of the project prior to submitting the disposal package 
to GSA. These studies evaluate environmental concerns, safety concerns 
and the concerns of non-Federal interests. New processes are now in 
place to reduce the time required to fund, study and make 
recommendations as appropriate addressing the proposed end state of the 
project. To further reduce the timeline, future studies will include a 
recommended disposal plan, where feasible, for Congressional 
consideration.The 2016 Corps work plan and the 2017 Budget included 
funding for studies on the disposition of assets that no longer have a 
strong Federal interest; the Corps has completed the first of these 
studies and is preparing to start five more in 2016.
    Question. The Corps was directed to produce a list of at least $18b 
in projects that are eligible for deauthorization because a significant 
amount of time has lapsed without getting funded. This list was 
produced in October of last year and found a sizable--$14b--amount of 
old, unfunded projects. An earlier report from GAO found that the Corps 
does not have written guidance for their districts requiring them to 
track studies and projects that have been authorized but not funded, 
leading to incomplete information regarding projects that may be 
eligible for deauthorization.
    Has the Corps provided a written policy for districts to follow 
regarding cataloging all authorized projects and studies? If it has 
not, when will an internal policy setting how to track this information 
be set? Will the Corps then reassess the deauthorization list?
    Answer. Yes, the Corps provided written implementation guidance to 
its divisions and districts for Sections 6001 of the Water Resources 
Reform and Development Act of 2014 and Section 1001 (b )(2) of the 
Water Resources Development Act of 1986, as amended. The Corps is 
developing an authoritative database for authorized projects and will 
use it to provide the Backlog Report and annual Minimum Funding Lists 
in accordance with Section 6001. As projects are identified for 
deauthorization eligibility they will be included in future annual 
deauthorization processes consistent with amendments to Section 1001 
(b)(2).
    The Corps is currently developing written guidance for 
deauthorizing studies in accordance with Section 710 of WRDA 1986, and 
is developing an authoritative database of studies to support this 
effort.
    Question. Does the list published in the Federal Register in 
October 2015 reflect information gathered from all of the districts?
    Answer. Yes, the list published in the Federal Register in October 
2015 reflects information gathered from all of the Corps districts.
                                 ______
                                 
                Questions Submitted to Estevan R. Lopez
            Questions Submitted by Senator Richard C. Shelby
    Question. Please explain why the Bureau of Reclamation 
(Reclamation) did not require any new data in 2004, when it changed the 
Technical Memorandum and currently does not require data regarding the 
performance of steel water pipe or ductile iron pipe with bonded 
dielectric coatings in highly corrosive soils but requires significant 
data regarding other corrosion protection methods for ductile iron 
pipe.
    Answer. Reclamation prepared the Technical Memorandum (TM) in 
response to Congressional direction received in 2003 (H.R. REP. NO. 
108-212, at 106) (2003),\1\ and it was first published in 2004. The 
data as well as the recommendations in the TM encompass all types of 
buried metallic pipe. Reclamation's technical staff reviewed and 
evaluated industry standards, national consensus standards, independent 
engineering studies, and performance data from Reclamation projects as 
well as other Federal and non-Federal pipeline owners and water 
utilities. Reclamation also met with representatives from the Ductile 
Iron Pipe Research Association (DIPRA) in May of 2003 and January of 
2004 to discuss technical issues and literature regarding corrosion 
mitigation of ductile iron pipe prior to publication of the TM. 
Reclamation also indicated that any other information DIPRA wished to 
provide would be welcomed.
---------------------------------------------------------------------------
    \1\ The relevant text from the House Report states: ``The Committee 
is concerned that the Bureau of Reclamation is not adhering to its 
guidelines, described in the ``Corrosion Prevention Criteria and 
Requirements'', with respect to the use of ductile iron pipe and steel 
pipe. With respect to both products, the Bureau of Reclamation should 
be attempting to establish good engineering practices which address the 
long-term value and cost effectiveness of facilities constructed over 
time. The Committee recognizes that additional work is needed to 
develop a more definitive corrosion standard on which to decide the 
best product for a particular application. Accordingly, the Committee 
directs the Commissioner of Reclamation to conduct a study on the 
current corrosion criteria and to report to the Committee on 
Appropriations by March 1, 2004, on its recommendations for a more 
definitive standard. Until a more appropriate standard is in place, 
which reflects the basic principle of long-term cost effectiveness, the 
current criteria should continue to be used.''
---------------------------------------------------------------------------
    Reclamation evaluated the technical content of the available 
literature, the thoroughness of the analyses, the reasonableness of the 
conclusions, and finally, the likely objectivity of the author(s). 
Reclamation then used its best technical judgment to perform what we 
believe is a balanced assessment of the available information and to 
develop a reasonable set of recommendations designed to meet 
Reclamation's 50-year minimum project service life.
    During this evaluation, Reclamation found a number of respected 
studies which raised significant technical concerns regarding corrosion 
under unbonded dielectric coatings, including polyethylene encasement 
(PE). Reclamation also found that the effectiveness of PE had been the 
subject of debate within the pipeline and corrosion industries for 
years and that the results of engineering studies on the subject differ 
widely. In addition, Reclamation found that many professionals in these 
industries question the effectiveness of a cathodic protection system 
to counter the effects of corrosion under intact PE.
    As a result of that review, Reclamation concluded that many 
corrosion engineers believe that buried pipes, which need a high level 
of corrosion protection, should have a bonded dielectric coating and 
cathodic protection. This conclusion is supported by the National 
Association of Corrosion Engineers' (NACE) International Standard 
Practice SP0169 ``Control of External Corrosion on Underground or 
Submerged Metallic Piping Systems''.
    During its evaluation of these analyses and data, Reclamation 
balanced these technical concerns against the relatively good 
performance record of ductile iron pipe with PE and recommended the use 
of PE on all sizes of ductile iron pipe in all but the most severely 
corrosive environments (i.e. soil resistivity  2000 ohm-cm). In those 
severely corrosive environments, bonded dielectric coating and cathodic 
protection (CP) was recommended for all metallic pipe types (including 
ductile iron pipe).
    Based on this work, Reclamation prepared a draft of the current TM 
and sought review from a variety of sources. Reclamation employed a 
Consultant Review Board (CRB) to conduct an independent technical peer 
review of Reclamation's draft TM. To staff the CRB, Reclamation 
contracted with two private sector corrosion engineers from CH2M Hill 
and Schiff and Associates, as well as a materials scientist with the 
National Institute of Standards and Technology (NIST). In addition, a 
contract was issued for two additional materials scientists with NIST 
to serve as independent ``referees'' to evaluate the three reviewers' 
conclusions. After incorporating the CRB's input, the updated draft TM 
was sent out for Reclamation-wide review in May, 2004.
    In July, 2004, Reclamation met with representatives of DIPRA to 
discuss the Design Decision Model (DDM) for selection of a corrosion 
control system on ductile iron pipe which DIPRA had developed in 
concert with CORRPRO (a large corrosion control company). Reclamation's 
process to evaluate the information in DIPRA's presentation was the 
same process used to evaluate all other technical reports we reviewed 
in preparation of the TM (i.e., Reclamation evaluated the technical 
content of DIPRA's presentation, the thoroughness of the analyses 
presented, the reasonableness of the conclusions, and finally, the 
likely objectivity of the author(s)). The comments from the 
Reclamation-wide review and DIPRA's input were incorporated, and the TM 
was finalized later in July, 2004.
    Reclamation has remained actively engaged in this issue since the 
2004 TM was issued. We continue to monitor technical literature on this 
subject and actively seek additional viewpoints from other 
organizations. Through these efforts, we have discovered many other 
organizations have concerns with the use of PE on ductile iron pipe. 
These organizations include non-Federal water resource agencies and 
other Federal agencies such as the Department of Transportation (DOT), 
Department of Defense, the Environmental Protection Agency, and the 
U.S. Army Corps of Engineers. Reclamation continuously seeks 
information on this issue by having its technical staff serve on 
national technical society committees such as the American Water Works 
Association (AWWA) Standards Committee A21 ``Ductile Iron Pipe'' and 
the NACE International Task Group 014 ``Corrosion and Corrosion Control 
for Cast-and Ductile-Iron Pipe.''
    In the judgment and expertise of Reclamation, the technical 
positions outlined in the TM are fundamentally sound and represent a 
reasonable position in light of the available data, industry standards 
and practice, and scientific understanding of the issues. The 2008-2009 
National Academy of Science's (NAS) review of the TM concluded that 
ductile iron pipe with PE and CP is not likely to provide a reliable 
50-year service life in severely corrosive soils ( 2,000 ohm-cm) and 
bonded dielectric coating with CP would be more effective. In reaching 
this conclusion, the committee evaluated data from all sources, 
including the DOT data provided by Reclamation and the data and 
analysis provided and presented by DIPRA.
    The NAS report confirms Reclamation's concern with the durability 
of ductile iron pipe with polyethylene encasement and cathodic 
protection installed in severely corrosive soils. Also, while the NAS 
committee could not assure that Reclamation's recommended corrosion 
protection system (bonded dielectric coating with cathodic protection) 
would provide a reliable 50-year service life for ductile iron pipe 
installed in these soils, the report does state that this system 
substantially improves the chances of achieving this level of 
reliability.
    Reclamation agrees the collection of additional performance data 
recommended by the NAS committee will be beneficial as the agency seeks 
to refine its technical position in an updated TM. Reclamation has 
awarded a Grant Agreement to collect and compile water pipeline field 
performance data to Virginia Polytechnic Institute and State University 
(Virginia Tech). This agreement has a completion date of December 31, 
2017.
    During a July 2015 meeting between Reclamation, and representatives 
from the ductile iron pipe industry, DIPRA proposed that Reclamation 
change its corrosion prevention criteria for ductile iron pipe in soils 
having resistivity values equal to or less than 2,000 ohm-cm from 
bonded dielectric coating and cathodic protection, to a zinc 
metallizing with enhanced polyethylene encasement (V-BIO) and cathodic 
protection. Following the meeting, DIPRA provided several documents to 
support their position that their proposal would perform well in 
severely corrosive soils.
    Reclamation's review of the submitted data focused on ascertaining 
the data covering field performance of zinc coated ductile iron pipe in 
severely corrosive soils. However, the majority of the supplied data 
was in reference to the use of conventional polyethylene encasement to 
protect ductile iron pipe in corrosive soils. Of the few documents 
submitted in support of zinc coated pipe, the majority of them were 
very old references published in the 1970s and 1980s that provided 
limited performance data. Also, none of the documents addressed the 
long-term performance of enhanced PE (V-BIO), and none addressed the 
performance of the proposed combination of zinc metallizing, V- BIO, 
and cathodic protection. Based on this review, Reclamation concluded 
that while zinc or zinc with PE may provide some improvement over bare 
pipe or pipe with PE wrap alone in some soils, there is no evidence 
that this system will provide the same level of long term protection as 
a bonded dielectric coating with cathodic protection in severely 
corrosive soils.
    The fiscal year 2016 Consolidated Appropriations Act (PL 114-113) 
directed Reclamation to contract with one of the Department of Energy's 
(DOE) national laboratories with expertise in materials and corrosion 
disciplines to develop performance data for zinc-coated ductile iron 
pipe applications in highly- or severely-corrosive soils. The 
laboratory will also independently evaluate and recommend, based on the 
performance data and any other relevant data or information the 
laboratory may obtain, whether the material meets the corrosion 
protection requirements in the TM. On May 11, 2016, Reclamation awarded 
an Interagency Agreement to DOE's Oak Ridge National Laboratory to 
perform this study.
    Question. Is it Reclamation's position that data is not required 
for a method of corrosion protection if there is a national or 
international standard for that method of corrosion protection?
    Answer. Yes, Reclamation uses national consensus standards to guide 
its technical decisions where the use of those standards is 
practicable. Where those standards do not exist, do not address 
Reclamation's technical needs, or conflict, Reclamation develops its 
own internal technical documents to guide the development of designs 
for Reclamation designed and/or funded projects. It is Reclamation's 
position that methods and practices contained in a national standard 
have more weight than methods that are provided for information only 
and specifically identified as not being a part of the national 
standard.
  --For example: The NACE International Standard Practice SP0169, 
        ``Control of External Corrosion on Underground or Submerged 
        Metallic Piping Systems,'' presents acknowledged practices for 
        the control of external corrosion on buried or submerged steel, 
        cast iron, ductile iron, copper, and aluminum piping systems. 
        Section 5.1.2.3 states: ``Pipeline external coating systems 
        shall be properly selected and applied to ensure that adequate 
        bonding is obtained. Unbonded coatings can create electrical 
        shielding of the pipeline that could jeopardize the 
        effectiveness of the CP system.'' (PE is an unbonded 
        coating.)The AWWA Standard C105 ``Polyethylene Encasement for 
        Ductile- Iron Pipe Systems'' is a material and installation 
        standard. Appendix A of that document provides a method to 
        determine if PE should be used for corrosion protection of 
        ductile iron pipe systems, butis specifically identified as not 
        a part of the ANSI/AWWA C105/A21.5 standard.
    Question. Based upon significant concerns, Congress has included 
directives to Reclamation for 5 years regarding its Technical 
Memorandum. Among the concerns are that Reclamation is holding 
different materials to different standards and increasing project 
costs. In addition, Congress noted in the fiscal year 2014 Consolidated 
Appropriations Act Explanatory Statement for Energy and Water that 
``[y]et another claim that Reclamation has always been in compliance 
and no changes are necessary is not a satisfactory response.'' Please 
provide the changes that Reclamation has made in the implementation of 
the Technical Memorandum and in the treatment of different materials to 
address these concerns.
    Answer. The TM's corrosion control recommendations for both steel 
and ductile iron pipe in severely corrosive soils are the same--bonded 
dielectric coating with CP.
    Reclamation uses the Technical Memorandum as a starting point for 
its decisions relative to the corrosion protection of buried metallic 
pipe, but it considers other factors and resources for its technical 
decisions related to corrosion protection. Reclamation relies on site-
specific design data such as soil chemistry, national standards (e.g. 
NACE SP0169 and ANSI/AWWA C105/A21.5), and engineering judgment to 
guide decisions on the design of corrosion mitigation measures for 
Reclamation's buried metallic pipelines. The appropriate usage of the 
TM was reinforced by a February 24, 2010 memorandum from Reclamation's 
Deputy Commissioner--Operations to Reclamation's Leadership Team.
    To allow additional flexibility in the application of the TM, 
Reclamation policy provides a process by which a deviation from design 
criteria and engineering and technical standards can be vetted and 
approved by the local Reclamation executive. This process, as it 
relates specifically to requests to deviate from the corrosion 
mitigation design criteria in the TM, was clarified by a March 13, 2015 
memorandum from Reclamation's Deputy Commissioner--Operations to 
Reclamation's Leadership Team.
    Question. Please list any and all standards of evaluation 
(viability, betterment, etc.) that Reclamation has used to evaluate the 
various materials and methods of corrosion control in the Technical 
Memorandum from 2003 until today. Please provide the year, standard and 
type of material/corrosion protection.
    Answer. Reclamation does not use a ``betterment'' standard for 
corrosion control of buried metallic pipe. Reclamation has identified a 
target performance level of zero external corrosion induced leaks/
ruptures/failures which would require the pipeline to be taken out of 
service during the minimum service life (i.e. 50 years) for the 
pipelines Reclamation designs and/or funds. Reclamation believes that 
the target performance level is reasonable in light of the types of 
pipelines that it typically constructs, but one which may not always be 
achieved due to a variety of factors including unseen imperfections and 
the number of variables involved with pipe installation in the field. 
The materials used and the type of corrosion protection needed varies 
depending on design parameters and soil conditions in the installation 
area.
    Question. Please provide any and all performance standards that 
Reclamation has used to evaluate the various materials and methods of 
corrosion control in the Technical Memorandum from 2003 until today. 
Please provide the year, standard and type of material/corrosion 
protection.
    Answer. Reclamation has identified a target performance level of 
zero external corrosion induced leaks/ruptures/failures which would 
require the pipeline to be taken out of service during the minimum 
service life (i.e. 50 years) for the pipelines Reclamation designs and/
or funds. Reclamation believes that the target performance level is 
reasonable in light of the types of pipelines that it typically 
constructs, but one which may not always be achieved due to a variety 
of factors including unseen imperfections and the number of variables 
involved with pipe installation in the field. The materials used and 
the type of corrosion protection needed varies depending on design 
parameters and soil conditions in the installation area.
    Question. Reclamation has acknowledged that some adjustment is 
necessary for the performance figures for ``significant incidents'' for 
oil and gas pipelines in soils of unknown corrosivity in the 2008 
National Academies of Science report to provide a more accurate 
comparison with ductile iron water pipe with polyethylene encasement in 
highly corrosive soils. Please provide those adjustments and the basis 
for those adjustments.
    Answer. The noted text is taken from Section 4 of the 2009 NAS 
Report which concluded that ductile iron pipe with PE and CP is not 
likely to provide a reliable 50-year service life in severely corrosive 
soils ( 2,000 ohm-cm) and a bonded dielectric coating with CP would be 
more effective. At the start of the NAS Committee's deliberations, they 
asked Reclamation to provide a quantitative benchmark against which 
they could measure the performance of ductile iron pipe installed in 
severely corrosive soils with PE and CP, in lieu of Reclamation's 
stated target performance level of zero external corrosion induced 
leaks/ruptures/failures which would require the pipeline to be taken 
out of service during the minimum service life (i.e., 50 years).
    Specifically they asked if Reclamation would accept a similar 
failure rate for ductile iron pipe installed in severely corrosive 
soils with PE and CP, as they would get from steel pipe installed in 
severely corrosive soils with a bonded dielectric coating and CP. 
Reclamation responded that this would be a reasonable benchmark which 
led to the NAS Committee requesting information on Reclamation's 
experience related to the performance (i.e., failure rates) of steel 
pipe installed in severely corrosive soils, with a bonded dielectric 
coating, and cathodic protection. In response to this question, 
Reclamation conducted a review of available data on Reclamation's and 
other organizations' pipelines.
    During this review, Reclamation reached out to the U. S. Department 
of Transportation (DOT), Pipeline and Hazardous Materials Safety 
Administration, Office of Pipeline Safety, to see if they had the 
quantitative performance data requested by the Committee. Reclamation 
acknowledges that this data was related to steel pipelines carrying 
materials other than water, but believes the causes and rates of 
external corrosion and protection against such corrosion are the same 
regardless of the product being carried. Reclamation therefore 
concluded that the DOT database was the best source of quantitative 
data on this issue at that time.
    Reclamation focused their review of the significant incidents 
tracked in the database to those pipelines that most closely matched 
the Committee's interest (i.e., coated steel pipe installed with 
cathodic protection) and, like most of Reclamation's projects, were 
transmission lines versus smaller distribution lines. Reclamation also 
limited their review to significant incidents that were caused by 
external corrosion. Focusing on this subset of data within DOT's 
database, Reclamation was able to compute an average annual failure 
rate for these pipelines of 0.0000444 failures per mile per year (based 
on about 93,000 miles of installed steel pipe). Using the results of 
this analysis, a 450-mile long steel pipeline installed with coating 
and cathodic protection could be expected to experience one failure due 
to external corrosion during the first 50 years of service.
    The DOT database does not include information on the soil 
conditions in which the pipelines are installed, so Reclamation was not 
able to further screen the data to include only pipe installed in 
severely corrosive soils. At that time, Reclamation noted that it was 
not able to quantify the impact this issue would have on the calculated 
performance data noted above, but some adjustment to the computed 
failure rate may be warranted to compensate for this uncertainty in 
soil conditions across the data set. However, as Reclamation also 
noted, even with an adjustment to the computed failure rate, it 
believed the analysis supported their original response to the 
Committee's question of what Reclamation defines as reliably providing 
a minimum service life of 50 years for our pipelines.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data should provide more useful data.
    Question. Please explain why Reclamation used the performance of 
oil and gas pipelines in soils of unknown corrosivity as a proxy for 
the performance of steel water pipe in highly corrosive soils in a life 
cycle analysis when Reclamation had data regarding steel water 
pipelines in highly corrosive soils at the time it used the oil and gas 
data.
    Answer. The life cycle analysis was conducted in August 2009 using 
best available data at the time. As stated in Commissioner Connor's 
letter to DIPRA dated January 29, 2010, ``Our analysis showed the 
present worth of these additional capital costs for CP along with the 
additional OM&R costs associated with long term operations of the CP 
system was about 5 percent of the total project cost. Thus, the life 
cycle cost of a cathodically protected ductile iron pipeline with 
polyethylene encasement was about 5 percent higher than the life cycle 
cost for a similarly protected steel pipeline with a bonded dielectric 
coating. A summary of these analyses is shown in Attachment 3.'' 
Referring to Attachment 3, Scenario 3 which removes pipe repair costs 
from the analysis, the life cycle cost of a cathodically protected 
ductile iron pipe with polyethylene encasement was calculated to be 4.7 
percent higher than the life cycle cost for a similarly protected steel 
pipe with a bonded dielectric coating. Reclamation's conclusion from 
their life cycle analysis is independent of pipe repair costs.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data will provide the foundation for 
assessing life cycle costs on a broader basis.
    Question. In the same life cycle analysis, Reclamation used the 
failure of one ductile iron water pipeline in highly corrosive soils as 
a proxy for the performance of ductile iron pipe in highly corrosive 
soils when Reclamation had aggregate data regarding ductile iron 
pipelines in highly corrosive soils. Why did Reclamation use the single 
data point instead of the aggregate data?
    Answer. The life cycle analysis was conducted in August 2009 using 
best available data at the time. As stated in Commissioner Connor's 
letter to DIPRA dated January 29, 2010, ``Our analysis showed the 
present worth of these additional capital costs for CP along with the 
additional OM&R costs associated with long term operations of the CP 
system was about 5 percent of the total project cost. Thus, the life 
cycle cost of a cathodically protected ductile iron pipeline with 
polyethylene encasement was about 5 percent higher than the life cycle 
cost for a similarly protected steel pipeline with a bonded dielectric 
coating. A summary of these analyses is shown in Attachment 3.'' 
Referring to Attachment 3, Scenario 3 which removes pipe repair costs 
from the analysis, the life cycle cost of a cathodically protected 
ductile iron pipe with polyethylene encasement was calculated to be 4.7 
percent higher than the life cycle cost for a similarly protected steel 
pipe with a bonded dielectric coating. Reclamation's conclusion from 
their life cycle analysis is independent of pipe repair costs.
    The data gathering and analyses currently being planned pursuant to 
the grant agreement awarded to Virginia Tech to collect and compile 
water pipeline field performance data will provide the foundation for 
assessing life cycle costs on a broader basis.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Commissioner Lopez, I am concerned that Reclamation has 
pumped less water in 2016 during this El Nino year than it did in 2015, 
when California was in extreme drought. Flows were as high as 50,000 
cubic feet per second in the Sacramento River, yet the agencies reduced 
pumping to the low-end of the biological opinions because of one smelt.
    I continue to hear that water pumping decisions are still being 
based on when protected fish might be near the pumps rather than when 
we know they actually are present. For example, Interior may reduce 
pumping if even one smelt is found as far away as 17 miles from the 
pumps near a monitoring station called Prisoner's Point.
    But outside biologists and scientists believe that Reclamation is 
reducing pumping prematurely. These experts believe that the agencies 
could continue with higher pumping levels even if smelt are found at a 
monitoring station that is only 12 miles from the pumps.
    What are you doing to test whether or not smelt identified past the 
Prisoner's Point monitoring station can still survive and make their 
way back out to the central Delta?
    Answer. Addressing this issue is challenging and would require 
tagging and marking studies similar to those conducted on salmonids. 
Until very recently, tags small enough to use in smelt have not been 
available/tested. The use of such technology to evaluate the movements 
of wild or other smelt in the Delta is needed, but as far as we are 
aware is in the planning stages only.
    Reclamation is participating in efforts to apply this technology to 
the study of smelt movement and survival in the southern Delta. 
Projects stemming from the following proposal are ongoing with some of 
the work soon to be published in a leading journal:

    Assessing Tagging-Related Mortality and Tag Retention in Adult 
        Delta smelt to Support Field Investigations in Clifton Court 
        Forebay and the Skinner Fish Facility (Grimaldo et al.--SFCWA 
        Research Grant Proposal)

    Due to the threatened and endangered status of the salmonid species 
in the Delta, most tagging/marking studies involving salmonids use 
hatchery produced specimens and not wild fish. The Delta smelt 
population is currently not augmented via hatchery-produced specimens. 
In addition, the use of wild smelt for such studies would be 
problematic due to the endangered status of the species and its 
population levels, which are currently at an all-time low. Efforts to 
identify individual wild fish by unique physical markings and 
characters are ongoing and may have applicability to Delta smelt in the 
future.
    Question. If you aren't doing this monitoring, can you start doing 
it with some of the $100 million in drought funding from December's 
Omnibus appropriations bill?
    Answer. If the monitoring work is conducted during fiscal year 
2017, current drought funding could be used to fund studies focused on 
developing and applying methods to determine smelt movements and 
survival in the southern Delta. Efforts are being made in this area.
    Question. What is the Bureau of Reclamation doing to address other 
threats to smelt, such as ammonia from sewage discharges and predation 
by other species?
    Answer. Since 2010, Reclamation funded studies that address ammonia 
loading and its potential effects on Delta smelt and the Delta 
ecosystem. There is no evidence of acute ammonia toxicity to Delta 
smelt or any other fish in the Delta. Some studies indicate the 
possibility of chronic effects in larval Delta smelt and their copepod 
prey when exposed to high concentrations under laboratory conditions. 
Some earlier research suggested that ammonium may inhibit diatom 
production in Suisun Bay under certain combinations, but recent does 
not support this hypothesis. Ammonium, may degrade delta smelt habitat 
by favoring Microcystis, a potentially toxic form of phytoplankton. The 
Sacramento regional wastewater treatment facility, one of the sources 
of ammonium loading to the Delta, is upgrading its plant to advanced 
tertiary treatment methods and completion is expected by 2020. This 
action will eliminate almost all of its contribution to Delta ammonium 
loading.
    Predation is a common natural interaction within ecologic 
communities and occurs at some level for a multitude of fish species. 
Reclamation continues to support research related to predation, 
including several specifically focused on predation of Delta smelt.
    Question. How is the Bureau of Reclamation working with other 
Federal agencies, like National Oceanic and Atmospheric Administration 
(NOAA) Fisheries and Fish and Wildlife Service, to develop and 
implement system-wide capabilities to monitor and track fish migrations 
into and out of the Delta?
    Answer. Reclamation has and continues to provide funding to NOAA 
Fisheries and the Fish and Wildlife Service (FWS) to monitor and track 
ESA-listed fish species, both in and out of the Delta. Reclamation 
continues to work with a consortium of multiple agencies (including 
NOAA Fisheries and FWS) within the framework of the Interagency 
Ecological Program and beyond to monitor and track fish in the Delta. 
Over twenty separate monitoring activities within this program occur 
year-round, but with increased effort from fall through early summer.
    Beyond their ongoing tracking, Reclamation has provided FWS with 
$3.8 million this year to fund additional studies, including whether 
the viability measuring point can be moved from the current 17 mile 
marker at ``Prisoner's Point.'' This study will take several years. To 
date, however, FWS maintains the measuring point at ``Prisoner's 
Point.''
    Additionally, Reclamation's Tracy Fish Collection Facility has one 
of the most extensive long- term monitoring programs within the Delta, 
sampling every 2 hours on a continual basis. Monitoring and sampling 
activities include fish (covering the full range of life stages), water 
quality parameters and genetic material.
    Question. How is the Bureau of Reclamation working with other 
Federal agencies, like NOAA Fisheries and Fish and Wildlife Service, to 
research and evaluate the impacts of Delta operations on fish behavior 
and potential mortality?
    Answer. Reclamation continues to work with a consortium of multiple 
agencies (including NOAA Fisheries and FWS) within the framework of the 
Interagency Ecological Program (IEP). The IEP provides relevant and 
timely ecological information for management of the Bay-Delta ecosystem 
and the water that flows through it. Priorities within the program 
include:
  --Improving the understanding of abundance, distribution, life 
        history diversity, and life stage requirements of Delta smelt, 
        longfin smelt, salmonids, steelhead and green sturgeon to 
        inform management decisions.
  --Improving smelt, salmonid and sturgeon real-time monitoring, 
        indirect mortality, and entrainment prediction tools to reduce 
        take and increase operational flexibility of the State and 
        Federal water project pumps.
  --Improving chinook and steelhead viability in the Delta with an 
        initial emphasis on south Delta salmon survival through studies 
        and modeling.
  --Understanding the factors impairing water beneficial uses to inform 
        management decisions.
    Reclamation has supported a number of studies on juvenile salmonid 
survival in relation to Delta operations. These studies include:
  --A 6 year fish tracking and monitoring study of San Joaquin 
        steelhead survival (called for in NOAA Fisheries biological 
        opinion).
  --Fish tracking and monitoring studies of juvenile Chinook movement 
        in relation to Delta Cross Channel operations (with FWS and the 
        U. S. Geological Survey (USGS)).
  --Physical and non-physical barrier studies at Head of Old River and 
        Georgiana Slough (with the California Department of Water 
        Resources and USGS).
  --Chinook salmon survival studies based on coded wire tag recoveries 
        (with FWS).
    The majority of projects are coordinated with NOAA Fisheries and 
FWS with multiple project work teams (Chinook salmon, smelt, sturgeon, 
steelhead, delta rearing, Sacramento River monitoring, hatchery, and 
collaborative adaptive management team) and the Delta Operations groups 
continuously seeking ways to understand fish behavior, mortality and to 
improve survival.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Commissioner Lopez, farmers in the Odessa Subarea of the 
Columbia Basin Project have faced significant challenges for several 
years as groundwater from the aquifer has been declining. This rapid 
decline has put agriculture production and commercial, municipal, and 
industrial water uses at risk. According to a study conducted by 
Washington State University, $840 million and 3,600 jobs are at risk if 
agriculture producers in the Odessa Subarea no longer have access to 
groundwater from the aquifer and no alternative water solution is in 
place.
    I appreciate your ongoing work with the State of Washington and the 
three impacted irrigation districts to prevent further depletion of the 
Odessa Subarea aquifer and deliver much needed surface water to 
agricultural lands within the Columbia Basin Project. Renewing the 
Master Water Service Contract with the East Columbia Basin Irrigation 
District (ECBID) last year was a significant milestone in this process. 
This will ensure ECBID can move forward with the development of the 
first of seven planned pressurized delivery systems to provide surface 
water to 87,700 acres of the Odessa Subarea in the Columbia Basin 
Project.
    I understand that additional amendments to the Water Service 
Contract are needed for 70,000 acres within the Odessa Subarea. What is 
the current status of this amendment and when do you expect it to be 
completed?
    Answer. Work on the amendment to the Master Water Service contract 
is in progress. Evaluation of the existing annual water service rate 
and completion of the rate-setting process are underway. Reclamation 
completed a draft payment capacity study in March 2016 and received 
comments from the irrigation districts in May 2016. Reclamation is 
reviewing the districts' comments and finalizing this study, which is 
needed to complete an ability to pay study. Reclamation has several 
other actions to complete as part of this process, including 
environmental compliance, reviewing land eligibility, completing a 
basis of negotiation, preparing the contract amendment, and negotiating 
the contract with ECBID. Additionally, Reclamation is required to 
provide a 60-day public notice prior to contract execution. We expect 
this process to be complete by the end of calendar year 2016.
    Question. Are you aware of any challenges that may delay completion 
of this work?
    Answer. We do not expect any delays. Unanticipated factors, 
including litigation or a significant change request from ECBID could 
delay completion of the process. The requirement for a 60-day public 
notice prior to contract execution was factored in to the completion 
date noted in the previous question.

                          SUBCOMMITTEE RECESS

    Senator Alexander. Thank you for being here today.
    The subcommittee will stand adjourned.
    Senator Feinstein. Thank you, Mr. Chairman. Good work.
    [Whereupon, at 4:35 p.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
